<html>
<title> - ENCOURAGING THE PARTICIPATION OF FEMALE STUDENTS IN STEM FIELDS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                    ENCOURAGING THE PARTICIPATION OF
                     FEMALE STUDENTS IN STEM FIELDS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON RESEARCH AND
                           SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 21, 2009

                               __________

                           Serial No. 111-45

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
50-663PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. DANIEL LIPINSKI, Illinois, Chair
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
BRIAN BAIRD, Washington              RANDY NEUGEBAUER, Texas
MARCIA L. FUDGE, Ohio                BOB INGLIS, South Carolina
PAUL D. TONKO, New York              BRIAN P. BILBRAY, California
PARKER GRIFFITH, Alabama                 
RUSS CARNAHAN, Missouri                  
BART GORDON, Tennessee               RALPH M. HALL, Texas
               DAHLIA SOKOLOV Subcommittee Staff Director
            MARCY GALLO Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
                    BESS CAUGHRAN Research Assistant












                            C O N T E N T S

                             July 21, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Daniel Lipinski, Chairman, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........     8
    Written Statement............................................     9

Statement by Representative Vernon J. Ehlers, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................     9

                               Witnesses:

Dr. Alan I. Leshner, Chief Executive Officer, American 
  Association for the Advancement of Science
    Oral Statement...............................................    11
    Written Statement............................................    12
    Biography....................................................    16

Dr. Marcia Brumit Kropf, Chief Operating Officer, Girls 
  Incorporated
    Oral Statement...............................................    17
    Written Statement............................................    18
    Biography....................................................    22

Dr. Sandra L. Hanson, Professor of Sociology, Catholic University
    Oral Statement...............................................    22
    Written Statement............................................    24
    Biography....................................................    32

Ms. Barbara Bogue, Co-Founder, Co-Director, SWE AWE Project; 
  Associate Professor of Engineering Science and Mechanics and 
  Women in Engineering, Pennsylvania State University
    Oral Statement...............................................    33
    Written Statement............................................    35
    Biography....................................................    41

Ms. Cherryl T. Thomas, President and Founder, Ardmore Associates, 
  LLC
    Oral Statement...............................................    41
    Written Statement............................................    43
    Biography....................................................    45

Discussion.......................................................    46

              Appendix: Additional Material for the Record

Statement of the American Association of University Women........    58

Statement of the Council on Undergraduate Research...............    63

Statement of the Girl Scouts of the USA..........................    66

 
    ENCOURAGING THE PARTICIPATION OF FEMALE STUDENTS IN STEM FIELDS

                              ----------                              


                         TUESDAY, JULY 24, 2009

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:12 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Daniel 
Lipinski [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                    Encouraging the Participation of

                     Female Students in STEM Fields

                         tuesday, july 21, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On July 21, 2009 the Subcommittee on Research and Science Education 
of the House Committee on Science and Technology will hold a hearing to 
examine current research findings, best practices, and the role of the 
federal agencies in increasing the interest of girls in science, 
technology, engineering, and mathematics (STEM) in primary and 
secondary school, and addressing the challenges that deter young women 
from pursuing post-secondary STEM degrees.

2. Witnesses

        <bullet>  Dr. Alan I. Leshner, Chief Executive Officer, 
        American Association for the Advancement of Science (AAAS).

        <bullet>  Dr. Marcia Brumit Kropf, Chief Operating Officer, 
        Girls Incorporated.

        <bullet>  Dr. Sandra Hanson, Professor of Sociology, Catholic 
        University.

        <bullet>  Ms. Barbara Bogue, Associate Professor of Engineering 
        Science and Mechanics and Women in Engineering, Penn State 
        College of Engineering.

        <bullet>  Ms. Cherryl Thomas, President, Ardmore Associates 
        LLC.

3. Overarching Questions

        <bullet>  What is the current status of the participation of 
        girls in STEM in primary, secondary, and post-secondary school? 
        How does participation vary by field? How does it vary by other 
        demographic categories, including race, ethnicity, and 
        socioeconomic status?

        <bullet>  What are the biggest challenges to increasing girls' 
        interest and participation in STEM learning at the K-12 level, 
        and to recruiting and retaining female undergraduates in STEM 
        fields? Are there policies, programs or activities with 
        demonstrated effectiveness in increasing the interest and 
        participation of girls and young women in STEM? What roles can 
        scientific organizations, formal and informal educators, non-
        profits, and businesses play in addressing these challenges and 
        providing opportunities for girls to become engaged in STEM? 
        What role can the Federal Government play in addressing these 
        challenges? Are there particular federal programs or resources 
        that can be most helpful?

        <bullet>  What assessment tools exist for evaluating the 
        effectiveness of such programs? What are the barriers to 
        improving assessment?

        <bullet>  What is the current state of research on the 
        involvement of girls in STEM? What do we know about how 
        teaching strategies, cultural norms, educational environments, 
        and other outside factors shape girls' interest and 
        participation in STEM? What are the biggest unanswered research 
        questions?

4. Brief Overview

        <bullet>  A highly-skilled, STEM educated workforce is 
        essential to ensuring U.S. competitiveness and leadership in 
        the global economy of the 21st century. However, according to 
        many reports, our country is facing a shortage of workers 
        skilled in STEM. By broadening the STEM pipeline to include 
        those who have been historically under-represented in STEM 
        fields, we create a larger, more diverse STEM talent pool.

        <bullet>  In recent years, increased attention has been paid to 
        the issue of gender inequity in STEM. Numerous reports have 
        highlighted the continued lack of participation of girls and 
        young women in certain STEM fields, most notably in the fields 
        of engineering, physics, and computer science.

        <bullet>  Research findings suggest that women and other under-
        represented groups face unique challenges at multiple stages of 
        the STEM pipeline, beginning at an early age.

        <bullet>  Both federal programs as well as non-governmental 
        organizations and programs have been created to address these 
        challenges.

5. Current Status of Participation of Female Students in STEM Fields

Enrollment
    According to data compiled by the National Science Foundation 
(NSF), in 2006 women earned more than half of all Bachelor's degrees 
(58 percent). Women also hold more than half of all science and 
engineering degrees (51 percent), but with notable variation among 
fields. Women earned more than half of the Bachelor's degrees in 
psychology (77 percent), biological sciences (62 percent), and social 
sciences (54 percent), and almost half (45 percent) in math. However, 
in certain STEM fields, women remain largely under-represented. Women 
received only 20 percent of computer science degrees, 21 percent of 
physics degrees, and 20 percent of engineering degrees. Due to 
continued attrition throughout graduate school as well as other factors 
that deter women from entering STEM careers, women make up almost half 
(49 percent) of the Nation's workforce, but only 25 percent of the STEM 
workforce.

Achievement
    The most recent National Association of Educational Progress (NAEP) 
assessment reports a small but persistent gap in performance between 
boys and girls in grades 4, 8, and 12--less than one percent for math 
and less than three percent for science. Many researchers suggest that 
issues such as self-confidence and perceived expectations negatively 
affect the achievement of girls on standardized tests.

6. Barriers to Increased Participation

    A report of the Commission on the Advancement of Women and 
Minorities in Science, Engineering, and Technology suggests that there 
are four key time periods in which women seem to lose interest in STEM: 
at the beginning of middle school, towards the end of high school, 
throughout college and graduate school, and in their professional 
lives.\1\
---------------------------------------------------------------------------
    \1\ Congressional Commission on the Advancement of Women and 
Minorities in Science, Engineering, and Technology Development. (2000). 
Land of Plenty: Diversity as America's Competitive Edge in Science, 
Engineering and Technology.
---------------------------------------------------------------------------
    Research suggests that in elementary school, as many girls as boys 
have positive attitudes about science. A recent NSF funded study of 
fourth graders showed that 66 percent of girls and 68 percent of boys 
reported liking science. By the eighth grade, however, boys report 
twice as much interest in STEM careers as girls. Issues such as 
stereotypes, cultural expectations, self-efficacy and the behavior of 
teachers and parents are all potential contributors to girls' attitudes 
about STEM at an early age. Barriers persist as young women leave high 
school to enter post-secondary school. Although women now make up the 
majority of undergraduate students, participation of women in STEM 
degree programs remains markedly low. Issues such as a lack of female 
role models or a female peer group, and unsupportive classroom 
environments have been shown to deter women from pursuing or remaining 
in STEM degree programs in post-secondary school.\2\
---------------------------------------------------------------------------
    \2\ Fancsali, Cheri. What We Know About Girls, STEM and Afterschool 
Programs.
---------------------------------------------------------------------------
    The National Science Foundation (NSF), a major funding source for 
research on gender and STEM learning, compiled the following list, 
based on NSF research findings, of five common myths about girls and 
science:\3\
---------------------------------------------------------------------------
    \3\ http://www.nsf.gov/news/
news<INF>-</INF>summ.jsp?cntn<INF>-</INF>id=109939

1.  Myth: From the time they start school, most girls are less 
                    interested in science than boys are.

    Reality: In elementary school about as many girls as boys have 
positive attitudes toward science. A recent study of fourth graders 
showed that 66 percent of girls and 68 percent of boys reported liking 
science. But something else starts happening in elementary school. By 
second grade, when students (both boys and girls) are asked to draw a 
scientist, most portray a white male in a lab coat. The drawings 
generally show an isolated person with a beaker or test tube. Any woman 
scientist they draw looks severe and not very happy. The persistence of 
the stereotypes start to turn girls off, and by eighth grade, boys are 
twice as interested in STEM careers as girls are. The female attrition 
continues throughout high school, college, and even the work force. 
Women with STEM higher education degrees are twice as likely to leave a 
scientific or engineering job as men with comparable STEM degrees.

2.  Myth: Classroom interventions that work to increase girls' interest 
                    in STEM run the risk of turning off the boys.

    Reality: Actually, educators have found that interventions that 
work to increase girls' interest in STEM also increase such interest 
among the boys in the classroom. When girls are shown images of women 
scientists and given a greater sense of possibility about the person 
they could become, the boys get the message too--``I can do this!''

3.  Myth: Science and math teachers are no longer biased toward their 
                    male students.

    Reality: In fact, biases are persistent, and teachers often 
interact more with boys than with girls in science and math. A teacher 
will often help a boy do an experiment by explaining how to do it, 
while when a girl asks for assistance the teacher will often simply do 
the experiment, leaving the girl to watch rather than do. Research 
shows that when teachers are deliberate about taking steps to involve 
the female students, everyone winds up benefiting.

4.  Myth: When girls just aren't interested in science, parents can't 
                    do much to motivate them.

    Reality: Parents' support (as well as that of teachers) has been 
shown to be crucial to a girl's interest in science, technology, 
engineering and math. Making girls aware of the range of science and 
engineering careers available and their relevance to society works to 
attract more women (as well as men) to STEM careers. Parents and 
teachers are also in a position to tell young people what they need to 
do (in terms of course work and grades) to put themselves on a path to 
a STEM career.

5.  Myth: At the college level, changing the STEM curriculum runs the 
                    risk of watering down important ``sink or swim'' 
                    course work.

    Reality: The mentality of needing to ``weed out'' weaker students 
in college majors--especially in the more quantitative disciplines--
disproportionately weeds out women. This is not necessarily because 
women are failing. Rather, women often perceive ``Bs'' as inadequate 
grades and drop out, while men with ``Cs'' will persist with the class. 
``Bridge programs'' that prepare students for challenging course work 
can counteract this. One of the most effective interventions to help 
young women choose and sustain a STEM educational path and subsequent 
STEM career is mentoring. In addition, changing the curriculum often 
leads to better recruitment and retention of both women and men in STEM 
classrooms and majors. For example, having students work in pairs on 
programming in entry-level computer science and engineering (CSE) 
courses leads to greater retention of both men and women in CSE majors.
    Title IX of the Education Amendments of 1972, the federal law that 
outlaws sex discrimination at schools receiving federal funds, has had 
a notable impact on womens' participation in athletics. In recent 
years, some advocates have called for applying Title IX to science and 
engineering departments, as a means to address barriers to women in 
these fields. However, there is no consensus on how Title IX might be 
applied to academic departments across diverse fields and institutions.

7. Federal Support for Gender Equity in STEM Education

NSF Research on Gender and Science in Engineering Program
    The National Science Foundation is the largest public funding 
source for research on the participation of girls and women in STEM. 
Beginning in 1993 with the establishment of the Program for Women and 
Girls, housed in the NSF's Division of Human Resource Development in 
the Directorate for Education and Human Resources, NSF began investing 
in research projects to improve the representation of girls and women 
in STEM. The Research on Gender in Science and Engineering Program 
(GSE), which grew out of the 1993 program, funds research designed to 
add to the body of knowledge on gender and STEM. GSE supports research 
on gender-related differences in learning, student and educator 
programs, as well as dissemination projects that aim to inform 
education practicioners about relevant research findings on how 
educational experiences, teaching styles, curriculum, institutional 
culture, and other factors affect female student interest, 
participation and performance in certain STEM fields.
    In 2003 and 2006, the GSE program at NSF produced a series of 
publications with information and resources designed to help educators, 
employers, and parents promote gender diversity in STEM. New Formulas 
for America's Workforce: Girls in Science and Engineering is a two 
volume series presenting research and best practices on how to attract 
girls and women to the STEM disciplines. It also presents the results 
of various intervention programs that have succeeded in overcoming 
obstacles and enhancing the participation and achievement of girls in 
STEM. The agency then followed up with the New Tools for America's 
Workforce, a supplementary publication that catalogs the various 
resources available to educators through NSF.
    The FY09 budget for the Research on Gender and Science in 
Engineering Program was approximately $11.5 million. Three of the 
witnesses on the panel today have received, or are currently receiving 
NSF funding through the GSE program.

Support at Other Agencies
    There are a variety of education programs and activities across the 
federal agencies that seek to encourage the participation of girls in 
STEM. NASA, often in partnership with a number of girl-serving 
organizations, such as the Girl Scouts, provides opportunities for 
young girls to learn about NASA and interact with female astronauts. 
For example, the NASA Summer Institute in Science, Technology, 
Engineering, and Research (SISTER), is a five-day summer program for 
middle-school girls. In the SISTER program, 6-8th grade girls are given 
the opportunity to interact with NASA research scientists and explore 
STEM career fields. The Department of Energy supports programs for 
girls and young women as well. One such program, the Conference on 
Undergraduate Women in Physics, is designed to provide workshops, panel 
discussions, and other opportunities for female undergraduate physics 
students to interact with other women in the discipline.
    The Department of Education has also been active in promoting 
gender equity in STEM. In 2007, the Department of Education, through 
the Institute for Education Sciences, released a Practice Guide 
entitled, ``Encouraging Girls in Math and Science.'' The guide was 
developed by a panel of experts with the goal to compile the best 
available evidence-based recommendations to assist educators in 
encouraging girls in the fields of math and science. The guide offers a 
series of five recommendations for educators:

        (1)  teach students that academic abilities are expandable and 
        improvable;

        (2)  provide prescriptive, informal feedback;

        (3)  expose girls to female role models who have succeeded in 
        math and science;

        (4)  create a classroom environment that sparks initial 
        curiosity and fosters long-term interest in math and science; 
        and

        (5)  provide spatial skills training.

8. Questions for Witnesses

Dr. Alan I. Leshner

        <bullet>  What is the current status of the involvement of 
        girls in STEM? What are the biggest challenges to attracting 
        and retaining young women and girls in STEM fields, and what 
        are the most promising solutions to these challenges?

        <bullet>  What role can scientific organizations such as AAAS 
        play in helping to address these challenges? Please describe 
        AAAS work targeted at increasing girls' interest and 
        participation in STEM learning.

        <bullet>  What role can the Federal Government play in 
        increasing the interest of girls in STEM at the primary and 
        secondary education level, and in addressing the challenges 
        that deter young women from pursuing post-secondary STEM 
        degrees?

Dr. Marcia Brumit Kropf

        <bullet>  What is the current status of the involvement of 
        girls in STEM? What are the biggest challenges to attracting 
        and retaining young women and girls in STEM fields, and what 
        are the most promising solutions to these challenges?

        <bullet>  What role can organizations such as Girls Inc. play 
        in addressing these challenges and providing opportunities for 
        girls to become engaged in STEM? Please describe the work of 
        Girls Inc. and the evolution of your STEM programming. What 
        programs or activities at Girls Inc. have been effective in 
        increasing girls' interest and participation in STEM learning, 
        and what were the key elements that led to their success? Are 
        there common characteristics of programs that have demonstrated 
        success in attracting girls to STEM?

        <bullet>  What role can the Federal Government play in 
        increasing the interest of girls in STEM at the primary and 
        secondary education level, and in addressing the challenges 
        that deter young women from pursuing post-secondary STEM 
        degrees? What is the nature of your interaction with federal 
        agencies? Are there particular federal programs or resources 
        that can be most helpful?

Dr. Sandra Hanson

        <bullet>  Please provide an overview of your research. What 
        have you learned about what shapes girls' interest and 
        participation in STEM?

        <bullet>  What is the current status of research on the 
        involvement of girls in STEM? What do we know about how 
        teaching strategies, educational environments, and other 
        outside factors affect girls' interest or achievement in STEM 
        in the elementary, middle, and high school years? What are the 
        most important unanswered research questions?

        <bullet>  How can dissemination of these research findings be 
        improved so that formal and informal educators and education 
        policy-makers implement best practices?

Ms. Barbara Bogue

        <bullet>  Please provide an overview of the Society of Women's 
        Engineers' Assessing Women in Engineering Project. What metrics 
        and methodologies exist for assessing and evaluating the 
        effectiveness of programs designed to increase girls' 
        participation in STEM? What are the barriers to improving 
        assessment and developing better metrics? What kinds of 
        programs or policies have been shown to be effective through 
        rigorous evaluation?

        <bullet>  In your role as associate professor of Women in 
        Engineering at Penn State, what do you see as the biggest 
        barriers to recruiting and retaining female undergraduates in 
        STEM fields? What programs or activities at your institution 
        (or others you are familiar with) have been effective in 
        addressing the barriers you identified above, and what were the 
        key elements that led to their success?

Ms. Cherryl Thomas

        <bullet>  What influenced your decision to pursue a career in 
        engineering, and what were some of the greatest barriers you 
        faced as a woman in a STEM field?

        <bullet>  What are the biggest challenges to attracting and 
        retaining young women and girls in STEM fields, and what are 
        the most promising solutions to these challenges?
    Chairman Lipinski. The hearing will now come to order.
    Good morning, and welcome to the Research and Science 
Education Subcommittee hearing on Encouraging the Participation 
of Female Students in STEM Fields.
    For the past decades, girls and women have made substantial 
gains in breaking down barriers in both education and the 
workforce. However, women's participation rates in certain STEM 
disciplines remain disproportionately low. According to NSF 
(National Science Foundation), although women earned more than 
half of all science and engineering Bachelor's degrees in 2006, 
they earned only about 20 percent of degrees in engineering, 
computer science, and physics. Although this is an improvement 
from the time when I was earning my mechanical engineering 
degree at Northwestern 20 years ago, more can be done to 
encourage women in these fields.
    We have heard time and time again that as a nation, we are 
not producing enough scientists and engineers for the 
increasing number of technical jobs of the future. We need to 
make sure that we have the scientific and technical workforce 
that we need if we are to remain a leader in a global economy, 
and it is not possible to do this without developing and 
encouraging all the talent in our nation. We must have women 
engineers, computer scientists, and physicists. By broadening 
the STEM pipeline to include more women and other unrepresented 
groups, we can strengthen our workforce.
    In the last Congress, Chairman Baird worked with Ms. 
Johnson to focus on issues for women in academic science and 
engineering. Today, we look at the beginning of the pipeline, 
and examine what factors impact women in STEM fields, from 
kindergarten through the end of college.
    The issue of female students in STEM fields is something 
that is really close to home for me. My wife is an actuary, and 
a fellow with the Society of Actuaries, has gone through all of 
her exams, and reached the top of her field. And I asked her 
what encouraged her, what really impacted her along the way, 
and for her, it was an advisor in college who recommended that 
she go and talk to a math professor who really encouraged her 
to be a math major, and encouraged her to thereafter go into 
actuarial sciences. So, that was her story, and that is how she 
wound up where she is today.
    We know that women can face unique challenges throughout 
the STEM pipeline, and we invited today's witnesses to help us 
understand what these barriers are, and how we can break them 
down. It is important for the Federal Government to do its part 
in supporting research and programs that encourage best 
practices to attract and retain women in STEM, but there is a 
role for disciplinary societies, formal and informal educators, 
nonprofits, businesses, and other stakeholders.
    Fortunately, there is a lot of good work already underway 
to address some of these challenges, and I look forward to 
hearing from our witnesses today about what is working, what 
obstacles remain, and where we go from here. I thank all of our 
witnesses for being here today, and I look forward to your 
testimony.
    Now, the Chair will recognize Dr. Ehlers for an opening 
statement.
    [The prepared statement of Chairman Lipinski follows:]
             Prepared Statement of Chairman Daniel Lipinski
    Good morning and welcome to this Research and Science Education 
Subcommittee hearing on Encouraging the Participation of Female 
Students in STEM Fields.
    Over the past few decades, girls and women have made substantial 
gains in breaking down barriers in both education and the workforce. 
However women's participation rates in certain STEM disciplines remains 
disproportionately low. According to the NSF, although women earned 
more than half of all science and engineering Bachelor's degrees in 
2006, they earned only about 20 percent of degrees in engineering, 
computer science, and physics. Although this is an improvement from the 
time I was earning my mechanical engineering degree from Northwestern 
University 20 years ago, more can be done to encourage women in these 
fields.
    We have heard time and time again that, as a nation, we are not 
producing enough scientists and engineers for the increasing number of 
technical jobs of the future. We need to make sure that we have the 
scientific and technical workforce we need if we are to remain a leader 
in the global economy, and it is not possible do this without 
developing and encouraging all the talent in our nation. We must have 
women engineers, computer scientists, and physicists. By broadening the 
STEM pipeline to include more women and other under-represented groups, 
we can strengthen our workforce.
    In the last Congress, Chairman Baird worked with Ms. Johnson to 
focus on issues for women in academic science and engineering. Today we 
look back to the beginning of the pipeline, and examine what factors 
impact women in STEM fields from kindergarten through the end of 
college.
    The issue of female students in STEM fields hits close to home for 
me. My wife is a fully credentialed actuary. I asked her what led her 
down this path. For her it was her college advisor and a math 
professor.
    We know that women can face unique challenges throughout the STEM 
pipeline, and we invited today's witnesses to help us understand what 
those barriers are and how we can break them down. It is important for 
the Federal Government to do its part in supporting research and 
programs that encourage best practices to attract and retain women in 
STEM, but there is a role for disciplinary societies, formal and 
informal educators, non-profits, businesses, and other stakeholders. 
Fortunately, there is a lot of good work already underway to address 
some of these challenges, and I look forward to hearing from our 
witnesses today about what is working, what obstacles remain, and where 
we go from here.
    I thank all of the witnesses for being here today and I look 
forward to your testimony.

    Mr. Ehlers. Thank you, Mr. Chairman, and thank you for the 
good words you have just spoken.
    Today's hearing is an opportunity for us to gain insight 
into the reasons why young women are being deterred from 
pursuing careers in science, technology, engineering, and 
mathematics, better known as STEM. And I think it is essential, 
because each one of us tends to think we know what the problem 
is and what the answers are, but I think when we listen to the 
experts here today, we will find out how wrong we are, looking 
at it from our male perspective.
    Strengthening math and science education is essential to 
the future of American economic competitiveness, and the lack 
of female participation in these areas is a great hindrance 
that must be remedied, for one reason, just out of fairness to 
all involved. Secondly, because the Nation can certainly 
benefit from the involvement of more individuals interested in 
math and science.
    Despite the fact that women represent more than half of all 
Bachelor's degrees, they constitute only 25 percent of the STEM 
workforce in the United States. I spend a considerable amount 
of time and effort in Congress promoting STEM education, and 
this committee has held multiple hearings on the topic, paying 
particular attention to the need for more women and minorities 
in STEM fields. As a professor, I have also spent a good deal 
of time trying to interest women in math and science, 
particularly with the idea of developing new opportunities for 
them, but also, since many of them were to become teachers, 
also changing their perspective on math and science, and why it 
is important to teach math and science to everyone in 
elementary school.
    While great strides have been made since my days as a 
student, and later as a professor of physics at Calvin College 
and at Berkeley, the data still show great disparities in the 
participation of women in STEM. Much to my dismay, women 
represent only 21 percent of physics degrees, according to the 
National Science Foundation. It is my hope that today's 
observations will offer this committee insight into ways to 
better support these important fields of study as we continue 
to explore any federal role.
    I look forward to the testimony of our distinguished panel. 
I thank them for being here, but I just have to add one point 
that I think is essential, and that is the jobs of the future 
are going to require of the workers a basic understanding of 
the fundamental principles of mathematics and science. I don't 
think there is any disagreement with that. If we do not, in 
some way, persuade women to learn these topics in the 
elementary and secondary levels, we and they are automatically 
cutting themselves out of a great many job opportunities in the 
future.
    So, let us hope we can do a better job than we have done. I 
look forward to hearing from each and every one of you. Thank 
you.
    Chairman Lipinski. Thank you, Dr. Ehlers. As usual, with 
your background as a physicist and also, the great concern that 
you have for science in this country and scientists, you always 
have a lot of important things to add, and it is good to have 
you working with me on this.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    So now I would like to introduce our witnesses. First, we 
have Dr. Alan Leshner, who is the Chief Executive Officer of 
the American Association for the Advancement of Science.
    Next, we have Dr. Marcia Brumit Kropf, who is the Chief 
Operating Officer of Girls Incorporated. Dr. Kropf comes to us 
from New York, and Mr. Tonko had hoped that he would be here to 
introduce her himself, but unfortunately he is tied up with 
another committee this morning and will try to join us at some 
point.
    Next, we have Dr. Sandra Hanson, who is a professor of 
sociology at Catholic University. We have Ms. Barbara Bogue, 
who is an Associate Professor of Engineering Science and 
Mechanics and Women in Engineering at Penn State.
    And finally, we have Ms. Cherryl Thomas who I know from 
back home in Chicago, who has worked not only in the 
administration of Mayor Daley, but also in the Clinton 
Administration. Ms. Thomas is currently the President and 
Founder of Ardmore Associates, an engineering construction 
management firm in Chicago.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the Members of the Committee 
will have five minutes each to ask questions, so I ask you 
hopefully to stay in the five minutes here. Your complete 
written statement will be added to the record.
    So, with that, we will start with Dr. Leshner. I recognize 
you for five minutes.

  STATEMENT OF DR. ALAN I. LESHNER, CHIEF EXECUTIVE OFFICER, 
      AMERICAN ASSOCIATION FOR THE ADVANCEMENT OF SCIENCE

    Dr. Leshner. Thank you, Mr. Chairman, Dr. Ehlers, thank you 
for your leadership in convening this hearing, and thank you 
for the invitation for us to testify.
    As you know, the American Association for the Advancement 
of Science (AAAS) is the world's largest multi-disciplinary 
scientific society, and we are the publishers of the well-known 
journal Science.
    Our involvement in education extends from pre-kindergarten 
through postgraduate, and into the careers of the scientific 
workforce. We have a long history of efforts to increase the 
participation of girls and young women, and to enhance the 
status of women in science, technology, engineering, and 
mathematics.
    The first woman President of AAAS was elected in 1970, and 
since that time, 35 percent of those in the presidential line 
have been distinguished women. In 1973, AAAS created both an 
office of and a committee on opportunities in science, and 
their activities continue today.
    I am very pleased to note that since the early days of 
advocacy and action related to women in STEM fields, the levels 
of enrollment and degrees awarded have overall increased 
dramatically. At K-12 levels, participation gaps between males 
and females have disappeared in such courses as chemistry, 
advanced algebra, and pre-calculus mathematics. This, then, has 
affected women's course taking and professional aspirations at 
undergraduate and higher levels. As one example, in 1977, women 
received roughly 22 percent of doctoral degrees in the 
biological sciences, but as you know, by 2006, women received 
almost half of biological science Ph.D.s in this country.
    Despite this kind of progress, however, some serious 
challenges remain. And I have to start with the general 
statement that for K-12 education overall, science and math 
standards are unfortunately way too low for all students, 
whatever their career goals, whatever their genders, and we, as 
a country, have got to do something to change that. From my 
perspective, that is the largest problem facing education in 
this country.
    In high schools and colleges, gaps still do persist for 
young women in pursuing courses like physics, calculus, and 
computer science, as you noted, but here, the percentage has 
actually decreased over time, and that needs focused attention.
    Women overall have about a 40 percent share within the 
overall physical sciences, but that number masks the fact that 
in 2006, although women received half the Bachelor's degrees in 
fields like astronomy and chemistry, as you noted, women 
received only 20 percent of the Bachelor's degrees in physics, 
and women still receive only 20 percent of Bachelor's degrees 
in engineering. The gap is real; the gap exists.
    It is more problematic that even when women do pursue 
science degrees, many leave the scientific workforce because of 
the lack of career opportunities that enable them to do a 
better job balancing having a career and a life outside the 
laboratory. Fortunately there have been some, but frankly, too 
few federal programs, as well as changes in culture in some 
institutions to change this. Just as one example, the ADVANCE 
Program of the National Science Foundation is an example of an 
effective mechanism to foster these accommodations.
    So, what can we do? Well, organizations like AAAS have a 
robust set of career-related activities generally, working 
cooperatively through something we established called a Center 
on Careers in Science and Technology. And both alone and 
through external partnerships, we produce materials that 
feature young and established women in STEM careers telling 
their stories, providing guidance to guidance counselors and 
educators.
    We also have a Center on Advancing Science and Engineering 
capacity. Its purpose is to emphasize research-based 
interventions of demonstrated effectiveness, in order to help 
universities fully develop and utilize the talents of women and 
minority students and faculty. And I might point out that we 
try to provide role models as well. Women are active and 
visible participants in every aspect of the leadership of AAAS. 
Speakers and organizers of our meetings and conferences, 
leaders in the organization's governance, and I should point 
out that among the senior staff, over 50 percent are female.
    How about the Federal Government? Many of us believe that a 
new call to serve for young men and women needs to link the 
critical role of education in STEM fields with the opportunity 
to address global concerns. Young people are far more 
interested in the relevance of what they do with their lives 
than they were, at least, in my generation, when I was trained 
as a scientist, where if you worried about relevance, you had 
sold out.
    We also need much better data and statistics. It is 
critical to improve the recruitment and retention in STEM 
fields, to help identify measures of success, and to figure out 
what is working and what the climate is. We also need to 
support research to help us identify and better understand best 
practices that do work, that are effective in providing greater 
support.
    Let me conclude by saying that it is critical that the 
United States have access to the full talent of all its 
citizens, and that every effort has to be made to enable that. 
As we face pressing societal challenges, all of whose solutions 
involve science and technology, either directly or indirectly, 
we can't afford to allow the great potential contributions of 
women to go untapped.
    Thank you very much.
    [The prepared statement of Dr. Leshner follows:]
                 Prepared Statement of Alan I. Leshner
    Chairman Lipinski, Ranking Member Ehlers, Members of the 
Subcommittee, thank you for the opportunity to testify today on the 
critically important topic of encouraging women and girls to pursue 
science, mathematics and engineering fields of study.
    The American Association for the Advancement of Science (AAAS) is 
the largest multidisciplinary scientific society and publisher of the 
journal Science. The Association encompasses all fields of science, 
engineering, mathematics, biomedicine and their applications. Our 
commitment to and involvement in education extends from pre-
Kindergarten through post-graduate and into the workforce.
    AAAS has a long history of efforts to increase the participation of 
girls and young women and to enhance the status of women in science, 
technology, engineering and mathematics (STEM). The association has 
communicated this commitment to equal opportunity in many ways: through 
its mission statement, its programs, and its governance. This work is 
consistent with the AAAS mission to ``advance science, engineering, and 
innovation throughout the world for the benefit of all people.'' To 
fulfill this mission, the AAAS Board has set out broad goals that 
include strengthening and diversifying the science and technology (S&T) 
workforce and fostering education in science and technology for 
everyone.
    The first woman President of AAAS was elected in 1970: Dr. Mina 
Rees, a mathematician. Since that time 35 percent of those in the 
presidential line have been women--all distinguished scientists, 
engineers, mathematicians and physician scientists. In 1971 the AAAS 
Council passed a resolution urging the establishment of a women's 
office. The goals of that resolution were realized in 1973 with the 
creation of the AAAS Office of and Committee on Opportunities in 
Science. The mandate of the office and committee was ultimately 
enlarged beyond the concerns of gender equity to include attention to 
issues of minorities and persons with disabilities.
    Since those early days of advocacy and action related to women in 
STEM, the makeup of the larger science and engineering communities has 
changed. Fueled by societal changes regarding the participation of 
women in a range of career opportunities and improved access to science 
and engineering education for women, the levels of enrollment and 
degrees awarded increased dramatically.
    At K-12 levels, young women greatly increased their course-taking 
in science and mathematics to the extent that participation gaps 
between males and females disappeared in courses such as chemistry, 
advanced algebra and pre-calculus mathematics. Women moved from nine 
percent of those earning M.D. degrees in 1972-73 to earning nearly 50 
percent of M.D. degrees in 2007. We saw similar success in women's 
participation in the life sciences. Between 1973 and 1977, women 
received 22 percent of doctoral degrees in the biological sciences; by 
2006 women received almost half of such Ph.D.s awarded.
    Despite the progress achieved in the past there are many challenges 
that remain.

        <bullet>  In K-12 education, standards are unfortunately too 
        low for all students and expectations lag, especially for 
        students from groups without a clear history of participation 
        in STEM fields.

        <bullet>  In high schools gaps persist for young women in 
        pursuing study in courses such as physics, calculus and 
        computer science. That gap continues to the undergraduate 
        levels.

        <bullet>  In 2006, women represented only 20 percent of those 
        receiving Bachelor's degrees in engineering.

        <bullet>  The percentage of Bachelor's degrees awarded to women 
        in computer sciences was highest in 1984 at over 37 percent but 
        has subsequently declined to today's level of 20.5 precent.

        <bullet>  There is a wide variation around women's 
        participation within the broader fields of science and 
        engineering. For example, women's 40+ percent share within the 
        physical sciences masks the fact that women received half of 
        the Bachelor's degrees in fields such as astronomy and 
        chemistry but only 20 percent of Bachelor's degrees in physics 
        in 2006. In addition, women received 19.4 percent of all 
        engineering Bachelor's degrees in 2005-2006; this ranges from 
        their 43.1 percent and 41.1 percent share of degrees in 
        environmental and biomedical engineering degrees, respectively, 
        to their 10.5 percent share of degrees in computer engineering 
        on the other end of the spectrum.

        <bullet>  There is concern about the trajectory of doctoral 
        production for women in many fields. For doctorates awarded to 
        U.S. citizens and permanent residents there has been a 
        plateauing or downward trending in women's share of degrees in 
        mathematics, geosciences and computer science since about 2000.

        <bullet>  Even in fields such as psychology, where women have 
        received more than 50 percent of Ph.D.s since the mid 1980's 
        (and where they have received over two-thirds of doctorates 
        since 1996), in 2007-2008 they were less likely to be in the 
        rank of full professor (26.4 percent of women vs. 46.3 percent 
        of men) and more likely to be in non-tenure track or lecturer 
        positions. In chemistry, despite receiving at least 30 percent 
        of Ph.D.s since the mid-1990's, women are not appearing in 
        significant numbers among the ranks of the chemistry faculty in 
        many of our major research institutions.

        <bullet>  Even where women may have reached the level of full 
        professor at major research universities, climate studies of 
        the academic environment at many of these institutions reveal 
        that women continue to face ongoing micro-inequities and lack 
        diversity in the faculty hiring pools. And the hiring 
        challenges are especially severe for women from under-
        represented racial/ethnic minority groups.

    Although the story of women in STEM fields is one of tremendous 
gains over the past 40 years, it is a bittersweet story that is coupled 
with uneven progress and sometimes loss of ground--a discipline-
specific program here, a department there, but seldom an institution-
wide effort.
    And even where women are able to attain degrees, many leave the 
scientific workforce because of the lack of career opportunities that 
respect the balance between having a career and a life outside of the 
laboratory.
    Fortunately, there have been some recent changes in culture in some 
institutions to legitimize the idea of making allowances for women and 
men in the workplace (especially in academe) to accommodate such needs. 
For example, the ADVANCE program of the National Science Foundation has 
been especially important in funding efforts on campuses of research 
universities to effect structural changes that lead to the creation of 
work environments where women and men are supported in blending the 
demands of their work and their lives.
    We know that the challenges presented above need not be the norm 
since we see institutions that are able to do much better:

        <bullet>  Institutions that have high percentages of women in 
        engineering--for example, Morgan State University, where women 
        received over 42 percent of such Bachelor's degrees in 2007.

        <bullet>  Institutions with high percentages of women in 
        computer science--for example, Carnegie Mellon University, 
        which was able to move from seven percent to about 40 percent 
        entering majors between 1995 and 2001.

        <bullet>  Curriculum arrangements that produce different 
        outcomes--for example, programs of ``Physics First'' in Rhode 
        Island, which are generating more excitement as well as parity 
        in physics course taking.

        <bullet>  Departments with more than the token woman--for 
        example, the chemistry faculty of Purdue University, which 
        boasts 15 women.

    The question is, ``what do these institutions do differently?'' How 
do we more broadly share these effective practices? How can individual 
champions, departments and whole institutions be rewarded and 
recognized for their effective efforts?

What Can AAAS Do?

Recognition. Responding to the need to give recognition and visibility 
to individuals who have excelled in their efforts as mentors to 
students from under-represented groups, AAAS established its mentoring 
award, conferred first in 1991. This award served as the inspiration 
for the Presidential Awards for Excellence in Science, Mathematics and 
Engineering Mentoring program administrated by the National Science 
Foundation.

Defining ``Normative'' Behavior. An important role that a professional 
society plays is in helping to define what is an acceptable practice 
within the culture of the discipline. Through the years and on numerous 
occasions, the association has prescribed and clarified its position in 
support of equal opportunity in science and non-discrimination in the 
workplace and has urged its affiliates to adopt similar positions. Such 
a stance helps to shape the mores of the community, defining as 
unacceptable behaviors that ``create an atmosphere that is not 
conducive to the advancement of science.''

Career Development. AAAS has a robust set of career-related activities 
coordinated across its programs and the journal Science, working 
cooperatively through a Center on Careers in Science and Technology. 
Through partnerships with organizations and corporations, AAAS produces 
materials that feature young and established women in STEM careers, 
telling their stories about their lives in science and beyond. These 
materials are among the resources that are distributed to organizations 
and institutions by AAAS and others as we reach into communities to 
help young women, along with their parents and teachers, explore the 
possibilities of careers in science. It is also important to tell these 
stories to higher education faculty.
    In partnership with L'Oreal and its initiative ``For Women in 
Science'' we manage the postdoctoral awards program, giving a boost to 
the careers of young women scientists through grants to support their 
independent entry into research as well as through a program of 
professional development and skill building.

Education and Career Guidance. Through the support of a grant to 
promote STEM careers (especially those focused on energy and 
environment) to middle grades students, we are developing training 
materials and models for guidance counselors in secondary schools. By 
demystifying potential S&T jobs of the future and the education needed 
to pursue these career tracks, we are also directly addressing the 
stereotypes about ``who can do science and engineering,'' allowing the 
opportunity to develop the talent of students who may be female, 
members of minority groups and/or persons with disabilities.

Capacity Building. Recognizing the need to develop organizational 
capacity to assess program value and effectiveness, AAAS has 
established its Center on Advancing Science and Engineering Capacity. 
Working largely with universities, AAAS assists these institutions in 
developing internal structures to evaluate their programs and processes 
and to act on the information that it gains. The Capacity Center points 
to research-based interventions of demonstrated effectiveness to fully 
develop and utilize the talents of women and men among its 
undergraduate and graduate students as well as in support of 
diversifying its faculty.
    Capacity building has not been confined to formal education; for 
decades AAAS has worked with community-based organizations and girl-
serving groups to incorporate STEM programming into the suite of 
informal activities that such groups provide. In the past our 
partnerships have included Girls, Inc. (represented here at this 
hearing) and Delta Research and Education Foundation of Delta Sigma 
Theta Sorority (a service sorority of college-educated African American 
women who used the AAAS-developed training models and materials to 
organize science-focused community activities for families). These 
types of informal science education opportunities have been found to be 
particularly effective for engaging under-represented groups in the 
sciences. It is a theme that is echoed in the new NAS report, Learning 
Science in Informal Environments: People, Places and Pursuits.

``The Double Bind.'' AAAS has played a leadership role in identifying 
barriers to education and careers in science, engineering and 
biomedicine for women who face multiple barriers including race/
ethnicity and/or disability. In 1975 AAAS convened the first conference 
on minority women in science, the proceedings of which were published 
as The Double Bind: The Price of Being a Minority Woman in Science. The 
Association catalyzed the development of a national network of minority 
women as well and urged the collection and reporting of data 
disaggregated by race/ethnicity and by sex. Such data are critical to 
identifying barriers still encountered by these women such as their 
lower levels of participation within university STEM faculties, even 
where their levels of doctoral attainment compare favorably with males 
of their particular group.

Visibility. Women are active and visible participants in every aspect 
of the leadership of AAAS: as speakers and organizers of meetings and 
conferences; as leaders in the governance of the organization; and 
among the ranks of its senior staff. It is critically important that 
young women who may be asking if there is a place for them in science 
see examples of individuals who have made this choice, who are being 
successful and making a difference.

What Can the Federal Government Do?

    Many researchers and program managers believe that STEM fields are 
not being ``marketed'' appropriately to girls and young women. While 
President Obama has articulated specific challenges where science and 
engineering must play a role, it is also important to provide materials 
(and opportunities for engagement) that demonstrate how STEM connects 
to addressing the real world problems we face as a nation and as a 
world. Consider, for example, the areas of engineering where the 
distribution of Bachelor's degrees in environmental and biomedical 
engineering awarded to women approaches that of men.
    Many believe that a new call to serve for both young men and young 
women needs to link the critical role of education in STEM fields with 
the opportunity to address global concerns such as food security, clean 
water, climate change, clean sources of energy, and infectious diseases 
and other health issues. Students need examples of people who are doing 
this work today as well as access to opportunities for experiential 
learning. It is important in such efforts to prominently include women 
as well as men.
    There is a range of laws and executive orders that pertain to 
colleges and universities as educational institutions as well as their 
role as recipients of federal funding that require fair treatment and 
equal opportunity. It is important that the Federal Government provide 
guidance and assistance to higher education institutions in their 
voluntary reviews of their practices to ensure that there is full 
access to study and employment for women as well as men. It is 
important that we not tolerate discrimination in any form: in 
establishing environments supportive of women's education in STEM 
fields; in applications, hiring, salaries and so on.
    In addition we need to explore the cost of pursuing STEM careers, 
both in terms of loans that must be repaid as well as the opportunity 
costs incurred through additional years of school. While access and the 
cost of education are problems for all, expecting a future of lower 
compensation is a major deterrent. With high rates of attrition and 
poor prospects for jobs, especially in universities, science is losing 
in the competition for talent. With debt and expectations of lower 
salaries women will vote with their feet.

Statistics. Critical to efforts to improve the recruitment and 
retention of women in STEM fields is identifying measures of success 
and ``keeping score.'' While this certainly means evaluating individual 
local programs for their effectiveness, it also means maintaining the 
statistical base in this country that will allow us to gauge 
``climate'' and chart progress. We need to be able to look at 
enrollment data by specific field of study and by each degree level; 
disaggregated for men and women, most certainly, but also for women 
from different racial/ethnic groups and by citizenship status.
    We need better information on women in the S&T workforce as well as 
their participation as members of the STEM faculties of different kinds 
of institutions.

Better Practices. It was noted above that institutions vary widely in 
their outcomes for women in STEM, as students as well as faculty. The 
Federal Government needs to support the research that helps us better 
understand the practices that are especially effective as well as 
provide greater support for dissemination of these. Federal laws and 
infrastructure are already in place to support much of this work. 
Several aspects that currently apply to the National Science Foundation 
might be viewed for wider adoption across agencies that support STEM 
education and careers. In particular, the NSF Equal Opportunity in 
Science and Engineering Act and the Committee on Equal Opportunities in 
Science and Engineering might help inform government-wide efforts to 
support equal access to education and careers. In addition, in select 
agencies aspects of NSF's ``broader impacts'' criterion in award of 
support might also be explored.
    With regard to assembling the talent needed to address America's 
challenges, including our long-term competitiveness, it is ``all hands 
on deck.'' It is critical that the United States have access to the 
full talents of all of its citizens and that every effort be made to 
enable that. As we face pressing challenges whose solutions depend upon 
science and technology, we cannot afford to waste the minds and 
potential of women.

                     Biography for Alan I. Leshner
    Alan I. Leshner is Chief Executive Officer of the American 
Association for the Advancement of Science (AAAS) and Executive 
Publisher of its journal, Science. From 1994 to 2001, Dr. Leshner was 
Director of the U.S. National Institute on Drug Abuse at the National 
Institutes of Health (NIH), and from 1988 to 1994 he was Deputy 
Director and Acting Director of the National Institute of Mental 
Health. Prior to that, he spent nine years at the National Science 
Foundation, where he held a variety of senior positions, focusing on 
basic research in the biological, behavioral and social sciences, on 
science policy and on science education. Dr. Leshner began his career 
at Bucknell University, where he was Professor of Psychology. His 
research has focused on the biological bases of behavior, particularly 
the role of hormones in the control of behavior. Dr. Leshner is an 
elected member of the Institute of Medicine of the National Academy of 
Sciences, and an elected fellow of the AAAS, the American Academy of 
Arts and Sciences, and the National Academy of Public Administration. 
He has received numerous awards from both professional and lay groups 
for his national leadership in science, mental illness and mental 
health, substance abuse and addiction, and public engagement with 
science. He received an A.B. degree in Psychology from Franklin and 
Marshall College and M.S. and Ph.D. degrees in Physiological Psychology 
from Rutgers University. He also has been awarded six Honorary Doctor 
of Science degrees.

    Chairman Lipinski. Thank you, Dr. Leshner. I now recognize 
Dr. Kropf.

STATEMENT OF DR. MARCIA BRUMIT KROPF, CHIEF OPERATING OFFICER, 
                      GIRLS INCORPORATED

    Dr. Kropf. Mr. Chairman, Ranking Member Ehlers, thank you 
for the opportunity to testify before you today.
    As you know, I am the Chief Operating Officer of Girls 
Incorporated. That is the national nonprofit that inspires all 
girls to be strong, smart, and bold. On behalf of Girls Inc., 
our 96 local affiliates, and the girls we serve, I am pleased 
to present our approach to advancing girls' interests, 
confidence, and competence in STEM fields.
    In 1985, with funding from the National Science Foundation, 
we launched Girls Inc. Operation Smart, our program to help 
girls develop enthusiasm for and skills in STEM. Since that 
time, more than 750,000 girls have participated in this 
program. Our experience with Operation Smart and our research 
and development leads us to three important messages for you 
today.
    First, despite gains in the number and achievement of girls 
and women in STEM, substantial gaps remain. Over the past 30 
years, as the barriers of entry into many STEM fields have 
eased, women have vastly increased their proportion of academic 
degrees earned in STEM, as you just heard.
    At the same time, however, gaps remain. Girls in the United 
States today grow up at a time when women have unprecedented 
opportunities, but they are also aware that in our society, 
stereotypes persist. In a 2006 Girls Inc. survey, conducted by 
Harris Interactive, 55 percent of girls in grades 3-12 agreed 
with this statement: ``In my school, boys think they have the 
right to talk about girls' bodies in public.'' 44 percent of 
girls, half, almost half, agreed that: ``The smartest girls in 
my school are not popular.'' 36 percent said: ``People think 
girls are not interested in computers and technology.'' And 17 
percent of girls thought it was true that: ``Teachers think it 
is not important for girls to be good at math.'' And those 
statistics, by the way, didn't change much since an earlier 
survey in 2000.
    This last finding leads to our second message, that 
informal science education is a critical strategy to address 
the gender gap. The National Academies recently published a 
report on learning science in informal settings, advising that 
schools should not be solely responsible for addressing the 
scientific knowledge needs of society, and we at Girls Inc. 
agree. Informal education allows students the ability to learn, 
to discover through prolonged, hands-on collaborative 
experiences, to become comfortable making mistakes, and using 
trial and error method to solve complex problems.
    To cite just one example, at our Girls Inc. affiliate in 
Schenectady, New York, girls created working toy hovercrafts. 
They were so excited by their success that they decided to try 
to bring their experiment to scale. Using plywood and a leaf 
blower, they constructed a hovercraft that was strong enough to 
lift girls four inches off the floor.
    And we know that our approach has an impact. Girls in 
Eureka, our four week STEM sports camp, increased their plans 
to take math courses. Their interest in science careers 
increased as well, and the percentage of girls who were 
predominantly urban minority girls, whose wish for the 
following school year was to do well, and be on the honor roll, 
increased from 38 percent to 66 percent.
    At Girls Inc., we pay explicit attention to equity. We 
assume girls are interested in math, science, and technology. 
We encourage them to see themselves as scientists. When our 
first Robotics Lego League teams go to competitions, staff have 
observed it is the boys who are operating the robots on the 
coed teams. On our teams, and those sponsored by our friends, 
the Girl Scouts, girls do it all. We expect girls to succeed, 
and we help them to develop the same expectations of 
themselves.
    We also include adult women role models, as they are 
essential in helping girls to be aware of career options, and 
to envision themselves in those careers someday. In 2004, we 
surveyed women who had previously received Girls Inc. college 
scholarships. Of the 85 respondents, 51 percent said: ``My 
Girls Inc. experience inspired me to pursue my interest in 
science, technology, engineering, and mathematics.''
    My final point is that the Federal Government has a vital 
role to play in increasing girls' participation in STEM fields. 
First, continue to support the NSF's Informal Science Education 
Program, and the research on gender in science and engineering.
    Secondly, promote informal STEM education through federally 
funded afterschool programs. Third, support professional 
development for teachers and youth workers in informal STEM 
education, and in gender equitable teaching methods. And 
finally, promote the increased enforcement of Title IX.
    Thank you for doing your part through this important work 
of the Committee. As we say at Girls Inc., it doesn't matter 
where a girl is from, as long as she knows where she is going. 
Thank you.
    [The prepared statement of Dr. Kropf follows:]
               Prepared Statement of Marcia Brumit Kropf
    Mr. Chairman, Ranking Member Ehlers, and Members of the Committee, 
thank you for the opportunity to testify before you today. My name is 
Marcia Brumit Kropf, and I am the Chief Operating Officer of Girls 
Incorporated, the national non-profit youth organization that inspires 
all girls to be strong, smart, and bold. On behalf of Girls Inc., our 
96 local affiliates, and the girls that we serve, I am pleased to have 
the opportunity to present our approach to advancing girls' interest, 
confidence, and competence in STEM fields.
    With local roots dating to 1864 and national status since 1945, 
Girls Inc., formerly Girls Clubs of America, has responded to the 
changing needs of girls and their communities through research-based 
programs and advocacy that empower girls to reach their full potential. 
We have a longstanding and deep commitment to preparing girls for 
careers they might otherwise never consider, including scientific and 
technical careers.
    In 1985, with funding from the National Science Foundation, we 
launched Girls Inc. Operation SMART, a structured approach to helping 
girls develop enthusiasm for and skills in science, technology, 
engineering, and mathematics. Since that time, more than 750,000 girls 
have participated in Operation SMART. Through hands-on activities, 
girls explore, ask questions, and solve problems, and they interact 
with women pursuing STEM careers. Girls Inc. Operation SMART was 
developed with the research-based premise that in order to increase 
STEM gender equity, girls need to be: 1) interested in science; 2) 
competent and confident in science; and 3) aware of future science 
careers. Our experience with Operation SMART and ongoing research and 
development leads us to three important messages for you today:

        1.  As a country, we still need to address the gender gap in 
        STEM.

        2.  Informal science education is a critical strategy to 
        address the gender gap.

        3.  The Federal Government must continue to play a role, 
        alongside the private, nonprofit and educational sectors, in 
        fostering girls' success in STEM fields.

To my first point, despite gains in the number and achievement of girls 
and women in STEM, substantial gaps remain.

    Over the past 30 years, as the barriers of entry into many STEM 
fields have eased, women have vastly increased their proportion of 
Bachelors, Masters, and doctoral degrees earned in math and in the 
sciences. In 1970, women earned 0.8 percent of Bachelors, 1.1 percent 
of Masters, and 0.6 percent of the doctoral degrees in engineering. In 
2006, the percentages were 19.5, 22.9, and 20.2, respectively.\1\ The 
story is the same in physics, geology, and chemistry. In math, women 
are earning nearly half of the Bachelors and Masters degrees, and 
almost a third of the doctoral degrees.
---------------------------------------------------------------------------
    \1\ National Science Foundation, Division of Science Resources 
Statistics. (2008). Science and engineering degrees: 1966-2006 
(Detailed Statistical Tables NSF 08-321). Arlington, VA: Author. 
Retrieved July 13, 2009, from http://www.nsf.gov/statistics/nsf08321/
---------------------------------------------------------------------------
    Girls have now essentially closed the gender gap that has 
historically existed in math course-taking, and in the grades boys and 
girls receive in those courses.\2\ Girls are also now narrowing that 
gap in the physical sciences.
---------------------------------------------------------------------------
    \2\ Freeman, Catherine E. (2004). Trends in educational equity of 
girls & women: 2004 (NCES 2005-016). Washington, DC: National Center 
for Education Statistics. Retrieved July 14, 2009, from http://
nces.ed.gov/pubsearch/pubsinfo.asp?pubid=2005016
---------------------------------------------------------------------------
    Among SAT takers, a higher percentage of young women than young men 
are enrolled in honors math and science courses. In 2008, 53 percent of 
students who took the SAT and had taken at least four years of 
mathematics courses were young women; 53 percent of students who had 
taken at least four years of science courses were young women.\3\ And 
notably, half of the 40 finalists in the 2007 Intel Science Talent 
Search were girls.
---------------------------------------------------------------------------
    \3\ The College Board. (2008). 2008 college-bound seniors: Total 
group profile report. New York: Author. Retrieved July 14, 2009, from 
http://professionals.collegeboard.com/profdownload/
Total<INF>-</INF>Group<INF>-</INF>Report.pdf
---------------------------------------------------------------------------
    At the same time, however, substantial gaps remain. Girls continue 
to lag behind boys in computer science, comprising just 17 percent of 
students taking the Computer Science A advanced placement exam in 2008, 
and just 12 percent of those taking the more rigorous AB exam, 
virtually the same proportions as in 1997.\4\ Likewise, just 35 percent 
of AP physics test takers were girls.
---------------------------------------------------------------------------
    \4\ The College Board. (2009). AP report to the Nation. New York: 
Author. Retrieved July 14, 2009, from http://www.collegeboard.com/html/
aprtn/pdf/
ap<INF>-</INF>report<INF>-</INF>to<INF>-</INF>the<INF>-</INF>nation.pdf
---------------------------------------------------------------------------
    Of greater concern is the fact that gains in education have not 
translated into workplace parity as of yet. Women still represent fewer 
than one in five faculty members employed in computer science, 
mathematics, engineering, and the physical sciences collectively. In 
engineering in particular women account for just one in ten faculty 
members.\5\ And, according to the Bureau of Labor Statistics, in 2008 
women accounted for just 24.8 percent of all those employed in computer 
and mathematical occupations, just 6.7 percent of mechanical engineers, 
and just 6.3 percent of engineering managers.\6\
---------------------------------------------------------------------------
    \5\ Commission on Professionals in Science and Technology (CPST). 
(2006). Professional women and minorities: A total human resources data 
compendium (16th Ed.). Washington, DC: Author.
    \6\ Current Population Survey, Bureau of Labor Statistics. (2009). 
Employed persons by detailed occupation, sex, race, and Hispanic or 
Latino ethnicity, 2008. Annual Averages 2008.
---------------------------------------------------------------------------
    Girls in the United States today grow up at a time when women have 
unprecedented opportunities. At the same time, they are aware that, in 
our society, women are often viewed as sexual objects and that their 
skills and abilities continue to be undervalued. In a 2006 Girls Inc. 
survey conducted by Harris Interactive, 55 percent of girls in grades 3 
through 12 agreed with the statement, ``In my school, boys think they 
have the right to talk about girls' bodies in public.'' At the same 
time, 44 percent of girls--almost half--agreed with the statement, 
``the smartest girls in my school are not popular'' and 38 percent of 
boys agreed with the statement as well. This finding is virtually 
unchanged from an earlier study conducted in 2000. In addition, 36 
percent of girls agreed that ``people think girls are not interested in 
computers and technology'' and 17 percent of girls thought it was true 
that ``teachers think it is not important for girls to be good at 
math.'' \7\
---------------------------------------------------------------------------
    \7\ Girls Incorporated. (2006). The supergirl dilemma: Girls 
grapple with the mounting pressure of expectations, summary findings. 
New York: Author.

This last finding is especially troubling and leads to my second point 
about the importance of informal STEM education--for girls, in 
particular, AND for the lessons it can bring into the regular school 
---------------------------------------------------------------------------
classroom.

    As this subcommittee is well aware, the National Academies recently 
published a report on learning science in informal settings, advising 
that schools should not be solely responsible for addressing the 
scientific knowledge needs of society. In fact, the Academic 
Competitiveness Council at the Department of Education recognized 
informal education as one of three integral pieces of the U.S. 
education system (the other two being K-12 and higher education) that 
are necessary to ensure U.S. economic competitiveness.\8\
---------------------------------------------------------------------------
    \8\ U.S. Department of Education. (2007). Report of the Academic 
Competitiveness Council. Washington, DC.
---------------------------------------------------------------------------
    We at Girls Inc. agree.
    First, informal science education offers a learning environment 
free of time limitations and test anxiety. As one participant of the 
Girls Inc. Eureka! Program observed, ``In Eureka science we get to do 
experiments every day and discuss and help our peers, but in school 
science you can't talk among your friends about the work or you will 
get in trouble.''
    Indeed, informal education allows students the ability to learn and 
discover through prolonged hands-on experiences. These experiences 
allow individuals to become comfortable making mistakes and using a 
trial-and-error method to solve complex problems. At Girls Inc. of the 
Greater Capital Region in New York, girls created working toy 
hovercrafts. They were so excited by their success that they decided to 
try to bring their experiment to scale. Using plywood and a leaf 
blower, the girls constructed a hovercraft that was strong enough to 
lift girls four inches off of the floor. Likewise, informal science 
education is more free to proceed at the pace of individuals' learning. 
One Girls Inc. scholarship recipient described doing the ``Batteries 
and Bulbs'' experiment. She said it took her group three afternoons to 
make the light bulb go on--but they did it. If the experiment had been 
conducted in a regular school classroom with the pressures of a tight 
schedule for covering specific curricula, at the end of class, the 
teacher would have most likely shared the solution. Her group would 
have learned that they couldn't make the light bulb go on themselves. 
At Girls Inc., they learned that they could.
    Girls Inc. Eureka! is a four-week summer STEM and sports camp 
program for girls 12-15 held on a college campus. In Alameda County, 
CA, girls in Eureka!, who were predominantly urban, minority girls, 
increased their math course-taking plans, while control group girls' 
plans to take math decreased. Second-year Eureka! girls' math and 
science course-taking plans almost doubled. Their interest in science 
careers increased, and the percentage of girls whose wish for the 
following school year was ``to do well/be on the honor roll,'' 
increased from 38 percent to 66 percent.\9\
---------------------------------------------------------------------------
    \9\ Campbell, Patricia B., Ph.D., Storo, Jennifer, Ed.M. and 
Acerbo, Kathryn, M.A. Math, Science, Sports and Empowerment: Girls 
Incorporated Replication And Expansion Of The Eureka! Model. Executive 
Summary. Campbell-Kibler Associates, Groton, MA.
---------------------------------------------------------------------------
    Alarmingly, however, this study also seemed to indicate that being 
away from school had a positive impact on girls--both Eureka! and 
control girls--in terms of wanting to do math and science. For most, 
being back in school tended to decrease that interest.\10\
---------------------------------------------------------------------------
    \10\ Ibid.
---------------------------------------------------------------------------
    For Girls Inc. and other providers of informal STEM education, this 
last finding points to what school systems may have something to learn 
from informal providers. Girls Inc. Operation SMART is a philosophy and 
approach to engaging girls in STEM subjects. It allows trained Girls 
Inc. affiliate staff to design their own programs, relevant to the 
interest and ages of the girls they serve. Girls Inc. of Carpentaria 
(CA), for example, has an Animal Care Club, where girls study animal 
habitats and are responsible for the care of the animals, including 
Rosie, their 12-year old tarantula. Girls Inc. of Omaha (NE) has a 
strong partnership with the College of St. Mary where female college 
students meet with girls in grades 1 to 6 twice a week for two months 
each semester in groups of one to three girls. A fifteen-year-old 
graduate of the program in Omaha explained that the projects were fun, 
hands-on, often outside, and, she said, ``We didn't have to do 
worksheets.''
    Second, girls benefit from informal girl-focused programs because 
gender discrimination persists, usually subtle but at times blatant. 
Girls Inc. sponsors eight FIRST Robotics Lego League teams, with 
support from Motorola. The Girls Inc. teams often find themselves the 
only all-girl teams in the competitions (except of course when there 
are teams sponsored by the Girl Scouts). But on the co-ed teams, staff 
observed that it was always the boys who were operating the robots. In 
fact, on one occasion when I had the pleasure of speaking with some 
members of Robot Chicks Union, a group of female FIRST Robotics 
competitors, they complained that on co-ed teams they were actually 
assigned roles such as marketing and bringing the snacks for their 
team.
    This phenomenon plays out in classrooms as well, where girls are 
too often relegated to supporting roles, such as recording notes, as 
they watch boys perform the experiments and work with equipment.
    At Girls Inc., we pay explicit attention to equity and support 
girls as they develop the skills and self-confidence to navigate 
successfully through the challenges of adolescence. In Girls Inc. 
Operation SMART, we assume girls are interested in math, science, and 
technology. We let them make big, interesting mistakes. We encourage 
them to see themselves as scientists. Most importantly, we expect girls 
to succeed, and help them develop the same expectations of themselves.
    According to the National Center for Women in IT, women are more 
likely than men to say they entered careers in STEM as a result of 
encouragement from a teacher, family member, or friend.\11\ While we 
may think of ``encouragement'' as ``soft'' or unnecessary, it is 
actually an important factor in women's decisions about careers. 
Parents are a critical part of the equation here and we help them seize 
opportunities to encourage their daughters in STEM. Our new Girls Inc. 
Thinking SMART Guide has a packet for parents, also available in 
Spanish, filled with resources and suggestions. For example, to 
determine if a home experiment is SMART, parents are asked to consider 
whether the activity allows girls to ``use their hands, bodies, and 
senses for things other than writing.'' In contrast, an activity is 
probably not SMART if its primary goal is ``to produce an ornament or 
decoration.''
---------------------------------------------------------------------------
    \11\ Zarrett, N. & Malanchuk, O. (2006). Encouragement from parents 
or teachers plays a large role in students' choice of a Computer 
Science major. In Women and IT: Research on Under-representation. J.M. 
Cohoon & W. Aspray, eds., Cambridge: MIT Press.
---------------------------------------------------------------------------
    Encouragement increases self-efficacy, which in turn increases 
girls' participation in formal science classes and, later, in STEM-
related careers.
    Finally, women role models are essential for girls to be aware of 
career options and to envision themselves in those careers someday.
    At an event at the White House last month, tennis great Billie Jean 
King spoke about the importance of female role models in sports. She 
said girls, ``have to see it to be it.'' The same holds true for STEM. 
So, we incorporate a strong career component in our STEM programming. 
Girls Inc. has just completed a $2.3 million grant from the National 
Science Foundation for a program that connects girls with women in STEM 
career fields, including members of the Society for Women Engineers. 
And this is not just a 20 minute career day speech. This is working 
together over time on a substantive project, allowing for positive 
connections to be built.
    Role models are particularly important for girls of color, but 
sadly minority women in science are scarce. African-American women make 
up just 1.5 percent of all those employed in science and engineering 
occupations, Hispanic women account for just 1.3 percent and American 
Indian and Alaska Native accounts for 0.1 percent.\12\ Ironically, 
African-American women have been shown to express higher levels of 
interest in science than white women.\13\ Seventy percent of the girls 
served by Girls Inc. are girls of color. And 65 percent come from 
families with incomes under $25,000. It is essential that these girls 
receive high quality STEM programming that will open these fields up to 
them.
---------------------------------------------------------------------------
    \12\ National Science Foundation. (2007). Employed scientists and 
engineers, by occupation, highest degree level, race-ethnicity, and 
sex: 2006. Division of Science Resource Statistics, Arlington, VA.
    \13\ Hanson, S. (2004). African American women in science: 
Experiences from high school through the post-secondary years and 
beyond. NWSA Journal 16(1), 96-115.
---------------------------------------------------------------------------
    In 2004, we surveyed women who had previously received our Girls 
Inc. Lucile Miller Wright College Scholarships. Of the 85 respondents, 
51 percent said that ``My Girls Inc. experience influenced my college 
experience. It inspired me to pursue my interests in science, 
technology, engineering, and mathematics.'' \14\
---------------------------------------------------------------------------
    \14\ Girls Incorporated (2004). Growing Up at Girls Incorporated: 
The GROW Study of Girls Inc. National Scholars. New York: Author.

My final point is that the Federal Government has a vital role to play 
in increasing girls' participation in STEM fields. We need the help of 
this committee to be recognized and tapped as equal players in STEM 
---------------------------------------------------------------------------
education.

        <bullet>  First, continue to support the National Science 
        Foundation's Informal Science Education Program, and Research 
        on Gender in Science and Engineering. Grants through the NSF 
        are critical to the implementation of informal science 
        education programs like ours as well as science museums, zoos, 
        and environmental centers. Such grants provide research-based 
        and innovative programs the ability to continue to increase 
        national interest in STEM fields.

        <bullet>  Second, promote informal STEM education through 
        federally funded afterschool programs. Proven, national 
        programs like Girls Inc. Operation SMART incorporate the latest 
        research on girls' engagement and persistence in STEM and can 
        and should be targeted for funding to address the under 
        representation of girls and minorities in STEM. Ninety percent 
        of the sites funded by the 21st Century Community Learning 
        Centers (federal afterschool program) are on school campuses.

        <bullet>  Third, support professional development for teachers 
        and youth workers in informal STEM education and in gender-
        equitable teaching methods. Provide opportunities for these 
        professionals to interact with each other and learn from each 
        other.

        <bullet>  Finally, promote increased enforcement of Title IX. 
        Public information campaigns are needed to raise awareness 
        among students that Title IX covers discrimination broadly, not 
        just sports. Title IX prohibits bias in counseling, sexual 
        harassment in schools, and can be a tool for achieving 
        classroom environments that are free of harassment.

    In closing, according to a report of the Commission on the 
Advancement of Women and Minorities in Science, Engineering and 
Technology, there are four points at which the STEM career pipeline 
loses girls and women: as they enter middle school, late high school, 
college and graduate school, and finally in their professional 
life.\15\ We have to be attentive to all these stages and intentional 
about retaining girls and women at each. Thank you for doing your part 
through the important work of this committee. As we are fond of saying 
at Girls Inc., it doesn't matter where a girl is from, as long as she 
knows where she is going.
---------------------------------------------------------------------------
    \15\ ``Land of Plenty: Diversity as America's Competitive Edge in 
Science, Engineering, and Technology.'' September 2000.

                   Biography for Marcia Brumit Kropf
    Marcia Brumit Kropf joined Girls Incorporated, the nonprofit 
organization that inspires all girls to be strong, smart, and bold, in 
the Fall of 2003. Dr. Kropf oversees the implementation of the 
organization's strategic plan and has direct responsibility for the 
National Services, Program & Training Services, Research, IT, and Human 
Resources departments. She heads the organization's IT Council and is 
leading an enterprise-wide multi-year initiative to address the needs 
of Latina girls aged 6 to 18. Dr. Kropf represents Girls Inc. at the K-
12 Alliance for the National Council of Women in IT and just completed 
a two-year term as Co-Chair for that group. She is a member of the New 
York City Commission on Women's Issues and the Expert Advisory Panel 
for New Moon, as well as an advisor to the Jeannette Rankin Foundation 
and the Purdue University Center for Families. She also serves as Co-
Chair of the COO Peer Network for the National Human Services Assembly.
    Previously, Dr. Kropf spent 12 years at Catalyst, the premier 
nonprofit research and advisory organization working to advance women 
in business, as Vice President of Research & Information Services. She 
oversaw the Research Department, the Information Center (a special 
library focusing on women and work), and Catalyst's efforts to advance 
technologically in the 21st Century. She also led the Work and Family 
team of experts, the group advising companies on a range of topics 
including flexible work arrangements, leaves of absence, and childcare. 
Prior to her work at Catalyst, Dr. Kropf spent over 20 years working in 
public education in a variety of positions, from classroom teaching to 
software design, focusing primarily on curriculum design and 
evaluation.
    Dr. Kropf earned her B.A. from Mount Holyoke College, a Master of 
Arts in Teaching from Oberlin College, a Certificate of Advanced 
Studies in Reading Education from Syracuse University, and a Ph.D. in 
Educational Communication and Technology from New York University.

    Chairman Lipinski. Thank you, Dr. Kropf. The Chair will now 
recognize Dr. Hanson.

  STATEMENT OF DR. SANDRA L. HANSON, PROFESSOR OF SOCIOLOGY, 
                      CATHOLIC UNIVERSITY

    Dr. Hanson. Chairman Lipinski, Ranking Member Ehlers, 
distinguished Members. I am Sandra Hanson. I am Professor of 
Sociology at Catholic University. I have been doing research on 
girls in science for several decades now, and it is a pleasure 
to be here.
    One of the myths about girls in science is that from the 
time they start school, girls are less interested in science 
than boys. In my research and that of others, we show girls 
start out with equal interest and abilities in science. Things 
start changing, though, as early as the second grade.
    One NSF study found that when second grade girls and boys 
draw pictures of scientists, they draw a white male in a lab 
coat. Usually the scientist is alone with a beaker or a test 
tube, and when they draw a woman scientist, she is fairly 
severe and unhappy looking. I have found that the departure 
from STEM even happens for very talented girls who show promise 
in science.
    What about the nature versus nurture argument? The notion 
that boys are naturally better at math and science, continues 
to be a popular one. A recent study looked at 3,000 pairs of 
British twins at nine, 10, and 12 years of age. They looked at 
genetic and environmental factors that affected math and 
science achievement. They found no difference in math and 
science achievement at nine, 10, and 12, and more importantly, 
no difference in the influence of genetic and environmental 
factors on the boys and girls at these ages. So they concluded 
it is more about attitudes than aptitude.
    So what is going on? Why are women leaving STEM? One of the 
issues is textbooks. If students don't see images in textbooks 
of people that look like themselves, they can't connect. 
Science textbooks are improving, but they show many more images 
of male scientists. One NSF-funded study at Colorado State 
looked at elementary school science textbooks, and found 66 
percent of the images were of men, and 34 percent were of 
women.
    But there has been progress in STEM education. Recently, 
for the first time ever, two women, young girls, won the grand 
prizes in the prestigious Siemens National Math and Science 
Competition. And my research shows there is more progress in 
STEM education than occupations, so that in 2006, women earned 
20 percent of the Ph.D.s in engineering, but they were only 12 
percent of the employed engineers. In some areas, girls get 
more degrees than boys. Chemistry and biological sciences are 
two of them. Employers can no longer argue that there is a 
shortage of qualified female science talent.
    One of the things that is implicit in my research is that 
you can't just talk about girls in science. Science is not just 
a male culture. It is a white male culture. So that an 
important lesson from my work is that men and womens' 
experiences in science vary across social class and race 
groups. When I looked at African-American women in science 
recently, I found tremendous interest and engagement, and many 
people have missed this, including social scientists, who think 
that the race and gender disadvantage is a double disadvantage 
for them, thus, they must not be interested.
    Although I have found a loss of science talent amongst 
young women, I am quite optimistic. I see more interest. I see 
the interest amongst minority women. I also have looked at the 
role of sport as a resource for young women. Sport encourages 
independence, teamwork, competition, the same traits that tend 
to be associated with women's success in the male domain of 
science. So, female athletes have an advantage in science over 
non-athletes, and so young girls who are given an early 
opportunity in sport might be less intimidated and more 
prepared for the culture of the science classroom.
    I am also encouraged by evidence from single-sex STEM 
education. Many women scientists today have spent at least some 
of their time at single-sex universities. In 2006, several 
researchers at the University of Michigan studied the progress 
of girls in two schools, almost identical math curriculum, but 
one was coed and one was single-sex. And at the end of the 
year, they measured their progress in math, and found those in 
the single-sex school outscored those in the coed school by 
over 50 percent.
    There are things that work. There are things that we can 
do. My time is running short, but I know that the new practice 
guide published by the National Center for Education Research, 
entitled ``Encouraging Girls in Math and Science,'' offers very 
specific things for schools and teachers, in terms of 
increasing girls' participation and interest in science.
    Guides such as this one should be integrated into our 
curriculum. Girls deserve equal access to STEM, and we can do 
better, and I think both boys and girls would benefit from 
improving our STEM education.
    Thank you.
    [The prepared statement of Dr. Hanson follows:]
                 Prepared Statement of Sandra L. Hanson
    Chairman Lipinski, Ranking Member Ehlers, and distinguished Members 
of the Subcommittee, I am Sandra Hanson, Professor of Sociology at 
Catholic University. I have been doing research on girls in science for 
several decades. It is a great compliment to be able to share my 
research with you today. Thank you for the opportunity to testify about 
encouraging female students in STEM fields.
    Today I would like to address three issues regarding research on 
girls in science education: an overview of my research on the topic, 
the current status of research (in general) on girls in STEM; and ideas 
about disseminating research findings.

OVERVIEW OF MY RESEARCH: WHAT MY RESEARCH REVEALS ABOUT THE FACTORS 
                    THAT SHAPE GIRLS' INTEREST AND PARTICIPATION IN 
                    STEM.

    Findings from my research show that young girls do not start out 
with low achievement in STEM. Early in the high school years, however, 
many girls experience the beginning of a departure from STEM typified 
by enrollment in fewer STEM courses, lowered achievement, and 
increasingly negative attitudes.\1\ This ``chilling out'' occurs even 
for young women who have shown promise and talent in science. My 
research confirms that young women's increasing presence and success in 
STEM education is happening at a faster rate than in science 
occupations. In 2006, women earned 20 percent of Ph.D. Engineering 
degrees but they represented only 12 percent of employed Engineers.\2\ 
In some areas (e.g., Bachelor's degrees in chemistry and in biological 
sciences) young women earn more degrees than young men. Employers can 
no longer argue that there is a shortage of qualified female science 
talent. We need to do more to make sure that all young people, 
regardless of sex, have a chance to succeed in STEM education. It is 
just as important that young women who acquire qualifications in STEM 
have equal access and opportunity in STEM occupations. Although I 
cannot summarize all of my research here, I briefly discuss a number of 
issues below, including: STEM as an elite area of the U.S. (and 
international) education and occupation systems, the intersection of 
gender and race in creating STEM talent, structural barriers and 
selection processes that filter women (even talented women) out of 
STEM, measurement of girls' STEM experiences, and sources of optimism 
about the future of girls in STEM.
---------------------------------------------------------------------------
    \1\ See data from NCES (Appendix Table 1), NSF, and NCER (National 
Center for Education Research, Institute of Education Studies) (Figures 
1 through 4) on gender and STEM achievement from kindergarten through 
post-secondary school in the Appendix.
    \2\  NSF. 2009. Women, Minorities, and Persons with Disabilities in 
Science and Engineering (http://www.nsf.gov/statistics/wmpd).

    STEM as an elite. My research suggests that we view STEM as an 
increasingly powerful elite. The study of elites has historically been 
an important part of social science theory and research. Elites have 
been described as those occupying powerful and influential positions in 
government, corporations, and the military. These elites share 
interests and attitudes, and have networks which work to encourage and 
include some and discourage and exclude others. In a technologically 
advanced, post-modern, global society, the status, power, shared 
interests and powerful networks of those in STEM suggests that they 
must be considered as members of the new elite. One of the most 
distinguishing features of the science elite (historically and 
currently) is the shortage of women and non-whites. In spite of the 
progress that women and minorities have made in STEM education and 
occupations, the culture of science continues to be a white male 
culture that is often hostile to women and minorities. In a 
technologically advanced society, it is the work of scientists that 
will determine our future. The need for a talented, diverse, well-
---------------------------------------------------------------------------
educated workforce can no longer be questioned.

    The intersection of gender and race. Implicit in my research is the 
notion that STEM is not just a male culture; it is a white male 
culture. I am happy to hear that the subcommittee will also be holding 
hearings on minorities in science. An important lesson from my work on 
women in STEM is that one cannot just talk about ``women'' or ``men'' 
in STEM. Men and women across race and social class statuses have very 
different experiences in STEM. Gender cultures vary tremendously across 
race groups and my recent research on African American women in science 
suggests a considerable interest and engagement in science. Many people 
assume a double disadvantage associated with race and gender for young 
African American women as they enter the STEM education system. It is 
important that researchers not make any assumptions about the effect of 
being female or black without considering how these statuses might 
converge. In other words, we need to avoid talking about ``women'' in 
science. Instead, we should be looking at the experiences of different 
groups of women. Because of the unique gender system in the African 
American community, these young women actually have some advantages in 
the STEM system.
    In a related way some of my research has focused on the unique 
science experiences of another racial/ethnic group--Asian Americans. My 
surveys with hundreds of Asian American youth reveal considerable 
complexity in their science experiences in spite of stereotypes about 
the ``model'' minority. Both Asian American girls and boys outperform 
white youth (even male white youth) in science. This finding is an 
interesting one given the evidence of traditional gender systems in 
many Asian American cultures. My research does show, however, that 
Asian American girls do not have the same level of science achievement 
as Asian American boys. Although Asian (and Asian American) culture can 
be seen as a model for creating interest and achievement in science 
(for girls as well as boys), the youth in my survey reported 
considerable stress and anxiety associated with overwhelming familial 
pressure towards success in science.
    The next ethnic group that I will focus on in my examination of the 
confluence of race and gender in STEM is Latino youth. There is a 
dearth of research on the experiences of Latino youth in the U.S. STEM 
education system in spite of the fact that Latinos are the fastest 
growing ethnic/racial minority in the U.S. Both Latino men and women 
are under-represented in STEM. Stereotypes about Latinos involving 
``marginalized populations,'' ``immigrants,'' and ``second-language 
users'' as well as the assumption that the Latino experience is at odds 
with the larger U.S. culture work against these young people in the 
science education system. I hypothesize that Latino women will have 
considerable interest and potential talent in science in spite of 
stereotypes involving ``marianismo'' which see them as submissive, 
subservient, and thus uninterested in STEM. There is a growing, but 
limited research on Latino women that shows that they are breaking 
these old stereotypes and increasingly earning graduate degrees and 
higher salaries in professional (and science) areas.

    Structural barriers and selection processes. My research also shows 
that the problem of talented young women leaving science (and of a 
shortage of women in science in general) says less about the 
characteristics of young women and more about structural barriers and 
selection processes. These processes directly affect STEM achievement 
through gender discrimination but they also affect achievement 
indirectly through the transmission of ``gendered'' socialization and 
unequal allocation of science resources in families, schools, and the 
media. My research supports structural theories of how education 
systems work. Here, individuals are not necessarily free to achieve 
according to their talents but rather are subject to systems that 
identify, select, process, classify, and assign individuals according 
to externally imposed (in this case biological sex) standards. Students 
then develop their expectations toward their future around these 
observed constraints.
    Interestingly, my work shows that these processes often work in a 
subtle way that students and teachers may not be aware of. Instead, 
members of a society are largely in agreement on cultural ideas 
regarding gender. They share in this ``world taken for granted'' 
regarding gender and science which becomes so routine that it is seldom 
questioned. Studies of young girls show that they think they are making 
individual choices, but those choices tend to reproduce gender 
structures. In a similar manner, work by the Sadkers has shown that 
teachers (in science and other classes) teach male and female students 
differently without being aware of these behaviors.
    My work supports the stereotype threat theory in psychology by 
showing that many young African American women adjust their behavior to 
stereotypes about race, gender and STEM. These adjustments sometimes 
result in leaving STEM fields. In addition, the stress of trying to 
resist stereotypes actually results in reduced STEM achievement.

    Measurement of girls' STEM experiences. An important finding coming 
out of my recent research involves the way in which we measure girls' 
STEM experiences. Social scientists need to think carefully about their 
methods, measures, and samples when making conclusions about gender and 
science. Gender continues to be a sensitive topic in U.S. culture and 
standard methods of data collection via surveys often result in 
responses that are socially desirable and culturally biased. In my 
recent book Swimming Against the Tide, I used a series of vignettes to 
provide insight into STEM attitudes and experiences. Instead of asking 
young women directly about their STEM experiences, I asked the young 
women to respond to a story of a young woman and her experience in the 
science classroom. I also allowed the young women to answer 
unstructured, open-ended questions about their STEM experiences so that 
they could describe these experiences in their own words. When the 
young women (both white and African American) were asked about a 
``chilly'' climate in the science classroom for women like those in the 
vignette (as opposed to for themselves), they were twice as likely to 
report this problem.\3\ Additionally, the open-ended responses from the 
young women provided rich insights into the difficulties that young 
women have in the science classroom. One young African American woman 
talked about her love of science, the science camps her family had sent 
her to, and the posters of African American scientists hanging in her 
bedroom. But when this young woman entered the science education 
system, she felt like she was ``swimming against the tide.'' Another 
young African American woman reported that the science teachers 
``looked at us like we were not supposed to be scientists.''
---------------------------------------------------------------------------
    \3\ See Table A.3.3 in the Appendix for my findings using the 
Vignettes presented in Hanson (2009), Swimming Against the Tide.
---------------------------------------------------------------------------
    Another factor in the research process has to do with the samples 
that we use. STEM research based on non-representative samples of youth 
must be considered cautiously. Although findings from this research 
might help in formulating concepts and theory, it should not be (but 
often is) generalized. In sum, my research shows that the methods we 
use to study gender and STEM need to be carefully considered. The 
ultimate goal of researchers should be to use multiple methods and 
representative samples.

    Sources of optimism. Although my research shows a loss of talented 
young women from the STEM pipeline, my research results have also 
provided me with considerable optimism about the future of women in 
science. Some of the sources of optimism come from:

        <bullet>  The gains that women are making in STEM (course 
        taking, achievement scores, degrees, and jobs). Recently, for 
        the first time ever, girls were awarded both grand prizes in 
        the prestigious Siemens national math and science competition.

        <bullet>  The high level of interest and engagement in STEM 
        among young minority women and the important role of minority 
        families and communities in creating and maintaining this 
        interest (schools and educators need to be aware of this 
        resource).

        <bullet>  The important resource that sport provides in 
        enhancing young women's science access and achievement. My 
        research has shown that sport encourages independence, 
        teamwork, and competition--the same traits that tend to be 
        associated with women's success in the male domain of science. 
        Female athletes have an advantage in science over non-athletes. 
        Young girls who are given an early opportunity to be involved 
        in sport may well be less intimated and more prepared for the 
        culture of science classrooms and work settings.

        <bullet>  The increasing body of research addressing issues 
        regarding gender and STEM.

        <bullet>  The ongoing support of research and programs on girls 
        in STEM by organizations such as The National Science 
        Foundation and the cumulative knowledge (as well as 
        applications) resulting from this support.

        <bullet>  The increasing evidence that there is a large and 
        talented pool of women to fill the increased demand in STEM. 
        Additionally, the compelling evidence that the absence of women 
        and minorities in STEM robs employers of diverse strategies, 
        skills, and competence that translate into economic gain in an 
        age of global markets.

        <bullet>  My review of the education literature and surveys of 
        young women show a clear direction for how we can change 
        science education to make it more inclusive.\4\ Other research 
        supported by NSF concurs and, importantly, suggests that these 
        changes would benefit all youth.\5\ The young women in my 
        sample suggested, e.g.: better preparation in STEM in the early 
        years and access to advanced STEM tracks in the later years, 
        making science more accessible, better trained and motivated 
        teachers, smaller classes, more work in groups (cooperative 
        learning), more hands-on experiences (and an active laboratory 
        component), more gender and race diversity in science teachers 
        and curriculum (especially textbooks), high expectations for 
        all students, special programs to encourage women and 
        minorities in science, and more access to mentoring and 
        networking.
---------------------------------------------------------------------------
    \4\ Hanson, S.L. 2009. Swimming Against the Tide. Philadelphia: 
Temple University Press.
    \5\ National Science Foundation. 2007. Back to School: Five Myths 
about Girls and Science. (Press Release 01-108).

THE CURRENT STATUS OF RESEARCH ON THE INVOLVEMENT OF GIRLS IN STEM. 
                    WHAT DO WE KNOW?

    In the paragraphs below I briefly highlight some of the recent 
research on girls in STEM. I begin the discussion with research 
compiled by NSF on myths associated with girls in STEM.

    Myths. The NSF Research on Gender in Science and Engineering 
program has published the following myths about girls and science based 
on findings generated by their funded research:\6\
---------------------------------------------------------------------------
    \6\ http://www.nsf.gov/news/
news<INF>-</INF>summ.jsp?cntn<INF>-</INF>id=109939

        1.  From the time they start school, girls tend to be less 
        interested in science than are boys. In fact, boys and girls 
        start out with equal interest and abilities in science. Things 
        start changing, though, as early as the second grade. One study 
        showed that when second grade boys and girls draw a scientist, 
        most draw a while male in a lab coat. The scientist is 
        generally shown to be alone with a beaker or test tube. When 
---------------------------------------------------------------------------
        they draw women scientists she looks severe and unhappy.

        2.  Classroom interventions that work to increase girls' 
        interest in STEM turn off boys. Researchers have found that 
        what works to increase girls' interest in STEM also tends to 
        increase boys' interest in STEM.

        3.  Science and math teachers are not biased toward male 
        students. Research shows STEM teachers continue to interact 
        more with boys than girls. They often encourage independence 
        for boys and requests for help from girls.

        4.  Parents can't do much to motivate girls when they are not 
        interested in science. Research shows that the support of 
        parents is crucial to a girl's interest in STEM. Parents can 
        make girls aware of STEM careers and their relevance. They can 
        help in planning the courses and preparation which are required 
        for a STEM career.

        5.  Changing the STEM curriculum at the college level might 
        water down important STEM course work. The idea of having to 
        ``weed out'' weaker students tends to discourage young women in 
        STEM. One researcher found that young women with B's in STEM 
        classes are likely to perceive these as inadequate and drop 
        out. Young men with C's, on the other hand, were more likely to 
        persist in the class. Changes in STEM curriculum (e.g., working 
        in pairs on programming in entry level computer science and 
        engineering courses) contributes to greater retention for both 
        men and women.

    The National Science Foundation provides resources for teachers 
(and parents) in each of these areas of STEM education.

    International trends. Although women are under-represented in many 
science systems around the world, some countries have been more 
successful in creating gender equity than others. Countries that have 
made great progress in this area include New Zealand, Iceland, Finland, 
Albania, and Thailand. Some scholars have suggested that we examine 
science education practices in these countries and attempt to implement 
successful strategies here.\7\ Data from TIMSS (Trends in International 
Mathematics and Science Study) show that in the U.S. boys score higher 
than girls on fourth grade math and science scales. There are no sex 
differences on these scales in many of the countries examined. In 
others, girls score higher than boys.\8\
---------------------------------------------------------------------------
    \7\ Davis, H. 2009 (http://www.kon.org/urc/v7/davis.html)
    \8\ Lamb, T.A. and R. Bybee. 2005 (http://www.asanet.org/footnotes/
jan05/fn10.html).

    The importance of nurture over nature. The notion that boys are 
``naturally'' better at math and science continues to be a popular one 
for many. A recent study on 3,000 pairs of British twins (at nine, 10, 
and 12 years of age) informs the nature vs. nurture debate in STEM. The 
researchers were able to examine the genetic and environmental 
influences on science ability. They found that there were no 
differences in standardized math and science achievement scores between 
boys and girls at any age. The researchers found no difference between 
the boys and girls in how they were influenced by genetic and 
environmental factors. Given these findings the authors conclude that 
causal factors influencing science achievement have more to do with 
attitudes than aptitude.\9\
---------------------------------------------------------------------------
    \9\ Haworth, C., Dale, P., Plomin, R. 2009. Sex differences and 
science: the etiology of science excellence. Journal of Child 
Psychology and Psychiatry DOI: 10.111/j.1469-7610.2009.02087.x

    Media and image of scientists. Young people often have a negative 
image about scientists. Many of the young women in my survey resisted 
science because they thought it was ``dumb,'' ``not fun,'' ``boring,'' 
for ``bookworms,'' ``geeks,'' and ``nerds.'' \10\ Unfortunately, there 
are a considerable number of negative stereotypes about science. Not 
only is science seen as being for old white males, but it is also 
perceived as being boring, and those with an interest in science are 
sometimes labeled as geeks and nerds. One researcher asked science 
teachers to draw a picture of scientists using a Draw a Scientist Test 
(DAST) and discovered that these teachers often view scientists in the 
same negative way. The pictures tended to portray scientists as 
serious, ominous, lonely people.\11\
---------------------------------------------------------------------------
    \10\ Hanson, S.L. 2009. Swimming Against the Tide. Philadelphia: 
Temple University Press.
    \11\ See research by Vinchez-Gonzalez, J.M. and F.J.P Palacios. 
2006. ``Image of science in cartoons.'' Physics Education 41(3): 240-
49, and McDuffie (2001) (http://proquest.umi.com/pqdlink?Ver=1&Exp=07-
13-2014&FMT=7&DID=73462424&RQT=309&clientId=31807&cfc=1)
---------------------------------------------------------------------------
    Textbooks If students don't see images in textbooks of people that 
look like themselves, they cannot connect. Science textbooks are 
improving but they continue to disproportionately show images of male 
scientists. Recent NSF funded research at Colorado State University 
found that 66 percent of images in elementary science textbooks were 
male and 34 percent were female.\12\
---------------------------------------------------------------------------
    \12\ http://www.cmmap.org/scienceEd/colloquium/colloquium08/
April<INF>-</INF>Biasiollia.ppt
---------------------------------------------------------------------------
    Evidence from single-sex STEM education Research has shown the 
success of single-sex girls' schools in recruiting young women into 
STEM courses. A disproportionate number of women scientists have spent 
time in single sex colleges. The presence of a critical mass of women 
has been suggested to be an important ingredient for this success.\13\ 
In 2006, researchers at the University of Michigan studied the progress 
of girls in a single-sex and coed school in similar math classes. When 
the researchers examined the math proficiency scores for these two 
groups of women, they discovered that the young women in the single sex 
school outscored those in the coed school by over 50 percent.\14\
---------------------------------------------------------------------------
    \13\ See Hanson, S.L. (2009) Swimming Against the Tide for a brief 
review of this research.
    \14\ http://sitemaker.umich.edu/johnson.356/
math<INF>---</INF>science<INF>-</INF>education
---------------------------------------------------------------------------
    Resources Girls have fewer out-of-school science experiences than 
do boys. Researchers stress the importance of exposing girls to out-of-
school programs at an early age. Successful programs such as ``The 
Magic of Chemistry'' program sponsored by the University of Missouri 
tend to involve hands-on activities, role models, emphasis on practical 
applications, and equitable learning environments for girls.\15\
---------------------------------------------------------------------------
    \15\ Tucker, S.A., D.L. Hanuscin, and C.J. Bearnes. 2008. 
``Igniting girls' interest in science.'' Science 319: 1621-22.

HOW CAN DISSEMINATION OF THESE RESEARCH FINDINGS BE IMPROVED SO THAT 
                    FORMAL AND INFORMAL EDUCATORS AND EDUCATION POLICY-
                    MAKERS IMPLEMENT BEST PRACTICES?

    We have a perfect opportunity to increase the dissemination of 
research on best practices for girls in STEM. President Obama's 
economic stimulus package involving federal research monies has given 
the green light to increasing our knowledge about science education. 
Discussions about rigorously applying Title IX to STEM education (as in 
sport) are beginning. This is a tremendous opportunity for 
organizations such as NSF (National Science Foundation), WEPAN (Women 
in Engineering Proactive Network), NCES (National Center for Education 
Statistics), the NSB (National Science Board), NRC (the National 
Research Council) and others who collect data and fund research and 
programs on girls in STEM. These organizations have considerable 
knowledge and expertise on best practices. We know a lot about the 
changes we need to make in STEM classrooms. Only with the assistance of 
the U.S. Department of Education and mandated science standards can we 
assure that these resources would be required tools for all science 
teachers. The new practice guide by the National Center for Education 
Research (``Encouraging Girls in Math and Science'') offers five 
recommendations for schools and teachers for increasing girls' 
participation and interest in science. Guides such as this one need to 
be integrated in a routine way into U.S. STEM programs. Girls deserve 
equal access to STEM. The Title IX legislation brought about tremendous 
change and improvement in young women's access to sport in public 
schools by requiring evidence of progress toward equity. We could do 
the same in science. Both boys and girls would benefit from improving 
our STEM education.
    Mr. Chairman, this concludes my remarks. I would be happy to answer 
any questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                     Biography for Sandra L. Hanson
    Sandra L. Hanson is Ordinary Professor of Sociology and Research 
Associate at the Life Cycle Institute, The Catholic University of 
America. Dr. Hanson's research examines the gender structure of 
educational and occupational systems in a comparative context. Her work 
has been supported by six grants from the National Science Foundation. 
Dr. Hanson has authored numerous research articles appearing in 
journals including, Sociology of Education, Journal of Women and 
Minorities in Science and Engineering, and European Sociological 
Review. Her new book, entitled Swimming Against the Tide: African 
American Girls in Science Education (Philadelphia: Temple University 
Press: 2009), examines the experiences of African American girls in the 
science education system. Dr. Hanson's earlier book Lost Talent: Women 
in the Sciences (Temple University Press: 1996) was a culmination of 
her research on the loss of talented young women in the science 
pipeline. Dr. Hanson received a Fulbright award for teaching and 
research at the Jagiellonian University in Krakow Poland in 1997. Her 
work there involved comparative analyses of gender in Poland and the 
U.S.

    Chairman Lipinski. Thank you, Dr. Hanson. The Chair will 
now recognize Ms. Bogue.

 STATEMENT OF MS. BARBARA BOGUE, CO-FOUNDER, CO-DIRECTOR, SWE 
  AWE PROJECT; ASSOCIATE PROFESSOR OF ENGINEERING SCIENCE AND 
    MECHANICS AND WOMEN IN ENGINEERING, PENNSYLVANIA STATE 
                           UNIVERSITY

    Ms. Bogue. I am speaking today for the Society of Women 
Engineers, founded in 1950 as a 20,000 member educational and 
service organization that empowers women to succeed and advance 
in the field of engineering.
    First, I would like to thank the Subcommittee for providing 
this opportunity and I really appreciated your comments, so I 
should start out by saying, Mr. Chairman, Mr. Ranking Member 
and Members of the Subcommittee.
    I will focus my comments on the need for improved 
assessment and evaluation practices, and the specific 
challenges that we face in our effort to increase the numbers 
of girls and women entering and succeeding in STEM-related 
fields.
    I will emphasize engineering. That is my primary experience 
and knowledge, but the basic assumptions and recommendations 
really can apply across STEM fields in which women are under-
represented.
    We know that women are graduating from high school and 
prepared to enter engineering. High school girls take 47 
percent of all AP calculus tests, and 31 percent of AP physics 
tests, so the real question is not whether women can do 
engineering. It is, ``Why aren't they doing engineering, and 
how can we get them there?''
    One key is a better understanding of what works and what 
does not. As Director of Women in Engineering, I developed the 
Women in Engineering Program at Penn State, and I developed an 
orientation in our bridge program that yielded the highest 
retention rate of any program in the College of Engineering. 
For that, I was recognized with the Presidential Award for 
Excellence in Science, Mathematics, and Engineering Mentoring.
    Developing an assessment plan to measure the success of the 
program with Rose Marra, who is co-founder and co-Director of 
the AWE Project, which I will talk about in a bit, helped me 
understand what was working and led to the realization that the 
need for help in creating good assessment and evaluation is a 
universal need among programs with lean budgets and staff.
    So, we have created the Assessing Women and Men in 
Engineering Project, which is funded by NSF's Research on 
Gender and Science in Engineering Program, to develop survey 
tools that measure program effectiveness, and allow comparisons 
of outcomes among programs. We have more than 50 of these tools 
now, surveys along with a lot of capacity-building tools. AWE 
moved in to the Society of Women Engineers to sustain the 
project's many projects and services. A list of current AWE 
products is submitted for the hearing record.
    Assessment is essential for success, and funders have a 
role to play. The Federal Government should require meaningful 
assessment of funded activities, aimed toward the goal of 
broadening participation. Federal Title IX reviews, like those 
conducted by NASA, are an effective tool for identifying 
activities that would benefit from added scrutiny.
    There are many ways to break down barriers to the 
recruitment and development of women in STEM, in addition to 
having better assessment of the programs. I will focus on 
three.
    First, applying the research to practice is essential for 
success. Basic research, through programs like NSF GSE is a 
critical tool for increasing the numbers of women in 
engineering and other STEM fields.
    Second, climate studies are important in uncovering 
barriers for women in engineering. Unwelcoming classrooms, 
outdated teaching styles, a lack of accommodation for different 
social or cultural experiences, a lack of good advising, can 
all create an environment that students decide to leave, rather 
than thrive in. This affects all students, men and women.
    Our results, the AWE Project results, and other findings 
belie the postulation that women do not pursue engineering 
because they are not interested, or don't have the talent. 
Rather, they indicate that women who have the talent and the 
interest are being turned off by how the discipline is being 
presented.
    Finally, sustained and targeted funding is necessary. 
Funding for basic research, funding to design and implement 
programs, and funding to support individuals.
    In conclusion, we would like to recommend the following: 
Sustain and target funding for programs and activities that 
focus on attracting and retaining women in STEM careers and 
remove institutional barriers to their success, fund basic 
research related to those goals, review federal funding 
requirements and set guidelines to ensure that funded programs 
address national priorities that we have all talked about here 
today, and attract a diverse population. Support the 
continuation of federal Title IX reviews, to increase 
understanding of the issues that inhibit full participation of 
women in STEM at the college level. And finally, support women 
who wish to pursue engineering degrees. Reward institutions 
that are successful in increasing the number of women studying 
STEM disciplines.
    Forty years ago, the first humans set foot on the Moon. We 
achieved this because we had the national will to achieve that 
goal, but we also supported it financially. One example is the 
National Defense Education Act, which ensured an innovative and 
productive engineering workforce that could do the work to get 
there.
    President Obama has set out an equally ambitious goal to 
increase R&D funding to levels exceeding those of the Space 
Race. To achieve full participation of women and other under-
represented groups in this bold new endeavor requires a bold 
commitment. We at the Society of Women Engineers look forward 
to and support your efforts in this regard.
    Thank you for the opportunity.
    [The prepared statement of Ms. Bogue follows:]
                  Prepared Statement of Barbara Bogue

Mr. Chairman, Mr. Ranking Member, and Members of the Subcommittee:

    Good morning. My name is Barbara Bogue. I am an associate professor 
of engineering science and mechanics and women in engineering at Penn 
State. I am also the Co-Founder and Co-Director of the Society of Women 
Engineers' Assessing Women and Men in Engineering (AWE) Project. I am 
Past Director of Penn State's Women in Engineering Program and received 
a Presidential Award for Excellence in Science, Mathematics and 
Engineering Mentoring (PAESMEM) recognizing my work as Director in 
increasing the retention of women in engineering. I also serve on the 
Advisory Group for the American Association of University Women (AAUW) 
Project on Women and Girls in Science, Technology Engineering and 
Mathematics (STEM), on the National Girls Collaborative Extension 
Service Project Champions Board, and as an equity expert for the 
National Academy of Engineering Center for the Advancement of 
Scholarship in Engineering Education. I am speaking today on behalf of 
the Society of Women Engineers (SWE) and not on behalf of my employer 
or any of these groups.
    First, I would like to thank the Subcommittee for providing me with 
this opportunity to talk about how to encourage the participation of 
female students in STEM fields. This is important to our nation's 
future as a global leader in innovation. As you know, the National 
Academies' report, Rising Above the Gathering Storm, concluded that 
increasing the number of students entering and succeeding in the STEM 
fields was critical to prepare our nation for the future.\1\ A more 
recent National Academies report entitled Beyond Bias and Barriers: 
Fulfilling the Potential of Women in Academic Science and Engineering, 
also reminds us that women and girls still face barriers to their 
success in the STEM fields, and more attention must be paid to this 
issue.\2\
---------------------------------------------------------------------------
    \1\ National Academy of Sciences, National Academy of Engineering, 
Institute of Medicine Committee on Prospering in the Global Economy of 
the 21st Century: An Agenda for American Science and Technology. 
(2006). Rising Above the Gathering Storm: Energizing and Employing 
America for a Brighter Economic Future. Washington, D.C. : National 
Academies Press.
    \2\ National Academy of Sciences, National Academy of Engineering, 
Institute of Medicine Committee on Science, Engineering, and Public 
Policy (COSEPUP). (2009). Beyond Bias and Barriers: Fulfilling the 
Potential of Women in Academic Science and Engineering. Washington, DC: 
National Academies Press.
---------------------------------------------------------------------------
    I will focus my comments on the need for improved assessment and 
evaluation practices of programs serving women in STEM, and on some 
specific challenges we face in our effort to increase the numbers of 
girls and women entering and succeeding in STEM-related studies. I will 
be emphasizing engineering, because that is where my primary experience 
and knowledge lie, but the basic assumptions and recommendations can 
apply throughout many disciplines in STEM fields in which women are 
under-represented.
    While there are some similarities among the various STEM fields, 
there are also many differences. It is important to note that 
engineering and science are different fields. We must recognize that, 
while they have common recruitment and retention challenges, the 
different disciplines each face unique challenges. Discussions and 
statistics that treat all STEM disciplines as one mask real issues. For 
example, 2006 National Science Foundation (NSF) statistics show that 
women received almost 50 percent of science and engineering Bachelor's 
degrees in 2005-06.
    Taken on face value, these statistics make it look like there is no 
problem. If we break out engineering, however, the percentage of women 
receiving degrees is a very low 18 percent. And even within 
engineering, there are great variations. Environmental, bio and 
chemical engineering--all fields related to biological sciences--have 
high percentages of women at 40 percent, 37 percent and 34 percent 
respectively. Unfortunately, these are relatively small disciplines in 
terms of numbers enrolled. Mechanical and electrical engineering, on 
the other hand, are disciplines that traditionally have the largest 
populations of students, but have very low percentages of women at 11 
percent and 12 percent respectively. Computer engineering, another 
field critical to national competitiveness, has only 11 percent.\3\ I 
am submitting some graphs for the hearing record that illustrate these 
statistics.
---------------------------------------------------------------------------
    \3\ Commission of Professionals in Science and Technology. (2009). 
Professional Women and Minorities: A Total Human Resources Data 
Compendium. Washington, D.C.
---------------------------------------------------------------------------
    These differences have real implications for policy makers and STEM 
practitioners. A recent study by Sonnert and Fox finds that it is 
advisable ``to take field differences into account and to tailor 
efforts and initiatives to the situation in specific fields, rather 
than simply targeting `women in science' or `women in science and 
engineering' in toto.'' \4\ A recent National Academies study, Gender 
Differences in Critical Transition Points in the Careers of Science, 
Engineering, and Mathematics Faculty, did not take such research into 
account, and examined only select STEM fields to conclude that there is 
relatively no problem at critical transition points for women in 
academic careers.\5\ This study is an example of the way that treating 
all disciplines collectively conceals problems in individual STEM 
fields.
---------------------------------------------------------------------------
    \4\ Sonnert, Gerhard; Fox, Mary Frank; Adkins, Kristen. (2007). 
``Undergraduate Women in Science and Engineering: Effects of Faculty, 
Fields, and Institutions over Time.'' Social Science Quarterly. Vol. 88 
(5), pp. 1333-57.
    \5\ National Research Council Committee on Women in Science, 
Engineering, and Medicine. (2009). Pre-publication Copy of Gender 
Differences in Critical Transition Points in the Careers of Science, 
Engineering, and Mathematics Faculty. Washington, DC: National 
Academies Press.
---------------------------------------------------------------------------
    Recruiting women into engineering, a field in which they are under-
represented, should be pursued as one clear path to increasing the 
overall yield of engineering degrees granted in the U.S. We know that 
women graduating from high school are prepared to enter engineering. 
High school girls take 55 percent of all Advanced Placement tests, 
including 47 percent of all calculus tests, 47 percent of chemistry 
tests, 31 percent of physics tests and 17 percent of computer science 
tests.\6\ So the real question is not whether women can do engineering. 
It is: How can we attract them into STEM careers?
---------------------------------------------------------------------------
    \6\ College Board. (2009). AP Data 2008. Available at: http://
professionals.collegeboard.com/data-reports-research/ap/data
---------------------------------------------------------------------------
    One key to answering this question is a better understanding of 
what is working and what is not working in our national efforts to 
attract girls and women into STEM fields. And, although different 
efforts might be required for particular STEM fields, certain 
activities, such as effective assessment of those efforts, are relevant 
across all disciplines within STEM.
    We know that there are a lot of very good programs offered by 
knowledgeable and talented STEM professionals and volunteers throughout 
the country. Anecdotally and through research on specific program 
activities, we know that engineering outreach programs have a 
tremendous impact on the goal expressed by NSF, as well as by other 
engineering and science industrial and academic leaders, to broaden the 
participation of girls and young women in engineering and 
technology.\7\ These large-scale programs are the exception and not the 
rule, both in terms of funding and effort level, and in terms of their 
means to analyze and assess effectiveness. Such efforts are well 
funded, well staffed and resource intensive--and not easily replicated 
by the people and organizations that normally do STEM outreach. The 
findings of these exemplary programs are important, and can inform 
future program development and answer questions about longitudinal 
retention rates, but they are not designed for export and use by 
individual STEM practitioners at the program level. What we need to 
know is how effective are the broad offerings of STEM educational 
practice and programming at work in K-12 schools, colleges, and 
community and professional organizations across the country.
---------------------------------------------------------------------------
    \7\ National Science Foundation. (2003). New Formulas for America's 
Workforce: Girls in Science and Engineering. NSF 03-207. Available at: 
http://www.nsf.gov/pubs/2003/nsf03207/start.htm; Goodman, I.F.; 
Cunningham, C.M.; Lachapelle, C.; Thompson, M.; Bittinger, K.; Brennan, 
R.T.; Delci, M. (2002). Final Report of Women's Experiences in College 
Engineering (WECE) Project. Cambridge, MA: Goodman Research Group Inc. 
Available online at www.grginc.com
---------------------------------------------------------------------------
    When I re-established the Women in Engineering Program at Penn 
State, one of the first things I did was talk to several directors of 
similar programs throughout the country and survey the literature to 
find out what other programs were doing and what the most effective 
strategies were. What I found was a very dedicated, energetic community 
rich with people who ran a variety of innovative programs, often on 
shoestring budgets and with lean staffs and student volunteers. I also 
found an environment poor in meaningful assessment. And the assessments 
that did exist took the form of what we call ``happy face,'' or an 
assessment that asks participants how much fun they had, and includes 
many engaging quotes from girls and women.
    I then sought out literature relevant to my program goals: 
recruiting women into engineering and developing their talents. 
Developing hands-on skills, supporting a sense of self-efficacy in 
engineering, and having active mentors are all well researched as ways 
to motivate women to succeed. I integrated all three into a three-day 
orientation program, the Women in Engineering Program Orientation 
(WEPO), that continues to yield the highest retention rate of any group 
in the Penn State College of Engineering and was recognized with the 
PAESMEM award.
    The next step was creating effective assessment tools so that I 
could find out things like how well participants were retained. At that 
point, I teamed up with Rose Marra, now associate professor of learning 
technologies at the University of Missouri and Co-Founder and Co-
Director of the AWE Project, to develop an assessment plan. The step 
after that was the realization that the need for help in creating good 
assessment was universal.
    We integrated these two key concepts--effective assessment and 
integration of research findings into programming--when we conceived of 
the Assessing Women and Men in Engineering Project, or the AWE Project, 
to develop universal tools that could be used by STEM educational and 
outreach programs to measure the success of different activities and 
approaches, compare them with other programs, and continuously improve 
programs and activities. The more than fifty surveys offered by SWE AWE 
have been tested and proven effective for both male and female 
students, and help us to confirm that our efforts on behalf of women 
are also benefiting men.
    AWE moved into the Society of Women Engineers (SWE) to broaden the 
scope and audience, and to sustain the project and its many products 
and services. Founded in 1950, SWE is a 20,000 member not-for-profit 
educational and service organization that empowers women to succeed and 
advance in the field of engineering. These activities are supported by 
the NSF Research in Gender in Science and Engineering (GSE) Program.\8\ 
NSF and the GSE Program are leaders in promoting better assessment in 
their sponsored programs. GSE encourages other grantees to access SWE 
AWE products, supporting further development and dissemination. To 
date, the SWE AWE Project has 1065 registered users from 418 
institutions and organizations.
---------------------------------------------------------------------------
    \8\ National Science Foundation. (2009). Research in Gender in 
Science and Engineering Program. Available at: http://www.nsf.gov/
funding/pgm--summ.jsp?pims--id=5475&org= NSF&sel--org=NSF&from=fund. 
Award #0120642; #0607081; #0734072.
---------------------------------------------------------------------------
    The SWE AWE Project addresses the barriers to improving assessment 
and developing better metrics by looking at assessment as an organizing 
tool rather than as something tacked on to the end of an activity. It 
advocates assessment as a method to guide the development and 
implementation of STEM programs as well as the measurement of outcomes.
    The SWE AWE Project is designed to address the core issues that 
inhibit the development and implementation of effective STEM 
programming--issues that I faced when I started Penn State's Program--
particularly limited resources and a lack of will to assess or reward 
for assessing.
    STEM initiatives typically run with small staffs or volunteers, who 
often have little assessment expertise, and function on soft money 
budgets with limited facilities.\9\ The staff more often has expertise 
in developing and implementing programs, advising and outreach, rather 
than in assessment.
---------------------------------------------------------------------------
    \9\ Goodman, I.F.; Cunningham, C.M.; Lachapelle, C.; Thompson, M.; 
Bittinger, K.; Brennan, R.T.; Delci, M. (2002). Final Report of Women's 
Experiences in College Engineering (WECE) Project. Cambridge, MA: 
Goodman Research Group Inc. Available online at www.grginc.com; Bogue, 
B., & Marra, R. (2001). ``Informal Survey of WIE Directors.'' Penn 
State University.
---------------------------------------------------------------------------
    Programs offered by volunteers in companies or through professional 
societies face similar resourcing issues, with the added problem--and, 
it has to be stressed, the added benefit--that the volunteers are 
typically experts in STEM fields rather than in education or outreach. 
These professional volunteers create good programs. They can assess the 
success of their program with attendance figures and the results of 
``happy face'' surveys. But good assessment and evaluation of those 
programs--the kind of assessment that leads to sustainable impacts--
require assessment expertise, funding and other resources.
    The SWE AWE Project promotes effective assessment and evaluation in 
two ways: 1) by providing exportable survey instruments at the pre-
college and college levels that can be adapted and used by programs 
throughout the country; and 2) by creating capacity for assessment and 
evaluation among practitioners through the distillation of relevant 
research findings in Applying Research to Practice (ARP) papers and 
capacity-building workshops throughout the country. The surveys, which 
are available in paper and online versions, measure typical objectives 
for precollege and college level activities and, at the precollege 
level, are available in science, computer and math versions as well as 
engineering. ARP resources are developed in collaboration with the 
National Academy of Engineering Center for the Advancement of 
Scholarship in Engineering Education. I am submitting a list of the 
current available AWE Products for the hearing record.
    The second issue that the SWE AWE project is designed to address is 
the will to undertake and use assessment. Offering programs to girls 
and young women is fun, and their positive responses are rewarding. 
Assessment, on the other hand, takes time and is designed to tell us 
what to do better. If resources are limited and everyone is happy with 
the status quo, why change? Where are the rewards?
    But lack of effective assessment precludes continuous improvement 
of activities. How many activities are there out there that have been 
offered year after year without change--they worked once, but do they 
still today? Have they taken advantage of new research findings or 
changing demographics? When I started the women in engineering 
orientation at Penn State, most of the girls had no experience with e-
mail! One of our most popular skill building sessions was learning to 
use e-mail. That clearly had to change. Today, we offer sessions on how 
to manage labs and set up computer hardware networks.
    Without effective assessment and evaluation, programs can actually 
be counterproductive. How many activities and events out there are 
doing the job of committing girls and women to technical careers? How 
many girls and women are we unintentionally discouraging by not 
improving our activities using assessment results and new research 
findings?
    This is where funders have a role to play. The Federal Government 
as a funder should require effective assessment of activities aimed 
toward NSF's goal of ``broadening participation,'' which is a standard 
feature of many grant rewards. And federal Title IX reviews, like those 
conducted by the National Aeronautics and Space Administration (NASA), 
can be an effective tool for understanding the activities, such as 
student recruitment and retention programs, that would benefit from an 
assessment of effectiveness.\10\ It is not enough to do ``something''--
that something should be proven effective, especially where federal 
funds are used. Industry and professional societies as funders have a 
similar stake in understanding the effectiveness of funded programs. By 
requiring annual assessment and evaluation reports, and by basing 
further funding on how those assessments and evaluations are used to 
improve programs, effective programs are rewarded; ineffective programs 
are motivated to improve.
---------------------------------------------------------------------------
    \10\ National Aeronautics and Space Administration. (2009). NASA 
Title IX Compliance Program. Available at: http://www.hq.nasa.gov/
office/codee/compliance<INF>-</INF>program.html
---------------------------------------------------------------------------
    Services like the SWE AWE Project offer ready-made tools that 
funders and practitioners alike can use to identify and achieve common 
goals. Greater use of uniform tools also opens the door for comparison 
of data from a broad variety of programs and venues--which ultimately 
will allow us a much clearer picture of what works and what doesn't.
    There are many ways in addition to the use of good assessment that 
we can break down the barriers to effective recruitment and development 
of women in STEM.\11\ I will focus on three:
---------------------------------------------------------------------------
    \11\ National Science Foundation. (2003). New Formulas for 
America's Workforce: Girls in Science and Engineering. NSF 03-207. 
Available at: http://www.nsf.gov/pubs/2003/nsf03207/start.htm; Sevo, R. 
(2009). ``10 x 10 List.'' Available at http://momox.org/10x10.html

---------------------------------------------------------------------------
        <bullet>  The application of research to practice,

        <bullet>  Improved learning environments, and

        <bullet>  Sustained and targeted funding.

    First, the need for the application of research to practice is 
essential if we are to develop effective programming for women in STEM. 
Basic research through programs like NSF GSE is a critical tool for 
increasing the numbers of women in engineering. Research into why women 
and girls leave or stay, how psychological constructs can impact 
decision-making or retention, and understanding the experience of 
minorities in majority-built and -maintained environments can make or 
break our combined national effort to increase the numbers of under-
represented populations in engineering and other STEM disciplines.
    Next, climate studies that look at students' learning and working 
environment are an important area of research for uncovering barriers 
for women in engineering. A student's learning environment, or 
``climate,'' can have an impact on the successful retention and 
development of all students in STEM fields. Unwelcoming classrooms, 
outdated teaching styles, and a lack of accommodation for different 
social or cultural experiences can all add up to create an environment 
that students decide to leave rather than thrive in. This affects all 
students, men as well as women. However, students who are already 
marginalized as ``non typical,'' or who are severely under-represented, 
as are women in engineering, experience these adverse environments more 
keenly. Much research shares common findings that women who are equally 
prepared academically as men when they enter engineering leave 
engineering or science with higher GPAs than their male counterparts 
who leave, having found less of a sense of community and citing that 
they have encountered poor teaching. Surveys of students leaving 
engineering or science, including surveys developed and implemented by 
SWE AWE, find that students who leave are less involved in discipline-
related activities and fail to develop a sense of community.\12\
---------------------------------------------------------------------------
    \12\ Seymour, E. & Hewitt, N. (1997). Talking about Leaving: Why 
Undergraduates leave the Sciences. Boulder, Colorado: Westview Press; 
Goodman, I.F.; Cunningham, C.M.; Lachapelle, C.; Thompson, M.; 
Bittinger, K.; Brennan, R.T.; Delci, M. (2002). Final Report of Women's 
Experiences in College Engineering (WECE) Project. Cambridge, MA: 
Goodman Research Group Inc. Available online at www.grginc.com; 
Hartman, H. and Hartman, M. (2006). ``Leaving Engineering: Lessons from 
Rowan University's College of Engineering.'' Journal of Engineering 
Education, Vol. 95, pp. 49-61; Marra, R.; Bogue, B. (2008). 
``Engineering Classroom Environments: Examining Differences by Gender 
and Departments.'' Proceedings of American Society for Engineering 
Education, June 2008, Pittsburgh, PA; Marra, R.; Rogers, K.A.; Shen, 
D.; & Bogue, B. (2009). ``A Multi-Year, Multi-Institution Study of 
Women Engineering Student Self-Efficacy,'' Journal of Engineering 
Education, Vol. 98, pp. 1-12.
---------------------------------------------------------------------------
    AWE results and other findings belie the postulation that women do 
not pursue engineering because they are just not interested or don't 
have the talent. Rather, they indicate that women who have the talent 
and interest are being turned off by how the discipline is presented. 
Women's high school preparation and GPAs once in college are comparable 
to men's. In fact, in our recent research females show significantly 
higher intentions to persist in engineering than their male 
counterparts.\13\ These results show that we don't need to fix the 
women; we need to fix environments in which they fail to thrive.
---------------------------------------------------------------------------
    \13\ Bogue, B. and Marra, R. (2009). ``The AWE Family of Projects: 
Assessing STEM Educational Outreach, Retention Programs and Research on 
Engineering Undergraduates.'' Poster presented at the National Science 
Foundation Joint Annual Meeting, June 2009; Marra, R.; Bogue, B. 
(2008). ``Engineering Classroom Environments: Examining Differences by 
Gender and Departments.'' Proceedings of American Society for 
Engineering Education, June 2008, Pittsburgh, PA.
---------------------------------------------------------------------------
    Finally, sustained and targeted funding is necessary in order to 
increase the numbers of women entering and succeeding in engineering: 
funding for basic research, funding for designing and implementing 
programs, and funding to support individuals. Such funding has the 
potential to effect change when it comes with prudent conditions 
designed to reinforce real change in how programs are developed and 
evaluated. Funding that includes requirements for effective assessment 
plans and reports on outcomes that describe how assessment results are 
used. Funding that requires that basic researchers work directly with 
STEM practitioners to integrate findings into practice. Funding that 
provides individual funding to support women students who commit to the 
completion of studies in STEM fields in which they are under-
represented.
    There is historical evidence that directed individual funding 
works. We saw a tremendous change in the number of men who decided to 
study engineering in the wake of the ground-breaking National Defense 
Education Act (NDEA), which occurred in the wake of the launch of 
Sputnik in 1958. Today, we see more modest efforts aimed at women in 
engineering through, for example, the NSF ADVANCE Program, which offers 
institutional transformation grants aimed at the goal of increasing 
women faculty in STEM.\14\
---------------------------------------------------------------------------
    \14\ National Science Foundation. (2009). ADVANCE: Increasing the 
Participation and Advancement of Women in Academic Science and 
Engineering Careers (ADVANCE). Available at: http://www.nsf.gov/
funding/pgm<INF>-</INF>summ.jsp?pims<INF>-</INF>id=5383. Also, see 
ADVANCE portal at http://www.portal.advance.vt.edu/
---------------------------------------------------------------------------
    Directing that all federal funding in STEM fields must address 
these issues as a part of any funded project would validate the 
importance of a creating an inclusive work and study environment and 
encourage more girls and women to enter engineering.
    In conclusion, increasing the number of women pursuing engineering 
degrees and succeeding in professional careers is an essential 
component of our ability as a nation to solve the problems we face and 
to remain a world leader in science and technology. Promoting the use 
of assessments, like those offered by the SWE AWE Project, and 
supporting programs at the undergraduate level to overcome barriers to 
recruit and retain female undergraduates in STEM should be part of the 
equation. Therefore, we would like to recommend the following policy 
recommendations to you:

        <bullet>  Sustain and target funding for programs and 
        activities that focus on attracting and retaining women and 
        girls to non-traditional and STEM careers and removing 
        institutional barriers to their success, for basic research 
        related to that goal, and for efforts directed at encouraging 
        individual women to undertake and complete engineering degrees.

        <bullet>  Review federal funding requirements and set 
        guidelines to ensure that funded programs address national 
        priorities and attract a diverse population. Include 
        requirements for effective assessment, including reporting of 
        how findings will be used to continuously improve processes.

        <bullet>  Support the continuation of federal Title IX reviews, 
        like those conducted by NASA, as one component of understanding 
        the issues that inhibit the full participation of women in 
        engineering and other STEM disciplines at the college level.

        <bullet>  Provide support for women who wish to pursue 
        engineering degrees. Reward the institutions that make 
        successful efforts to increase the percentages of women 
        studying STEM disciplines in which they are currently under-
        represented.

    Forty years ago yesterday, Neil Armstrong became the first human to 
set foot on the Moon, thanks to our Federal Government's commitment to 
set forth a clear vision for achieving that goal by the end of the 
1960s. Not only did we have the national will to achieve that event, we 
supported it financially by ensuring an innovative and productive 
engineering workforce through the National Defense Education Act. 
Earlier this year, in a speech to the National Academy of Science, 
President Obama set out an equally ambitious goal to increase research 
and development funding to levels that exceed those in the era of the 
space race. To achieve the goal of full participation of women and 
other under-represented groups in this new bold endeavor will require 
an equivalently bold commitment. We at the Society of Women Engineers 
look forward to and support your efforts in this regard.
    Thank you again for the opportunity to present our views.

References

Bogue, B. and Marra, R. (2009). ``The AWE Family of Projects: Assessing 
        STEM Educational Outreach, Retention Programs and Research on 
        Engineering Undergraduates.'' Poster presented at the National 
        Science Foundation Joint Annual Meeting, June 2009.

Bogue, B., and Marra, R. (2001). ``Informal Survey of WIE Directors.'' 
        Penn State University.

College Board. (2009). AP Data 2008. Available at: http://
        professionals. collegeboard.com/datareports-research/ap/data

Commission of Professionals in Science and Technology. (2009). 
        Professional Women and Minorities: A Total Human Resources Data 
        Compendium. Washington, D.C.

Goodman, I.F.; Cunningham, C.M.; Lachapelle, C.; Thompson, M.; 
        Bittinger, K.; Brennan, R.T.; Delci, M. (2002). Final Report of 
        Women's Experiences in College Engineering (WECE) Project. 
        Cambridge, MA: Goodman Research Group Inc. Available online at 
        www.grginc.com

Hartman, H. and Hartman, M. (2006). ``Leaving Engineering: Lessons from 
        Rowan University's College of Engineering.'' Journal of 
        Engineering Education, Vol. 95, pp. 49-61.

Marra, R.; Rogers, K.A.; Shen, D.; and Bogue, B. (2009). ``A Multi-
        Year, Multi-Institution Study of Women Engineering Student 
        Self-Efficacy,'' Journal of Engineering Education, Vol. 98, pp. 
        1-12.

Marra, R. and Bogue, B. (2008). ``Engineering Classroom Environments: 
        Examining Differences by Gender and Departments.'' Proceedings 
        of American Society for Engineering Education, June 2008, 
        Pittsburgh, PA.

National Academy of Sciences, National Academy of Engineering, 
        Institute of Medicine Committee on Science, Engineering, and 
        Public Policy (COSEPUP). (2009). Beyond Bias and Barriers: 
        Fulfilling the Potential of Women in Academic Science and 
        Engineering. Washington, DC: National Academies Press.

National Academy of Sciences, National Academy of Engineering, 
        Institute of Medicine Committee on Prospering in the Global 
        Economy of the 21st Century: An Agenda for American Science and 
        Technology. (2006). Rising Above the Gathering Storm: 
        Energizing and Employing America for a Brighter Economic 
        Future. Washington, DC : National Academies Press.

National Research Council Committee on Women in Science, Engineering, 
        and Medicine. (2009). Pre-publication Copy of Gender 
        Differences in Critical Transition Points in the Careers of 
        Science, Engineering, and Mathematics Faculty. Washington, DC: 
        National Academies Press.

National Science Foundation. (2003). New Formulas for America's 
        Workforce: Girls in Science and Engineering. NSF 03-207. 
        Available at: http://www.nsf.gov/pubs/2003/nsf03207/start.htm

National Science Foundation. (2009). ADVANCE: Increasing the 
        Participation and Advancement of Women in Academic Science and 
        Engineering Careers (ADVANCE). Available at: http://
        www.nsf.gov/funding/pgm<INF>-</INF>summ.jsp?pims<INF>-</INF> 
        id=5383. Also, see ADVANCE portal at http://
        www.portal.advance.vt.edu/

National Science Foundation. (2009). Research in Gender in Science and 
        Engineering Program. Available at: http://www.nsf.gov/funding/
        pgm<INF>-</INF>summ.jsp?pims<INF>-</INF> 
        id=5475&org=NSF&sel<INF>-</INF>org=NSF&from=fund. Award 
        #0120642; #0607081; #0734072.

National Aeronautics and Space Administration. (2009). NASA Title IX 
        Compliance Program. Available at: http://www.hq.nasa.gov/
        office/codee/compliance<INF>-</INF> program.html

Projects in the Sciences. Retrieved 12 December 2005 from http://
        www.aauw.org/research/microscope.cfm

Sevo, R. (2009). ``10 x 10 List.'' Available at http://momox.org/
        10x10.html

Seymour, E. and Hewitt, N. (1997). Talking about Leaving: Why 
        Undergraduates leave the Sciences. Boulder, Colorado: Westview 
        Press.

Sonnert, Gerhard; Fox, Mary Frank; Adkins, Kristen. (2007). 
        ``Undergraduate Women in Science and Engineering: Effects of 
        Faculty, Fields, and Institutions over Time.'' Social Science 
        Quarterly, Vol. 88 (5), pp. 1333-57.

The National Council for Research on Women. (2001). ``Balancing the 
        Equation: Where Are Women and Girls in Science, Engineering and 
        Technology?'' Available at: www.ncrw.org

                      Biography for Barbara Bogue
    Barbara Bogue is Co-Founder and Co-Director of the SWE AWE (Society 
of Women Engineers' Assessing Women and Men in Engineering) Project and 
associate professor of Engineering Science and Mechanics and Women in 
Engineering and Women in Engineering at Penn State. The SWE AWE Project 
develops and disseminates assessment instruments for educational 
outreach, engineering self-efficacy, classroom climate and assessment 
capacity building tools.
    Prior to her current position, Bogue served as Director of the Penn 
State Women in Engineering Program, hired with the charge to re-
institute and revitalize the program. In that role, she created and 
implemented recruitment and retention programs and was recognized for 
her achievements with several awards, including the White House 
Presidential Award for Excellence in Science, Mathematics and 
Engineering Mentoring (PAESMEM), the WEPAN Women in Engineering and 
Science Program Award and the Penn State Outstanding Recruitment and 
Retention Award. A fulfilling part of her career has been the mentoring 
of young women and men and she takes great pleasure in maintaining 
contact with Penn State engineers throughout the world. Her activities 
in this area were recognized with the Penn State Rosemary Shearer 
Mentoring Award.
    Bogue's research focuses on the application of research to 
practice, assessment, and the development and progression of girls and 
women in engineering. She is the Principal Investigator of a National 
Science Foundation grant that moved the AWE Project into the Society of 
Women Engineers, where it will continue to offer quality products and 
capacity building. SWE's ownership of the AWE Project ensures 
continuity and the ability to reach a larger audience. The author of 
numerous publications, Bogue has developed and presents workshops on 
assessment, evaluation and faculty development for the Women in 
Engineering ProActive Network (WEPAN), the American Society of 
Engineering Educators, the Society of Women Engineers, The Big Ten CIC 
Faculty Development Workshop, and the National Girls Collaborative 
Project (webcast). Bogue also evaluates interventions that aim to 
increase the participation and progression of women and minorities in 
engineering. The National Science Foundation, the GE Fund, the Henry 
Luce Foundation, the Engineering Information Foundation, The 
Engineering Foundation and a variety of corporations have funded her 
work.

    Chairman Lipinski. Thank you, Ms. Bogue. And finally, the 
Chair recognizes Ms. Thomas.

  STATEMENT OF MS. CHERRYL T. THOMAS, PRESIDENT AND FOUNDER, 
                    ARDMORE ASSOCIATES, LLC

    Ms. Thomas. Good morning, Mr. Chairman, Ranking Member 
Ehlers, distinguished Members of Congress and this 
subcommittee. I am both humbled and pleased that I have been 
asked to testify before you today.
    Rather than a direct academic pursuit of engineering, I 
came to the field by quite a circuitous route. Actually, I 
really did not know anyone personally who was an engineer. 
However, through the encouragement and development of my 
scientific and mathematical aptitude, and the forward thinking 
of leaders in my life, my mother, teachers, and mentors, I came 
to the STEM fields. I hope that you can bear with me for a few 
moments, while I give you a brief synopsis of my career path.
    My earliest recollection of building materials was a 
Christmas morning, when I spied a very large box of Tinkertoys. 
These were for my oldest brother. He admonished me not to put 
my sticky paws on his Tinkertoys. They were special for him to 
build things. Of course, I couldn't wait to set the Big Ben 
alarm clock to get up in the middle of the night and play with 
that set.
    As fortune would intervene, eventually, my brothers got an 
Erector Set. The Tinkertoys cast aside became mine. The first 
thing I built was a windmill. All these years later, when I see 
the wind turbines dotting the landscape in rural areas, I have 
wondered how many of the engineers who have designed or built 
wind turbines had their interests sparked in their youth by a 
simple set of Tinkertoys.
    Throughout my academic career, I was always interested in 
the sciences, and I was encouraged to think about or pursue the 
biological sciences. In high school, I demonstrated an aptitude 
for chemistry. My career path was set. I would concentrate on 
biology and chemistry, and think about medicine or scientific 
research. I received awards for participating in science fairs 
all four years of high school. One Saturday a month, I went to 
the Science Academy in Lincoln Park, and every other Sunday, to 
the Museum of Science and Industry close to where I lived in 
Hyde Park.
    Armed with this foundation, I went off to university 
prepared to major in biology and chemistry. I completed my 
undergraduate studies, and went to work for the Department of 
Water and Sewers in the city of Chicago as a research chemist. 
I was quite content in this role. I completed a master's degree 
while working for the city, and began course work for a 
doctorate.
    The latter was interrupted when I was chosen as the first 
woman to participate in a program of sending young people, up 
until this point in time, young male engineers, to work in 
various units of the Department of Water and Sewers, to 
cultivate an understanding of how not only the units worked, 
but how the Department worked in total.
    It is very important to note that this decision was made by 
the Commissioner of the Department. I was assigned to the Chief 
Engineer in the Commissioner's office. The time period was the 
early '70s. This was not a simple or easy decision to make. To 
complicate matters, I was not a degreed engineer. Instead, I 
was learning on the job. To his credit, and I thank him always, 
the Chief Engineer convinced me to go back to school and take 
engineering courses.
    That was the end of the biological sciences and the 
beginning of a new endeavor. I was the first woman to work in 
the field on a shutoff crew for the Department of Water. 
Eventually, I ended up running that crew.
    What were the barriers I faced? This was unusual. Women 
were not supposed to work shifts. There were no facilities for 
women, and quite frankly, women would interfere with the way 
men talked and worked. Of course, over a short period of time, 
their fears and mine were assuaged. We were all there to do a 
job. In hindsight, what a great opportunity and what a great 
experience.
    I worked many years for the Water Department before going 
on to work in various other infrastructure departments, which 
culminated in my overseeing all of the infrastructure 
departments, when I went to work in Mayor Daley's office as his 
Deputy Chief of Staff.
    In 1994, the Mayor appointed me as Commissioner of the 
Department of Buildings. I was the first woman to hold this 
position. In this role, my field experience and practical side 
of engineering would have to get me through learning and 
understanding the design side. I do credit the discipline of 
being involved in the sciences as preparation for this 
demanding role, and as preparation for successful completion of 
any daunting task.
    The biggest challenges to attracting and retaining women 
and girls in the STEM fields, I think, are exposure at an early 
age, encouragement and nurturing of ideas, and the pervasive 
tendency to promote the sciences as career fields for boys and 
men, although medicine is the exception to this rule.
    The most promising solutions continue to work, as a 
committee such as this, to study and lend credence to the 
problem. Funding to add programs with mathematics, chemistry, 
and physics to primary as well as secondary education. Exposing 
girls and young women to other women who are pursuing these 
fields.
    In a humble way, I do think drawing attention to women like 
myself, who have come through the ranks, who have persevered, 
and who are now Presidents and CEOs of their own engineering 
firms, helps to promote the value of being smart girls and 
women with STEM field aptitudes.
    In closing, I would like to thank you again for inviting me 
to testify before you today. I am committed, through various 
organizations and academic institutions, to promoting not only 
women and minorities in sciences, but also, to developing 
interests and skills, and expanding STEM opportunities to 
people as a whole.
    I heard a very disturbing statistic, that only about four 
percent of our young people in this country seek to have 
careers in the sciences. Those seeking these careers in other 
countries are as high as 40 percent. If we do not address this 
issue, who will build our roads and bridges? It is a question 
we must answer.
    Thank you.
    [The prepared statement of Ms. Thomas follows:]
                Prepared Statement of Cherryl T. Thomas
    Good morning distinguished Members of Congress, colleagues, and all 
in attendance. I am both humbled and pleased that I have been asked to 
testify before you today in such august company as the other witnesses.
    Rather than a direct academic pursuit of engineering, I came to the 
field by quite a circuitous route. Although I always had a curiosity at 
a very young age of building objects, I really did not know anyone 
personally who was an engineer. However, through the encouragement and 
development of my scientific and mathematical aptitudes, and the 
forward thinking of the leaders in my life, my mother, teachers and 
mentors, I became what you now know as a leader in the Science, 
Technology, Engineering, and Mathematics industry.
    I hope you can bear with me while I give you a brief synopsis of my 
career path.

What influenced your decision to pursue a career in engineering, and 
what were some of the greatest barriers you faced as a woman in a STEM 
field?

    My earliest recollection of building materials was a Christmas 
morning when I spied a very large box of Tinker Toys. These were for my 
oldest brother. He admonished me `not to put my sticky paws on his 
Tinker Toys. They were special for him to build things.' Of course, I 
couldn't wait to set the Big Ben alarm clock to get up in the middle of 
the night and play with that set. As fortune would intervene, 
eventually my brothers got an Erector Set. The Tinker Toys cast aside 
became mine. The first thing I built was a windmill. All these years 
later when I see the wind turbines doting the landscape in rural areas, 
I have wondered how many of the engineers, who have designed or built 
wind turbines, had their interests sparked, in their youth, by a simple 
set of Tinker Toys.
    Throughout my academic career, I was always interested in the 
sciences and I was encouraged to think about or pursue the biological 
sciences. In high school, I demonstrated an aptitude for Chemistry. My 
career path was set: I would concentrate on Biology and Chemistry and 
think about medicine or scientific research. I received awards for 
participating in science fairs all four years of high school. One 
Saturday a month, I went to the Science Academy in Lincoln Park. And 
every other Sunday to the Museum of Science and Industry, close to 
where I lived.
    Armed with this foundation, I went off to university prepared to 
major in biology and chemistry.
    I completed my undergraduate studies and went to work for the 
Department of Water and Sewers in the city of Chicago as a Research 
Chemist. I was quite content in this role. I completed a Master's 
degree while working for the city; and began course work for a 
doctorate. The latter was interrupted when I was chosen as the first 
woman to participate in a program of sending young people (up until 
this point in time young male engineers) to work in various units of 
the Department of Water and Sewers to cultivate an understanding of how 
the Department worked, not as units, but in total. It is very important 
to note that this decision was made by the Commissioner of the 
Department. I was assigned to the Chief Engineer in the Commissioner's 
office. The time period was the early seventies; this was not a simple 
or easy decision to make. To complicate matters I was not a degreed 
engineer. Instead, I was learning on the job. To his credit, and I 
thank him always, the Chief Engineer convinced me to go back to school 
and to take engineering courses. That was the end of the biological 
sciences and the beginning of a new endeavor.
    I was the first woman to work in the field on a shut-off crew for 
the Bureau of Water. The barriers I faced were:

        1.  This was unusual.

        2.  Women were not supposed to work shifts.

        3.  There were no facilities for women.

    And quite frankly,

        4.  Women would interfere with the way men talked and worked.

    Of course, over a short period of time, their fears and mine were 
assuaged. We were all there to do a job. In hind sight: what a great 
experience!
    I worked many years for the Water Department before going on to 
work in various other Infrastructure Departments which culminated in my 
overseeing all of the Infrastructure Departments when I went to work in 
Mayor Daley's Office as his Deputy Chief of Staff.
    In 1994 the Mayor appointed me as Commissioner of the Department of 
Buildings. I was the first woman to hold this position. In this role, 
my field experience and practical side of engineering would have to get 
me through learning and understanding the design side. I do credit the 
discipline of being involved in the sciences as preparation for this 
demanding role, and as preparation for successful completion of any 
daunting task.

What are the biggest challenges to attracting and retaining young women 
and girls in STEM fields, and what are the most promising solutions to 
these challenges?

    The biggest challenges to attracting and retaining young women and 
girls to STEM fields are:

        1.  Exposure at an early age

        2.  Encouragement and nurturing of ideas

        3.  The pervasive tendency to promote the sciences as career 
        fields for boys and men. (Although medicine is the exception to 
        this rule.)

    The most promising solutions are:

        1.  Continuing to work as a committee such as this to study and 
        lend credence to the problem.

        2.  Funding to add programs of mathematics, chemistry and 
        physics to primary as well as secondary education.

        3.  Exposing girls and young women to other women who are 
        pursuing these fields.

        4.  Adding an academic standard to the national curriculum of 
        teachers and counselors that trains them to identify and value 
        STEM aptitudes in girls and young women; and provides them with 
        academic and career path tools to develop STEM aptitudes in 
        those girls and young women.

        5.  In a humble way I do think drawing attention to women like 
        myself who have come through the ranks, who have persevered and 
        now are Presidents and CEOs of their own engineering firms, 
        helps to promote the value of being smart girls and women with 
        STEM field aptitudes.

    In closing, I would like to thank you again for inviting me to 
testify before you today. I am committed through various organizations 
and academic institutions to promoting not only women and minorities in 
the sciences, but also to developing interest and skills and expanding 
STEM opportunities to people as a whole. I heard a very disturbing 
statistic: that only about four (4) percent of our young people in this 
country seek to have careers in the sciences. Those seeking to have 
careers in the sciences in some other countries are as high as forty 
(40) percent. If we do not address this issue, who will build our roads 
and bridges? It is a question that we must answer.
    Thank you.

                    Biography for Cherryl T. Thomas
    Cherryl Thomas is President and Chief Executive Officer of Ardmore 
Associates, a full-service engineering, land surveying, program, 
project and construction management firm.
    From 1998-2003, she was appointed by President William J. Clinton 
as Chairman of the United States Railroad Retirement Board. She was 
responsible for the $18 billion comprehensive retirement, survivor and 
unemployment/sickness insurance benefit program for the Nation's 
railroad workers and their families.
    Ms. Thomas was appointed Commissioner of Chicago's Department of 
Buildings by Mayor Richard M. Daley where she served from 1994 to 1998. 
She was responsible for the operation and management of the Department 
of Buildings with a $28 million budget, the second largest building 
department in the country. She interfaced with developers, architects 
and engineers relative to building code issues. Ms. Thomas oversaw the 
review of architectural plans prior to permit issuance for new 
construction, rehabilitation and conservation of approximately 450,000 
buildings. This department also conducted examinations and issued 
licenses and/or certificates for multiple building trade disciplines.
    Prior to service as Commissioner of the Department of Buildings, 
Ms. Thomas served as Deputy Chief of Staff in Chicago's Office of the 
Mayor from 1991 to 1994. She was responsible for the day-to-day 
interaction with commissioners of city departments and State and local 
governmental officials. Her primary focus was on infrastructure 
departments. She initiated the timeline reporting system for all City 
departments. She served as Chairperson assisting in the development of 
the Information Technology Steering Committee including geographic 
information systems, monitored infrastructure construction projects, 
and worked with various boards, associations and commissions.
    Ms. Thomas' career with the city of Chicago began as an engineer-
in-training with the old Department of Public Works. During her career, 
she held various technical and management positions in the departments 
of Public Works, Water, Sewers and Aviation.
    She has an honorary Doctorate Degree from Boston College, a 
Master's of Science Degree in Physiology from the University of 
Illinois and a Bachelor of Science Degree in Chemistry and Biology from 
Marquette University. Ms. Thomas enhanced her career by taking 
engineering courses at the Illinois Institute of Technology as a non-
degree student.

                               Discussion

    Chairman Lipinski. Thank you, Ms. Thomas, and thank all of 
our witnesses for their testimony. Now, we will move on to the 
Q&A, and the Chair will begin by recognizing Ms. Fudge for five 
minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman, and thank all 
of you for being here today.
    We know that research has shown us that certainly, female 
STEM role models are the best way to encourage young people--
young women--to become involved in this area. And no offense, 
Mr. Leshner, but I just would love for some of the young people 
in our urban schools, in particular, to see you here today, and 
to be encouraged by what you have done in your careers. And I 
thank you for being here. And I thank you for your testimony as 
well.
    The question I have, because I am keenly aware that in our 
urban schools in particular, which I represent primarily, there 
are very few role models in our schools, whether they be 
counselors or science teachers or engineers, and that is the 
unfortunate part of this. So, my question becomes how do we 
incorporate, in an informal education way, dealing with the 
under-represented groups in the STEM fields, and how do we get 
the young women, especially African-American women, in our 
communities? And what best practices can we use, that can be 
transferred from an informal setting to the classroom setting?
    Anyone or everyone.
    Dr. Kropf. Okay. Well, I agree with you completely about 
your issue about role models and role models for girls of 
color. Three quarters of the girls served by Girls Incorporated 
are girls of color. Our Operation Smart program includes the 
whole concept of bringing in adult women scientists, engineers, 
and mathematicians, architects, archaeologists, to work on 
projects with the girls. It is not just a career day, where a 
woman comes in and talks about her career, but the girls 
actually see adult women making mistakes, because making 
mistakes in science is important. It is how you learn. And they 
see adult women scientists getting their hands dirty, and they 
can talk casually with them about what it is like to have a 
scientific career.
    Dr. Hanson. I just recently finished a study on young 
African-American women in science. It is ``Swimming Against the 
Tide.'' And when I talked to them, surveyed them, they don't 
see their schools as having good resources. They don't see 
people as thinking much of them becoming scientists. One of the 
young girls said ``they look at us like we are not supposed to 
be scientists.''
    And so, what they want is people who think they can do it. 
They want more resources in their schools. They can see that 
their schools have fewer resources, especially science. Their 
labs are not good labs. They want field trips. They want hands-
on labs, and I think we need to figure out a way to 
redistribute our resources so that if you are unlucky enough to 
be going to school in a poorer school district, you shouldn't 
be punished with poorer science labs.
    Ms. Fudge. Dr. Hanson, if I could just say one thing about 
your comments, well, two. I think you are right about athletes, 
not because I was an athlete, but--because I don't know 
anything about science. I am learning as I sit on this 
committee every day. But I love the concept of what you said, 
because it does encourage you, and it makes you believe that 
there are things you can do.
    As well, I want to say that as I leave here, and I am going 
to be doing that shortly because we have a markup in our 
Education and Labor Committee, we are going to be talking about 
exactly what you said. We are going to be finding ways to bring 
more resources into our schools, especially our urban cores, 
for labs, for computer technology, for things that we think are 
going to make young people more able to actually understand, to 
get excited about what is out there, because they can do hands-
on.
    So, I thank you as well.
    Dr. Hanson. Thank you.
    Ms. Bogue. I would like to add a couple of things to that. 
One is the intentionality of role modeling. I think the idea of 
bringing them in informally, not specifically as role models, 
is an excellent idea. But it is very, very important to assess 
the process, and look at whether those role models have, in 
fact, done the work that you want them to do.
    It is very possible to have people who look like they are 
going to be perfect role models to come in, and they end up 
discouraging the children from going on. So, that is an 
important thing.
    And I think another thing is that when we do bring these 
people in, it can be informal, but it also has to be very 
intentional. They have to understand why they are there, and 
what they should be doing, to make sure that these girls and 
boys make the connection between them being there and working 
with them, and what they can do in their lives.
    Ms. Thomas. You are absolutely right. Athletics does help. 
I was an athlete, and it does help. And you also have to be 
able to step outside your comfort zone, to be the first woman 
to go out on the street with a crew. I can't even impress upon 
you how difficult that was. But the fact is, you have to stay 
with it. You can't be easily discouraged, and I was armed with 
the knowledge that I probably knew as much as they did, and 
once we both became comfortable, it was fine.
    I think that we really do have to nurture young girls, to 
realize that they have ideas, that it is okay. You don't have 
to be channeled somewhere, and that is kind of what happened to 
me. I was channeled to think of research rather than the hard 
sciences, which I went back and took just fine, because I could 
persevere in those fields. So, I think nurturing and sticking 
with it is very important.
    Ms. Fudge. Thank you, Mr. Chairman. I yield back.
    Chairman Lipinski. And Ms. Fudge, I have to say, I am an 
engineer, and I have been on this committee for these terms, 
and certainly, I learn more and more every day, too. So, you 
are not the only one. We all go through that.
    The Chair now recognizes Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. So many questions and 
so little time. We all really appreciate your testimony and 
your comments.
    I was struck by several things. Ms. Thomas, you mentioned 
you didn't know any engineers when you were young and growing 
up. I think that is a good deal of the problem. A lot of both 
boys and girls don't get exposure these days.
    In the old days, growing up on the farm, the boys got a lot 
of exposure to mechanical things, chemistry, et cetera. The 
girls didn't. Today, neither one often does. When I give 
speeches to societies of engineers and scientists, I ask them, 
go to their nearest school, go to your kids' school. Talk to 
the teachers. Ask if you can go in and talk to the class, and 
just tell them what you do in your work. And perhaps arrange a 
field trip to your lab or your office, or if you are a civil 
engineer, take them out on the job. Help them learn how bridges 
are designed and made.
    And I think that is a very important activity. The 
discouraging part is some of these people who have done that 
have been turned down by the teachers who say, ``we don't have 
time for that,'' which is very unfortunate.
    I was amused by your comment, Ms. Thomas, that when you 
joined the crew, it seemed to affect the way men talked. And 
having served on a construction crew myself in my college 
years, I can say you probably only improved their language. It 
is not a pretty picture.
    Another comment was made, I think Dr. Kropf said something 
about girls feel ostracized by others when they study the 
sciences and math, and particularly when they do well. That is 
not uncommon, and in fact, I experienced the same thing, even 
though obviously, I am male.
    But I still remember, even at the college level, getting a 
paper back in class, a test paper, and immediately slapping it 
on the desk face down, so that my colleagues couldn't see what 
grade I got. And it is incredible that someone who did well has 
to be ashamed of what they did, but yet, that is part of what 
goes on in society at times. It is the way for the less 
competent to get even with you, I suppose.
    But what I do, when I speak in high schools, I make a big 
deal out of this. And first of all, I am a nerd, and I am proud 
of it, which shocks them a little bit. They don't believe it 
until I show them my pocket protector. But then I talk a bit 
about that. `Who is the richest man in the world? You all know 
that. He is a nerd.'
    I said, `I can predict that when you get out of school, 
that is why choosing the right courses is so important in high 
school. When you get out of school, and you start looking for a 
job, your choices are pretty simple. You will either be a nerd, 
or you are going to work for a nerd. Now, which of those do you 
want?' And it really sort of wakes them up. You know, they just 
don't have that much contact with the real world, and it does 
make them think.
    Some of this, I think, applies very well to girls and women 
as well, just to say, `Hey, lots of opportunities out there. 
You may not have heard about them. They may not even appeal to 
you at this point, but think about it. Just think about it. And 
what you can do.' I am just delighted with what you have done, 
and you are living examples to a lot of the women and the girls 
in the schools today, and that has to be multiplied over and 
over again.
    The innate prejudices that we have in society are still 
there, and there are many types of them. And we have to break 
through the mold on that. So, I just want to thank you for what 
you have done. I learned a great deal from your comments here, 
and I hope we can all work together, continue to illuminate 
this problem, because illumination is half the battle.
    And some of the things we have done, in this committee, 
about publicizing opportunities for women in science, and the 
Commission on Women in Science, and some of these things are 
really beginning to have an impact, but you are the leaders in 
having this impact, and I thank you for it.
    With that, I will yield back.
    Chairman Lipinski. Thank you, Mr. Ehlers, and we have a 
Member, not of the Subcommittee, but who has a great interest 
in this area. So, I welcome Ms. Woolsey to the Subcommittee and 
I recognize you for five minutes.
    Ms. Woolsey. Thank you very much, Mr. Chairman, for letting 
me sit in. I, too, have the higher ed markup, which is very 
important to women and girls, well, women, particularly, by 
higher ed and STEM.
    And thank you for being here today. And Dr. Leshner, thank 
you for getting it for women and under-represented groups, and 
all of you wonderful women, for setting such a good example.
    This is an issue that is very important to me. Otherwise, I 
wouldn't come to a subcommittee I am not a Member of. Believe 
me. Because we have to get more girls involved in STEM 
education, to keep them there, not just getting them involved, 
but keeping them interested throughout school, so that they can 
turn it into a career.
    At the very least, what I say is young women and under-
represented minorities don't have to be scientists, engineers, 
mathematicians, but they have to have the option by the time 
they get to college. And if they cut themselves off, act 
disinterested, and don't get involved in the right curriculum 
to have it available to them, by the time they get to college, 
it is too late.
    So, that is why I sponsored the inclusion of the 
appropriately named Patsy T. Mink Fellowships in the Higher 
Education Reauthorization Act, that passed by Congress, and was 
signed into law by President Bush last year. Because the Patsy 
T. Mink Fellowships provide funding and fellowships to 
encourage women and minorities to go into the graduate programs 
where they are under-represented, like the STEM programs, and 
then move them into teaching fields. Part of it is having a 
female or a minority model as your teacher. That is so 
important.
    And beyond that, I have introduced many Congresses in a 
row, and am preparing to reintroduce a bill I call ``Go Girl,'' 
which will provide grants to schools to promote STEM education 
in under-represented minorities from K-12. I have been working 
on this issue, both for elementary education and for graduate 
study for many, many years. Because if we don't get more girls 
and under-represented minorities into the STEM fields, we are 
going to be sending our jobs overseas.
    I mean, first of all, we want these groups to have the 
advantage that STEM provides them, and we want the advantage, 
as a nation, of their great brilliance of, like all of you have 
represented up here. But we don't want to be sending these jobs 
overseas with the new green industries and green technologies. 
We are going to sit here, and not have enough brainpower to 
make this happen, when we know we have it.
    So, my question to you, and I know I have talked a long 
time to be getting answers now, but is, at what point do young 
women in particular turn away from knowing that they are good 
in science and math, math particularly, in K-12? And how 
important is it for their parents and their teachers to step in 
and encourage them?
    Ms. Bogue. Middle school is a big area that girls come 
into, and the popularity begins to play in, the attitudes of 
teachers, the access to facilities. So, what we always 
encourage girls to do is just kind of be able to go 
underground, and be able to make sure that they follow their 
interests, and are comfortable with being a little bit odd. And 
I think that is where the sports can really come in, too, that 
they can be proud of this.
    I think you also get another big break when the girls are 
in high school, and are deciding, as you point out, on what 
kind of curriculum they are going to take. A lot of under-
represented minorities, a lot of the students at that point opt 
out of higher level math. That is very hard to make up at the 
university level.
    Going into the university, you get a lot of students 
starting out in STEM fields, and they will start to make the 
decision not to. I was speaking with a colleague today, who was 
saying that she opted out of engineering because she wanted to 
study Russia, and the curriculum didn't accommodate that. That 
is changing, but it needs to change more, because of course, 
the engineers we need today need to have a broader liberal arts 
type education.
    Ms. Woolsey. Right. Dr. Hanson.
    Dr. Hanson. I agree. In middle school, girls start moving 
towards getting status from romantic relationships during that 
time, even very talented ones. The status comes more from that 
than from academics.
    But I might also say that as early as second grade, these 
``draw scientists'' tests show that even if they are talented 
in science and math, they are drawing pictures of male 
scientists.
    And just to one of your other points about the science 
labor force. I think there is a lot of proof now that we need a 
diverse science labor force for better ideas, better 
inventions, and better science. And I am so glad that there are 
people that have shown that we do better science with more 
diversity in science, because we need this to be competitive.
    Ms. Woolsey. Thank you very much, Mr. Chairman, for having 
me here.
    Dr. Kropf. Can I just speak to the question about the----
    Chairman Lipinski. Go ahead, Dr. Kropf.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Dr. Kropf. I just wanted to say that the National Council 
for Women in IT recently published a report that they conducted 
with the Girl Scouts, which showed that women are more likely 
than men to say they entered careers in STEM because of 
encouragement from a teacher, a family member, or a friend. And 
we also, at Girls Inc., find parents extremely important. In 
our recent publication, ``Thinking Smart,'' we have a whole 
section called ``Smart at Home,'' which we have actually 
translated into Spanish for our Latino families, that has 
resources and suggestions about things you can do at home to 
encourage your children.
    Ms. Woolsey. Well, thank you very much. Mr. Chairman, could 
I just say, I mentioned Patsy Mink, our colleague that did so 
much for us, and was the mother of Title IX. Sports is so 
important, because young women learn to work as a team. They 
learn to be the captain. They learn, also, to do their 
individual best. So, we have gotten started with athletics. We 
must not let that stop. And now, we need to have education at 
exactly that level or greater.
    So, thank you again.
    Chairman Lipinski. Thank you, and I will, the Chair will 
now recognize himself for five minutes.
    As I was listening to all this, I certainly had similar 
experiences. Going through my time in college as an engineer I 
certainly think that there are a lot of things that could have 
been better for everybody.
    There are broader issues for everyone in the STEM fields. 
Certainly, I don't think that there was enough, in my 
education, in terms of really relating what we were doing in 
the classroom to the real world. There was not enough 
connection between the classroom and the real world, and with 
professionals who were out there. So, I certainly understand 
those, and I think, then, that there is probably a special 
place for women to be involved, and I thank those who are 
involved in, for example Ms. Thomas, for being involved in 
really encouraging and help mentoring, especially women, in 
these areas.
    Some of the things we talked about, especially Dr. Kropf 
and Ms. Bogue, they had talked about informal science 
education, and the importance of family. That is a good 
advertisement here for a hearing we are having in the 
Subcommittee next week, on a systems approach to STEM ed which 
includes some of those areas. Because I think informal science 
education is very important, and also, all of the factors that 
have an impact on who is going to go into the STEM fields, who 
is going to not just go into STEM fields, but getting a STEM 
education, which is not just for those who are going to make 
that their career. So stay tuned next week for that, for our 
next hearing on that. I think this plays very well into that.
    One question I wanted to ask is, why are there some fields, 
like physics and computer science, that representation of women 
is so low, whereas other fields, like 62 percent of biology 
degrees go to women? I mean, that was the one area I did not 
want to be involved in whatsoever when I was in school. I 
remember having to dissect the fetal pig in high school, and 
that completely turned me off of biology.
    I am amazed that 45 percent of math degrees go to women, 
because that certainly was not what I had seen when I was in 
school. It seems in some of these fields, that we sort of point 
to in STEM, there is much greater female participation, while 
others, there is less. What is causing that? What do we know 
about it? Who wants to start out? Dr. Leshner.
    Dr. Leshner. Maybe I can add a little bit. I think a large 
problem, generally, is the absence of highly visible role 
models. That is, in some fields that have a history of being 
less than fully friendly to women, the absence of very well-
known and very well-respected role models is a problem, and I 
think that we need to do a better job of highlighting those 
successful role models.
    For example, in astronomy, we have people like Vera Rubin, 
who is among the most respected scientists in this country, and 
she has inspired a large number of young women. We just don't 
seem to give recognition to women in some fields as much as we 
do in others. The number of role models in the life sciences 
who are women far exceeds the percentage in most of these other 
fields, so that one feels as if it is a bit of a self-
fulfilling prophecy. And we do know that role models play a 
very important role, as do teachers.
    The fact that a young woman has a female teacher has a far 
greater influence on her willingness to enter STEM fields than 
the gender of a young man's teacher. Did that make sense? Was 
that in English? I meant it to be.
    Chairman Lipinski. I understood what you meant.
    Dr. Leshner. Good. Thank you. And that is true for under-
represented minorities as well.
    Chairman Lipinski. Ms. Bogue.
    Ms. Bogue. Well, I guess my first response is we wish we 
knew, because then we could do more about it. And there is a 
lot of research in this area, and certainly, the role model is 
very important. The critical mass is very important. We were 
tossing around the 18 percent number for women who graduated in 
engineering. If you look at electrical engineering or 
mechanical engineering, we are down to the 11 and 12 percent, 
which means that women can go through undergraduate programs, 
and literally never see another woman in her class, or never, 
importantly, have a woman professor at the head of the class.
    And so, this is an important thing, that they don't find 
about it. But then, I think the more important thing is 
climate. We go back to the climate issue. These are male 
professions. They have been developed by males, and so, there 
is pretty much generally a male environment in those. And 
unless there is some intervention that makes it comfortable for 
people who aren't male, who aren't white male, to come into 
those environments, it is hard for women to penetrate it.
    And we hear this all the time. It is not anecdotal. We see 
it in research, and the way that women respond in their 
decisions, and why they go into particular disciplines.
    And finally, I think it is very important to look at how 
they are recruited into these, what they see when they look at 
it. The recent National Academies report ``Changing the 
Conversation'' touched on this. There is a lot of things that 
are controversial about that report, but it is really important 
to remember that when we talk about mechanical engineering, we 
shouldn't just talk about motors. We should talk about all of 
the other things that mechanical engineering does.
    And then, we note that medical is the one exception to 
where girls are encouraged to go on, to become doctors now and 
nurses and nurse practitioners, that they are encouraged to go 
ahead. And you see, in some of the engineering disciplines that 
have larger proportions of women, chemical engineering, 
bioengineering, environmental engineering, have that kind of 
component. I think we see some beneficial bleed-off from girls 
understanding that they can be interested in these areas.
    Chairman Lipinski. Dr. Hanson.
    Dr. Hanson. Thank you. Cherryl touched on the issue of 
toys. I don't think we can stress toys and games enough. 
Computer science is something that boys have such an advantage 
in, because they do play computer games so much more than young 
girls do. They just feel that they are naturally suited to it.
    So, I think the issues of toys and games and parents is 
also very important. Thank you.
    Chairman Lipinski. Ms. Thomas.
    Ms. Thomas. I think that it is quite interesting, and I 
certainly don't know the psychology of it, but it seems to be 
that if you are interested in the sciences or in math or 
physics, that for some reason, for young women, it is a natural 
track to go into medicine. And certainly, we need good doctors, 
and biomechanical engineering is becoming a field that is huge, 
and a lot of women now feel it is comfortable for them to go 
into that. As I said, I think you have to step outside your 
comfort zone. And I neglected to mention, as well, that when I 
was a young person, toys are important, but I did get many 
medical kits. You know, those were given to me, and I could 
play doctor and operate on my doll, and that was the last time 
I got a doll, when I operated on the doll, and you know, you 
take all the candy little pills, and all that sort of thing, 
and it is okay, and it is fine for you to play with those sorts 
of things.
    So, I think that there has to be somewhat of a 
psychological and an attitude change, and that it's okay if 
girls want to play with Erector Sets, and if they want to go 
into engineering. I took physics, and certainly enjoyed it, but 
it was just one of those core sorts of courses I was taking to 
pursue medical research.
    Chairman Lipinski. Thank you. I have run way over my time 
here. Now, we will go to a second round of questions, and the 
Chair will recognize Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman, and I will try to be 
brief, because I am also supposed to be at the Education and 
Labor Committee meeting. I decided this was more important.
    Just for interest, my assistant LA here, she has, after 
reading your testimony, got this idea and to her colleagues on 
the staff, she asked them to draw pictures, and that they were 
all male except one.
    Staff. Three women scientists. The rest were all male.
    Mr. Ehlers. Three women scientists. The rest were all male. 
So, the problem goes on and on and on.
    Role models, and there has been some discussion on that. It 
is a very tricky business, and I have been fascinated by that 
over the years, even in my own experience with my family. I am 
a scientist, nuclear physicist, and I deliberately did not try 
to encourage any of my children to go on to math and science. I 
did, however, almost require them to take some math and 
science, so they would know what it is, and so they would make 
an intelligent decision about whether or not they wanted it.
    And so, one of my sons is an engineer and just loves it. My 
daughters make heavy use of their technical knowledge, but they 
are not in technical fields. It is just very useful to them, 
and they have advanced because of that. My youngest son, who 
informed me at a very early age, that he was never going to 
study math, and he was never going to be a scientist, and was 
vehement about it, and hated math in high school and so forth, 
and just rebelled all the way through, and today is a professor 
of geophysics. The point is, simply, you never know what is 
going to happen that is going to affect their lives.
    My last question and comment. Dr. Hanson, you mentioned 
that several countries: New Zealand, Iceland, Finland, Albania, 
and Thailand, have made great progress in creating gender 
equity. How did they do this? Was this intentional, or is it 
cultural within their culture, or did they find some magic way 
to do this?
    Dr. Hanson. I think it is some of both. If you look at all 
equity issues on gender in those countries, they tend to be 
ahead, not just women in science. I think part of it is equity 
in the larger education system, with the socialized education 
and medicine. The problem that we were talking about earlier, 
with unequal access to good education, doesn't happen to the 
same extent there.
    The climate of gender is different in those countries. 
Women are a larger number of scientists, larger number of 
professionals. Women don't see being a professional as being in 
conflict with being a mother, a family member. This is a big 
problem for keeping girls out of science. They think they have 
to be married to science, can't be married to anybody else.
    So, as you get into gender climates where people don't 
believe that any more, in some of these countries, they pay 
people to stay home and be with their kids. So you can have 
status and access from being both in these countries.
    So, I think when we make better education, and have more 
equitable gender climates, we will also improve science. 
Although they have been working, in particular on smaller 
classes, more accessibility, better trained teachers. But I 
think it is the larger issue that is as important.
    Thank you.
    Mr. Ehlers. Any other comments on that? Ms. Bogue.
    Ms. Bogue. Yeah, I think, and I appreciate your comments. 
My husband was also a mechanical engineer, and our daughter 
spent a lot of time telling us she would never go into 
engineering, and if she did, she would never go into 
mechanical. Well, she is a mechanical engineer, so they can't 
get past us sometimes.
    But I think that with role models, it is very, very 
important to understand that there are very negative role 
models out there, too. That if you have people in science and 
engineering and mathematics who are demonstrating to people 
that there is no life outside of those fields, or who are 
representing it in that way, then that really is a big 
discouragement factor for students.
    Or, as I mentioned earlier, if you set up your curricula so 
that there isn't room to go and pursue your music, or pursue 
other interests, that is a clear message to students that they 
shouldn't go on to study this, because they would have to give 
up too many other parts of your lives.
    But I think that, going back to the role modeling again, 
that it is extremely important. But they do have to remember 
that there are negative role models and address that. And to 
make these changes, there has to be real intentionality. It has 
to be something like what we see with Girls Inc., where they 
are really working with those kids, and what is remarkable 
about that organization is, it is not just one camp or one 
time, they keep going back to the students, and reinforcing 
what is important and what they can do, what is valuable in 
getting those people out in front of them.
    Mr. Ehlers. Ms. Thomas.
    Ms. Thomas. Role models are extremely important. I spent a 
lot of time in my youth around people who were involved in the 
sciences, and my brother majored in physics, so I knew a lot of 
people when I was very young, who were involved in the 
sciences.
    But if I could take just a second to say one thing. How 
people react to a situation is very important as well. When I 
first went downtown as part of the engineering program, to 
introduce people who were going to work for the city of 
Chicago, and to different disciplines in the Water Department, 
the reason I went was the Chief Filtration Engineer, whom I 
worked for, he had daughters, and he believed that girls should 
not be working shifts, or be in a plant with men and whatever. 
And I was up for a promotion, and the only way to promote me 
was to put me out into the filtration, as a control chemist, 
and he didn't want to do that.
    The person I went downtown to work for, who was the Chief 
Engineer for the entire Department, also only had girls, but he 
thought that girls should have all the advantages that boys 
had, and he was the one that convinced me to go back to school 
for engineering. So, you have two people who have a situation, 
and one looks at it one way, and the other one looks at it 
another way. And I think that is really important, too, is how 
somebody reacts to a situation that they are given.
    Mr. Ehlers. Well, thank you very much. It is enlightening, 
and I really appreciate all of your testimony.
    Speaking of jobs where you really have no life outside of 
the job, try becoming a Member of Congress sometime. With that, 
I yield back.
    Chairman Lipinski. And it is hard to disagree with that 
one. Thank you, Dr. Ehlers, and one thing that came to mind 
that I just wanted to mention. My experience, when I was in 
college, I wasn't in SWE, but my friends who were in SWE seemed 
to really find it very helpful. And I think the importance of 
having support groups, also, I think that is something that is 
critical. Whether you are in college or wherever it is, support 
groups of people who are doing similar things as what you are 
doing, is also something that can be helpful. And I think SWE 
certainly serves that role for a lot of women who are 
engineering majors.
    Well, with that, before I close, I want to thank all the 
witnesses for being here today and for testifying before the 
Committee. Obviously, this is something that is not going to go 
away. There is progress that has been made, obviously, and we 
have talked about that, but certainly, more has to be done. And 
I think that this has to be considered, not just an issue for 
women, but for our country, as we struggle with trying to get 
more people into STEM education and into the STEM fields. It is 
critical for the future of our country. So, I thank you, all of 
you, for the work that you are doing on this.
    So, for the official statement here, the record will remain 
open for additional statements from Members, and for answers to 
any followup questions the Committee may ask the witnesses.
    And with that, the witnesses are excused, and the hearing 
is now adjourned.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

       Statement of the American Association of University Women
    Subcommittee Chairman Lipinski, Ranking Member Ehlers, and Members 
of the Committee, thank you for the opportunity to submit a statement 
for the hearing ``Encouraging the Participation of Female Students in 
STEM Fields.''
    The American Association of University Women is a membership 
organization founded in 1881 with approximately 100,000 members and 
1,300 branches nationwide. AAUW has a proud 127-year history of 
breaking through barriers for women and girls. Today, AAUW continues 
its mission through education, research, and advocacy. AAUW supports 
promoting and strengthening science, technology, engineering, and 
mathematics (STEM) education, especially for girls and other under-
represented populations. These efforts will help increase America's 
competitiveness by reducing gender barriers that deter women from 
pursuing academic and career goals in STEM fields.

Early Barriers and Inconsistent Scoring

    Girls' participation rates in STEM courses have unquestionably 
increased since the passage of Title IX. Before Title IX, many 
opportunities to advance STEM skills were denied to women, inside and 
outside of the classroom, including opportunities to participate in 
higher-level courses and math and science clubs.\1\ However, barriers 
to girls' and women's progress in STEM are still present and begin in 
K-12 education, starting with the messages received in the schools 
themselves. In a 2006 Girls Inc. survey, 44 percent of girls and 38 
percent of boys agreed with the statement, ``the smartest girls in my 
school are not popular,'' and 17 percent of girls and 14 percent of 
boys thought that it was true that ``teachers think it is not important 
for girls to be good at math.'' \2\ A report of the Commission on the 
Advancement of Women and Minorities in Science, Engineering and 
Technology says that there are four points in life at which girls and 
women seem to lose interest in STEM: as they enter middle school, late 
high school, college and graduate school, and in their professional 
lives.\3\ According to a 2005 report by the National Center for Women 
and Information Technology, when high school girls think of computer 
scientists, they think of geeks, pocket protectors, isolated cubicles 
and a lifetime of staring into a screen writing computer code.\4\ These 
pervasive attitudes and messages influence girls' academic paths early, 
and future options in STEM may be curtailed for girls because they have 
insufficient course foundations.
---------------------------------------------------------------------------
    \1\ Roche, Joyce. (June 19, 2007). ``U.S. House Committee on 
Education and Labor Hearing, 110th Congress: Building on the Success of 
35 Years of Title IX.''
    \2\ Girls Inc. (October 2006). The Super Girl Dilemma: Girls Feel 
the Pressure to be Perfect, Accomplished, Thin, and Accommodating. 
Retrieved December 29, 2008, from http://www.girlsinc.org/
supergirldilemma/
    \3\ Congressional Commission on the Advancement of Women and 
Minorities in Science, Engineering and Technology Development. (2000). 
Land of Plenty: Diversity as America's Competitive Edge in Science, 
Engineering and Technology. Retrieved December 29, 2008, from http://
www.nsf.gov/pubs/2000/cawmset0409/cawmset<INF>-</INF>0409.pdf
    \4\ Dean, Cornelia. (April 17, 2006). Computer Science Takes Steps 
to Bring Women to the Fold. The New York Times. Retrieved December 29, 
2008, from http://www.nytimes.com/2007/04/17/science/
17comp.html?<INF>-</INF>r=1&oref=slogin
---------------------------------------------------------------------------
    According to the National Assessment of Educational Progress (NAEP) 
2005 High School Transcript Study, the largest gap between boys' and 
girls' scores on math and science assessments in grades four, eight, 
and twelve was a mere four points, and girls' high school math grades 
were higher than boys'. However, despite the fact that on average girls 
complete more challenging curricula, earn higher GPAs in high school, 
and in 2008 comprised nearly 60 percent of AP test-takers, among AP 
physics test-takers, only 31 percent were girls, and girls made up only 
17 percent of those taking the AP computer science exam.\5\
---------------------------------------------------------------------------
    \5\ Ibid.
---------------------------------------------------------------------------
    Another area of concern is the disparity between girls' grades in 
high school and college and their scores on the SAT exam. The SAT is 
designed to predict the performance of a student in his/her first year 
of college and is regularly used as an admissions factor by colleges. 
Although girls are achieving higher high school grades in math than 
boys, the average SAT math scores for 2008 showed that boys were 33 
points ahead of girls, and this trend is consistent as far back as 
1972.\6\<SUP>,</SUP>\7\ Likewise, the Massachusetts Institute of 
Technology found that a woman with the same SAT score as a man was 
likely to get better grades. After adjusting its admissions process to 
compensate for the SAT's ``under-prediction,'' MIT has found that its 
women students earn higher GPAs in more than half of majors even though 
their average SAT-math score is 20-25 points lower than that of their 
male peers.\8\
---------------------------------------------------------------------------
    \6\ Corbett, Christianne, Catherine Hill & Andresse St. Rose. 
(2008). Where the Girls Are: The Facts About Gender Equity in 
Education. American Association of University Women. Washington, D.C.
    \7\ College Board. (2008). 2008 College-Bound Seniors: Total Group 
Profile Report. Retrieved June 29, 2009, from http://
professionals.collegeboard.com/profdownload/
Total<INF>-</INF>Group<INF>-</INF> Report.pdf
    \8\ Sullivan, Morgen. Sex Bias and the Scholastic Aptitude Test. 
Retrieved December 29, 2008, from http://www.dartmouth.edu/?chance/
course/student<INF>-</INF>projects/morgen/node1.html

Slow Progress in College

    Women now make up a majority of college students. In 2006-2007, 57 
percent of undergraduate degree recipients were women, up from 42 
percent in 1970.\9\ Despite this incredible growth, women earned only 
23 percent of all Bachelor's degrees granted in engineering and 
engineering technologies in 2006, and a decreasing share of Bachelor's 
degrees in mathematics and computer science.\10\ According to the 
National Science Foundation, the number of mathematics and computer 
science degrees earned by women peaked in 1985 at 39.5 percent of total 
mathematics and computer science degrees granted.\11\ By 2006, this 
number had decreased to only 26.8 percent of mathematics and computer 
science degrees granted.\12\ Between 2000 and 2008, there was a 79 
percent decline in the number of incoming undergraduate women 
interested in majoring in computer science.\13\
---------------------------------------------------------------------------
    \9\ U.S. Department of Education, National Center for Education 
Statistics. (2009). The Condition of Education 2009 (NCES 2009-081). 
Retrieved June 29, 2009, from http://nces.ed.gov/pubs2009/2009081.pdf
    \10\ National Science Foundation, Division of Science Resources 
Statistics. (2009). Women, Minorities, and Persons with Disabilities in 
Science and Engineering: 2009, NSF 09-305. Retrieved July 17, 2009, 
from http://www.nsf.gov/statistics/wmpd/pdf/nsf09305.pdf
    \11\ National Science Foundation, Division of Science Resources 
Statistics. (October 2008). Science and Engineering Degrees: 1966-2006. 
(NSF 08-321). Retrieved June 29, 2009, from http://www.nsf.gov/
statistics/nsf08321/pdf/nsf08321.pdf
    \12\ Ibid.
    \13\ National Center for Women & Information Technology. (2009). By 
the Numbers. Retrieved June 29, 2009, from http://www.ncwit.org/pdf/
BytheNumbers09.pdf
---------------------------------------------------------------------------
    The need for STEM legislation is greatest for female minorities. In 
2008, 27 percent of computer scientists were female, while only three 
percent were female and African-American and one percent was female and 
Hispanic.\14\ With globalization and increased global competitiveness, 
it is more important than ever that the United States put in place 
policies that encourage study in STEM fields. Of the college-age 
population earning science and engineering degrees, the United States 
currently ranks 17th, down from third place several decades ago.\15\
---------------------------------------------------------------------------
    \14\ National Center for Women & Information Technology. (2009). By 
the Numbers. Retrieved June 29, 2009, from http://www.ncwit.org/pdf/
BytheNumbers09.pdf
    \15\ Society of Women Engineers. (February 2006). General Position 
Statement on Science, Technology, Engineering, and Mathematics (STEM) 
Education and the Need for a U.S. Technologically-Literate Workforce. 
Retrieved June 29, 2009, from http://societyofwomen engineers.swe.org/
images/stories/SWE<INF>-</INF>STEM<INF>-</INF>Education--Statement.pdf
---------------------------------------------------------------------------
    One way to improve this situation is to address challenges that 
cause undergraduate women to transfer out of STEM fields before 
graduating. Unsupportive classroom environments and outdated pedagogy 
inhibit women's participation in STEM, as do a lack of female role 
models and a limited peer group.\16\ After college, women scientists 
and engineers earn less and advance more slowly than men in both 
academia and the private sector. This can, in turn, deter all but the 
most persistent women from choosing and staying on these paths. For 
example, research by the Society of Women Engineers recently found that 
25 percent of women who had earned college degrees in engineering were 
not working in engineering or a related field compared to 10 percent of 
men.\17\
---------------------------------------------------------------------------
    \16\ Fancsali, Cheri. What We Know About Girls, STEM and 
Afterschool Programs. Retrieved December 29, 2008, from http://
gsg.afterschool.org/images/public/Resources/
We<INF>-</INF>Know<INF>-</INF> About.pdf
    \17\ Society of Women Engineers. (April 26, 2006). Attitudes and 
Experiences of Engineering Alumni. Harris Interactive Market Research.

Improving Girls' and Women's Opportunities in STEM

    In order to improve upon recent gains in STEM education and provide 
much-needed opportunities to girls and women, programs must be 
developed that encourage girls and women to pursue STEM studies and 
careers. AAUW supports the following efforts to improve girls' 
achievement in math and science and increase the number of women who 
choose careers in STEM fields.

Improve Teacher Training: AAUW supports efforts that train teachers to 
encourage girls and other under-represented groups to pursue math and 
science careers. Teachers need to be trained on how to be sensitive to 
gender differences when teaching all subjects, especially math and 
science. Teacher training would include ways to engage students in the 
face of gender-based peer pressure and parental expectations. This is 
particularly important because while studies show that all students 
start to lose interest in science and math by junior high, the loss is 
particularly steep for girls at puberty and likely results from gender-
based social expectations and peer pressure.\18\
---------------------------------------------------------------------------
    \18\ Congressional Commission on the Advancement of Women and 
Minorities in Science, Engineering and Technology Development. (2000). 
Land of Plenty Diversity as America's Competitive Edge in Science, 
Engineering and Technology. Retrieved on December 29, 2008, from http:/
/www.nsf.gov/pubs/2000/cawmset0409/cawmset<INF>-</INF>0409.pdf

Encourage the Inclusion of STEM Subjects and Activities in Co-
curricular Programs: Incorporating STEM subjects and activities in 
after-school and summer programs enables students to explore the field 
in a supportive atmosphere and enhances student interest in STEM 
careers. Research suggests that information about the usefulness of 
engineering to everyday human concerns and hands-on experiences with 
science, math, and technology may help girls develop an interest in 
these fields.\19\
---------------------------------------------------------------------------
    \19\ Jozefowicz, D.M., B.L. Barber, et al. (1993). Adolescent Work-
Related Values and Beliefs: Gender Differences and Relation to 
Occupational Aspirations. Biennial Meeting of the Society for Research 
on Child Development. New Orleans, LA: 1-22. And Fancsali, Cheri. What 
We Know About Girls, STEM and Afterschool Programs. Retrieved December 
29, 2008, from http://gsg.afterschool.org/images/public/Resources/
We<INF>-</INF>Know<INF>-</INF>About.pdf

Emphasize Math and Science in Early Education, Not Just High School: 
Studies show that students begin to lose interest in STEM subjects by 
junior high school; this is particularly true for girls.\20\ Teaching 
children about math and science in elementary and middle school is 
critical to not only improving subject matter competency but also 
sparking and maintaining girls' interest in the field. AAUW supports 
voluntary content standards that cover mathematics and science for 
kindergarten through grade 12 and reflect the knowledge students need 
to enter college or the workforce and compete in the global economy. 
The America COMPETES Act directs the National Academy of Sciences to 
convene an expert panel to identify promising practices and critical 
skills in STEM teaching and learning; their work may be helpful in 
developing these standards.
---------------------------------------------------------------------------
    \20\ Congressional Commission on the Advancement of Women and 
Minorities in Science, Engineering and Technology Development. (2000). 
Land of Plenty Diversity as America's Competitive Edge in Science, 
Engineering and Technology. Retrieved on December 29, 2008, from http:/
/www.nsf.gov/pubs/2000/cawmset0409/cawmset<INF>-</INF>0409.pdf

Measure Student Achievement in Science: AAUW supports measuring student 
achievement in science. This will provide schools with necessary 
information on how well students are progressing and the improvements 
that still need to be made. The data gathered from such testing 
programs should always be disaggregated by sex, race and socioeconomic 
status and cross-tabulated. While testing is an important measure of 
success, high stakes testing should not be the sole indicator of 
student competency or a school's progress. Additional flexibility in 
Adequate Yearly Progress (AYP) measures required by the No Child Left 
---------------------------------------------------------------------------
Behind Act should be explored.

Ask For a Report Responding to ``Rising Above the Gathering Storm'': 
The report, commissioned by Congress from the National Academies on 
Science, Engineering and Medicine and published in 2007, states that 
the United States' advantages in science and technology are eroding and 
discusses the need to improve math and science education. 
Unfortunately, the report largely ignores the issue of women and under-
represented minorities in STEM fields. AAUW recommends that Congress 
request a more specific follow-up study on methods to increase the 
number of women in STEM fields and the effect this would have on U.S. 
leadership in the global marketplace.

Use Title IX to Improve the Climate for Women in STEM Fields: AAUW 
recommends requiring agencies to broadly and proactively conduct Title 
IX compliance reviews. Title IX of the Education Amendments of 1972 is 
the federal statute prohibiting sex discrimination in education 
programs and activities that receive federal financial assistance. The 
law states, ``No person in the United States shall, on the basis of 
sex, be excluded from participation in, be denied the benefits of, or 
be subjected to discrimination under any educational program or 
activity receiving federal financial assistance.'' \21\ To ensure 
compliance with the law, Title IX regulations require recipients of 
federal education funding to evaluate their current policies and 
practices, and adopt and publish grievance procedures and a policy 
against sex discrimination. Title IX does not require quotas or 
proportionality. Simply put, Title IX reviews ensure that women are not 
being discriminated against.
---------------------------------------------------------------------------
    \21\ Title IX of the Education Amendments of 1972, 20 U.S.C.  
1681-1688 (1972). Retrieved January 6, 2009, from http://www.usdoj.gov/
crt/cor/coord/titleixstat.htm
---------------------------------------------------------------------------
    Federal agencies and departments such as NASA, Department of 
Energy, and Department of Defense should conduct Title IX compliance 
reviews at grantee institutions regularly. All agencies are required by 
law to ensure they are not violating Title IX, however very few Title 
IX reviews are conducted outside of the Department of Education. 
However, the Department of Energy and NASA have both conducted Title IX 
reviews at grantee institutions. These Title IX reviews could serve as 
a model in terms of what factors to consider, how to conduct reviews, 
and how to improve reviews, when conducting future reviews. The 
Administration should make it a government-wide priority that agencies 
use their contracting and grant making authority to ensure that 
universities that receive agency funding are complying with Title IX. 
In addition, AAUW strongly supports the idea that colleges form an 
NCAA-like inter-institutional monitoring organization that shares data, 
evaluates progress, and uses Title IX and other civil rights laws to 
eliminate gender bias in STEM fields.

STEM Programs and Activities

    AAUW branches run many programs that increase girls' interest and 
participation in STEM. One example is AAUW California's Tech Trek 
Science Camp, which is a one-week residential summer scholarship camp 
for rising eighth graders. Founded in 1998, the camp was designed to 
encourage young women to continue studying science and math in middle 
school. So far, over 5,600 girls have participated in the program. 
Activities at Tech Trek include hands-on projects such as designing and 
building roller coasters, hot air balloons or rockets, and core classes 
including astronomy, crime scene investigation, marine biology, 
mathematics, microbiology, physics, and robotics. The history and 
achievements of women in math and science is emphasized through 
courses, skits, guest speakers, and the excellent example of the 
volunteers and staff of the Tech Trek camp itself.
    The camp takes place on college campuses, projects are led by 
experienced STEM professors and professionals, and AAUW members 
organize and run the camp. Several years ago, AAUW began surveying 
participants. They indicated much higher levels of science and math 
course taking in high school, as well as increased participation in AP 
science and math sources. They exceed national norms for college 
attendance, with 96 percent enrolled in college. Fifty-three percent 
indicated that they were majoring in science and math-oriented fields, 
a greater percentage than the national average. All participants 
credited Tech Trek for encouraging their interest in science and math-
related careers.\22\
---------------------------------------------------------------------------
    \22\ Wolbach, Marie. (Fall/Winter 2007). Strength in Numbers: 
Sustaining Girls' Interest in Math and Science. AAUW Outlook.
---------------------------------------------------------------------------
    Another STEM program AAUW members run is Tech Savvy in Buffalo, NY. 
This day-long program for girls in sixth to ninth grade targets 
minority and lower-income girls and includes workshops on different 
STEM careers and keynote speakers to inspire girls to consider careers 
in STEM. The program also includes sessions for parents and teachers 
since their feeling towards these careers often influences girls' 
decisions to pursue STEM careers. In four years, the program has grown 
from approximately 275 students and adults to almost 700 students and 
adults. Assessments of the program indicate that students expanded 
their view of the career possibilities not previously imagined as well 
as the immediate application of concepts from the books and materials 
provided in the conference.
    AAUW is also a key partner in the National Girls Collaborative 
Project (NGCP), which receives funding from the National Science 
Foundation. NGCP strengthens the capacity, impact, and sustainability 
of existing girl-serving STEM programs. The goal of the project is to 
facilitate collaboration among organizations, institutions, and 
businesses committed to expanding participation of women in STEM. 
Regional collaborative teams across the U.S. bring together 
organizations to compare needs and resources, share information, and 
strategically plan to expand STEM-related opportunities for girls and 
women. To date, 14 regional collaboratives have been established to 
bring together local organizations committed to informing and 
encouraging girls to pursue STEM careers. These regional teams have 
appeared on public TV, offered professional development for teachers, 
and held forums demonstrating best practices to encourage girls to 
enter STEM fields.
    The NGCP, web site www.ngcproject.org, offers a wealth of resources 
to serve a growing nationwide community that supports girl-serving STEM 
programs. Approximately 1,350 programs across the U.S., representing 
more than three million girls, are now listed in the NGCP's Program 
Directory. The site also hosts information about the more than 84 
competitive mini-grants awarded by regional collaboratives for projects 
such as AAUW North Carolina's pilot program to provide IT training for 
girls. The web site also provides free access to NGCP-produced 
webcasts, statistics about STEM education, and proven strategies, 
curricula, and assessment tools that build the capacity of 
organizations to provide high-quality learning environments for girls 
in STEM. Many NGCP projects use the Assessing Women and Men in 
Engineering (AWE) assessments to evaluate their programs.

Research on Girls and STEM

    While a large body of research exists on the involvement of girls 
and women in STEM fields, most of this research remains inaccessible to 
many audiences. In early 2010, AAUW will be releasing a report targeted 
towards a general audience that will highlight key findings from recent 
academic research on girls and women in STEM. Focusing on top findings, 
rather than comprehensive overview, the report will focus on topics 
such as gender differences in interest in STEM fields, gender 
differences in cognitive abilities, how stereotypes influence girls, 
and how mentoring can make a difference. Case studies and personal 
stories will be used to illustrate common themes across STEM 
disciplines and across stages of educational and work-life progression. 
Throughout, reasons behind the persistent gender inequity in STEM will 
be explored.
    While the report is still in draft form, early findings show that 
most differences between boys and girls in terms of math achievement in 
elementary and high school have disappeared. However, there is a big 
drop-off in women's participation in science and math at the transition 
from high school to college. High school girls are as likely as boys to 
take advanced math and science classes but are much less likely than 
boys to intend to major in a STEM field once they go to college. 
College and work environments in certain STEM fields continue to be 
unwelcoming to women. Mentoring can help women persist in STEM fields 
in both college and the workplace. AAUW looks forward to sharing the 
report with the committee once it is completed.

Conclusion

    Girls and women continue to face barriers to entering and 
persisting in STEM fields. At the same time, the supply of new STEM 
workers is not keeping up with the demand, and women remain severely 
under-represented.\23\ Women make up half of the population and are a 
largely untapped resource that could prove essential in maintaining the 
global competitiveness of the United States. With better enforcement of 
Title IX and increased investment, the United States can begin to close 
the gender divide in STEM fields. Thank you for the opportunity to 
submit written testimony.
---------------------------------------------------------------------------
    \23\ Society of Women Engineers. (February 2006). General Position 
Statement on Science, Technology, Engineering, and Mathematics (STEM) 
Education and the Need for a U.S. Technologically-Literate Workforce. 
Retrieved December 29, 2008, from http://
societyofwomenengineers.swe.org/images/stories/
SWE<INF>-</INF>STEM<INF>-</INF>Education<INF>-</INF>Statement.pdf
---------------------------------------------------------------------------
           Statement of the Council on Undergraduate Research
    Today, the Nation faces challenges in its efforts to produce a 
highly skilled workforce in the science, technology, engineering and 
mathematics (STEM) disciplines. There are several undeniable 
imperatives, among them: the need for more young people to fulfill 
their potential, for more students to study and pursue careers in STEM 
and for more research-based solutions to the serious scientific, 
economic and social problems facing the Nation.
    Undergraduate research is a proven and powerful way to achieve 
these goals. Undergraduate research is an inquiry or investigation 
conducted by an undergraduate student that makes an original 
intellectual or creative contribution to the discipline. High-quality 
research and scholarship activities enhance educational outcomes, and 
encourage young men and women to pursue STEM-related disciplines and 
contribute to the body of knowledge needed to tackle serious problems.
    Another equally important imperative is increasing opportunities 
for students who have not traditionally been involved in research. The 
Nation will not be fully prepared to solve our most difficult 
challenges unless we unleash the full potential of all of our best and 
brightest students. And that means addressing increased interest and 
persistence in STEM fields among females.
    There are strategies at community colleges, minority-serving 
institutions, four-year colleges, comprehensive universities, and 
research universities that successfully expanded opportunities for 
undergraduate research, especially for students who are not 
traditionally involved in undergraduate research, including young 
women. Common to most of these successful programs are practical 
strategies for building sustainable programs; engagement of a broad 
range of participants, partners, and stakeholders; integration of 
programs into the fabric of the institution; advocacy for change and 
expanding participation; and alignment of departmental and 
institutional goals.
    Today, the country's K-12 schools are largely consumed with the 
requirements of the No Child Left Behind Act. While the law is one with 
many programs and intentions, its requirements, in the simplest terms, 
focus on achievement in reading and math. Science teachers lament the 
resulting lack of flexibility in the curriculum and the absent 
opportunity to include more science, social studies, arts, and 
creativity in the offerings. Some argue that the law's goal is to make 
sure all students meet minimum expectations, resulting in insufficient 
investments of time and effort in challenging young people to reach 
their greatest potential. While the law is due for changes via the 
reauthorization process, the continued focus on math and reading as the 
basis for any common standards initiative and the sentiment that 
science is ``next'' is troubling. Science has been ``next'' in terms of 
being included in accountability and assessment rubrics for close to a 
decade, and any changes to federal law or state adoption of common 
standards puts real change off for at least another five years. This 
affects all students, but if young ladies are not exposed to focused 
instruction in science at the earliest grades, it seems unlikely they 
will pursue it past secondary school.
    Many have investigated the factors affecting girls' interest and 
participation in STEM learning at the K-12 level. At the grade school 
level, the teachers are creative, energetic, and overwhelmingly female. 
They also are often intimidated by math and often science. In their 
college careers, the majority of prospective elementary school teachers 
takes only the math and science that is required for graduation and 
thus, have little background in these areas to bring to their 
classrooms.
    The country needs science majors who choose to teach at the K-12 
level and science teachers with real content knowledge. The National 
Science Foundation's (NSF) Noyce Fellowship Program addresses this very 
need. In addition, the NSF Course, Curriculum and Laboratory 
Improvement (CCLI) program invests in delivering strong science content 
to teachers to be sure they are comfortable learning and teaching the 
subject. Further, prospective teachers involved in undergraduate 
research learn the processes of science and impart that to their 
student when in the classroom. Further, the experience with research 
creates a familiarity with data to inform practice, as is encouraged in 
teaching today via the No Child Left Behind Act.
    Interest in science is something that has to be nurtured early for 
both females and males and if K-12 teachers are not strongly versed in 
science, this nurturing will not be as strong as it could or should be. 
Further, by the time girls get to middle school, there are a number of 
complex social issues and puberty that detract their interests. At this 
age it is simply ``not cool'' to be smart and if one excels in math and 
science, they are immediately labeled as ``geeky.'' This negative peer 
pressure is an extremely important issue in terms of attracting girls 
to STEM fields, but not one easily addressed.
    At the post-secondary level, of those females who pursue science, 
it seems they gravitate to the life sciences (biology, biochemistry, 
neuroscience, and environmental science) to an extent that is even more 
skewed than the overall student body proportion of women. In chemistry 
and math, the numbers are more balanced, but a female physics major is 
a rarity. Many researchers have investigated this phenomenon, and point 
to the absence of nurturing environments in academia, or competition 
among fellow students that leaves young ladies searching for a more 
collaborative learning environment. Further, some argue the 
applications of science (physics, engineering, math, chemistry) to 
solving societal problems, such as clean water, environmental sciences, 
conservation efforts, of societal poverty, might appeal to female 
students more than what are considered typical applications. Young 
women need to learn about these applications, and need to see women in 
faculty positions at post-secondary institutions of all kinds--
community colleges, predominantly undergraduate institutions, research 
universities--if more of them are to be successful in these areas.
    The ADVANCE program of the National Science Foundation is an 
outstanding example of a vital program that seeks to develop systemic 
approaches to increase the representation and advancement of women in 
academic STEM careers. It is essential that this program serve all 
types of institutions, not just research-intensive universities. 
Academic women face gender inequities and challenges at all career 
stages and at all types of institutions, including primarily 
undergraduate institutions, community colleges, minority-serving 
institutions, women's colleges, and institutions primarily serving 
persons with disabilities. Continuing and expanding the federal support 
for this critical NSF program is essential to enhance the academic 
culture and institutional structure to support female science and 
engineering professors who serve as key mentors and role models for 
female students.
    One particular example of an ADVANCE project that aims to enhance 
the advancement of academic women in science and engineering careers is 
the NSF-ADVANCE-PAID project HRD-0619150 ``Collaborative Research for 
Horizontal Mentoring Alliances.'' This project involves women full 
professors in chemistry and physics at 20 distinct liberal-arts 
colleges. Through the formation of five-member alliances, these senior 
women faculty members have tested a ``horizontal mentoring strategy'' 
to promote the leadership and visibility of women scientists and 
engineers on their campuses. The presence of successful and visible 
women faculty members, particularly at the full professor level, can 
signal a campus-friendly environment for both female students and 
faculty. Evidence of the importance of women in academic leadership can 
be a powerful means of facilitating both the recruitment and retention 
of women students and faculty and enable them to flourish in science 
and engineering careers.
    A recent tool unveiled by the Business Higher Education Forum 
suggests that it is the first year of post-secondary study that is the 
point of highest leverage in the STEM pipeline. Undergraduate research 
opportunities play a key role in allowing young ladies to ``try on'' 
being a scientist. This introduces them to scientific research, but 
also socializes the students into what a scientist does. The NSF 
Research Experiences for Undergraduates program is a key program that 
funds these opportunities.
    In 2006 the Committee on Women in Science and Engineering of the 
National Academies published the report To Recruit and Advance: Women 
Students and Faculty in Science and Engineering. The aim of this 
publication was to provide a guide to the strategies that have proved 
successful in recruiting and retaining women undergraduate, graduate, 
and postdoctoral students in science and engineering and recruiting and 
advancing women faculty in these fields. The final chapter provides an 
extensive list of effective strategies for recruiting, retaining, and 
advancing women at each educational and career stage. Two potential 
obstacles that are cited as deterring female undergraduates, graduates, 
and post-doctoral candidates from remaining in science and engineering 
are lack of role models and curricula perceived as less interesting or 
less relevant. Three of the important means of retaining women students 
in science are establishing mentoring programs, increasing engagement 
of students, and increasing professional socialization. Participation 
in undergraduate research is specifically discussed as a means of 
addressing these three objectives.
    Indeed, these specific student benefits are noted in the chapter 
``The Benefits of Undergraduate Research, Scholarship, and Creative 
Activity'' by J.M. Osborn and K.K. Karukstis in Broadening 
Participation in Undergraduate Research: Fostering Excellence and 
Enhancing the Impact (M.K. Boyd and J.L. Wesemann, eds., Council on 
Undergraduate Research, Washington, D. C., 2009, Chapter 4). ``Indeed, 
for all students, interactions with faculty members significantly 
affect an individual student's cognitive and behavioral development and 
directly impact student satisfaction and learning (Astin, 1993). Recent 
results of the National Survey of Student Engagement (Lipka, 2007) 
corroborate that participation in undergraduate research with a faculty 
mentor is a ``high impact'' learning experience. Additional studies 
verify that the collegial and collaborative partnership of 
undergraduate students and faculty members contributes significantly to 
the personal and professional gains reported by students as a result of 
their research experience (Seymour, 2004; Hunter, 2006).'' The benefits 
with regards to professional growth and advancement are also commonly 
acknowledged by students pursuing undergraduate research. Some of the 
key benefits of undergraduate research related specifically to career 
development include stronger relationships with mentors and other 
professionals, deeper integration into the culture and profession of 
the discipline, and enhanced ability to identify and make informed 
decisions about appropriate career interests. Undergraduate research 
also promotes many elements of personal growth, including increased 
confidence and an enhanced development of personal initiative. All of 
these factors can contribute to retaining women in the STEM 
disciplines.
    As Congress works to address the country's education and workforce 
needs, which must include maximizing the potential of every young man 
and woman who does or could have a career in the STEM disciplines ahead 
of them, the Council On Undergraduate Research will continue to work to 
expand opportunities to expose young people to undergraduate research 
that will inform and encourage their academic and professional 
pursuits. There are a number of federal investments that support the 
endeavor of undergraduate research, and CUR and its members will work 
to sustain and grow these investments and educate educators, 
researchers, scientists, undergraduates, business and others on its 
importance.
    About CUR: The Council on Undergraduate Research (www.cur.org) 
supports faculty development for high-quality undergraduate student-
faculty collaborative research and scholarship. Nearly 600 institutions 
and over 3,000 individuals belong to CUR. CUR believes that the best 
way to capture student interest and create enthusiasm for a discipline 
is through research in close collaboration with faculty members.
                Statement of the Girl Scouts of the USA
    Despite improvements in educational equity, girls and women 
continue to lag behind men in terms of mathematic and scientific 
achievement and advancement toward and attainment of careers in 
Science, Technology, Engineering and Math (STEM). Girls begin to lose 
interest in STEM early in their education; the percentage of girls who 
say they would not study math anymore given the choice increases in 
4th, 8th, and 12th grade from nine percent to 15 percent to 50 percent 
respectively.\1\ While girls consistently match or surpass boys' 
achievements in science and math in scholastic aptitude tests, 
achievement tests, and classroom grades, high school girls are less 
likely than boys to take AP physics or computer science exams.\2\
---------------------------------------------------------------------------
    \1\ Educational Equity of Girls and Women, National Center for 
Education Statistics, 2000.
    \2\ The College Board, Advanced Placement Report to the Nation: 
2006 (February 2006).
---------------------------------------------------------------------------
    This weak academic pipeline, along with other factors in and out of 
the classroom, is causing fewer women to pursue careers in STEM fields. 
According to the National Science Foundation, women represent 46 
percent of the total workforce in America, but only 25 percent of the 
workforce in the fields of science and engineering.\3\ This gender gap 
holds serious consequences--and opportunities--for the future of our 
country and its girls. Eighty-nine percent of Fortune 1000 STEM 
executives agree that bringing more women and minorities into STEM 
fields will help solve U.S. workforce shortages.\4\
---------------------------------------------------------------------------
    \3\ National Science Foundation, Division of Science Resources 
Statistics, Women, Minorities, and Persons with Disabilities in Science 
and Engineering: 2004, NSF 04-317 (updated May 2004). Available at 
http://www.nsf.gov/statistics/wmpd
    \4\ Bayer Facts of Science Education Survey XIII: Fortune 1000 STEM 
Executives on STEM Education, STEM Diversity and U.S. Competitiveness. 
Bayer Corporation (September 2008). http://www.bayerus.com/MSMS/Survey/
survey<INF>-</INF>13.aspx

GIRL SCOUTS STEM PROGRAMMING

    In 1912, Juliette Gordon Low founded the first Girl Scout troop in 
Savannah, GA. In 1913, the first badges in Science, Technology, 
Engineering and Math (STEM) fields--the electrician badge and the flyer 
badge--were introduced. Today, with 2.7 million girl members and 
900,000 adult members in every corner of the United States, Puerto 
Rico, the Virgin Islands and ninety-five countries worldwide, Girl 
Scouts continues to lead the way in ensuring that girls enjoy a 
comprehensive, relevant and robust STEM education. Girl Scouts is 
committed to girls' exploration and pursuit of education and careers in 
STEM in order to increase the number of girls pursuing careers in STEM-
related fields.
    Through more than 70 badges and patches in STEM-related activities 
for Girl Scouts ages 5-17, girls are encouraged to explore the many 
ways in which STEM fields relate to their lives. Our research-based 
programs help girls develop an interest in STEM fields in a safe, fun, 
girl-centered environment, and emphasize partnerships, public education 
campaigns, mentorship programs, career exploration, traditional badges, 
and innovative new programming.
    By creating innovative, diverse and supportive learning 
environments, Girl Scouts takes a multi-faceted approach to increasing 
girls' interest in STEM. A few examples include:

        <bullet>  Fair Play: Design & Discovery: A proven, successful 
        initiative run in partnership with the U.S. Department of 
        Education and the Intel Corporation that teaches girls about 
        STEM fields through extracurricular experiences. Program 
        features include day and resident camp, after-school and 
        university-based programs, and mentorship programs with women 
        who are currently experts in physics, math, design, technology 
        and computer engineering.

        <bullet>  NASA Partnership: Allows Girl Scouts to access NASA's 
        cutting-edge technology and one-of-a-kind internships. Girl 
        Scouts are able to attend solar science trainings and are given 
        the opportunity to meet NASA scientists. This program also 
        highlights the importance of role models for girls, whether 
        they are astronauts, engineers, teachers, or local businesses 
        that rely on STEM professionals.

        <bullet>  Robotics: Girls learn technology, engineering and 
        computer programming skills through engagement with robotics 
        programs offered through a national partnership with FIRST (For 
        Inspiration and Recognition of Science and Technology). To 
        date, in partnership with the Motorola Foundation, we have 
        supported the startup of nearly 100 all girl First Lego League 
        teams--and we will collectively support another 100 teams for 
        the 2009-2010 season.

        <bullet>  Public Awareness Campaigns: Research indicates that 
        girls exhibit early interest and ability in STEM subjects, but 
        that adults actually tend to discourage girls from persevering. 
        Girl Scouts partnered with the Ad Council in 2003 to produce an 
        award winning, three-year public awareness campaign which aimed 
        to change the cultural cues girls typically receive about STEM. 
        By targeting girls, educators and parents and caregivers, this 
        television, radio, online and print media campaign challenged 
        influencers to ``keep her interest alive.''

WHAT WE'VE LEARNED: RESEARCH AND FUTURE PROGRAMS

    In 2008, Girl Scouts of the USA partnered with the Puget Sound 
Center for Teaching, Learning, and Technology to identify promising 
practices in STEM education for girls. This study reaffirmed many of 
the findings from Girl Scout's century of experience in delivering STEM 
programming, and firmly established that the most effective STEM 
programming for girls includes:

        <bullet>  Hands on experiences

        <bullet>  Making curriculum relevant, tying it to real-life 
        issues

        <bullet>  Project based learning opportunities

        <bullet>  Opportunities to work with STEM-field mentors

        <bullet>  Experienced program leadership.

    With this research in hand, Girl Scouts developed an exciting new 
leadership journey called It's Your Planet--Love It. This innovative 
program uses girls' passion for the environment as a way to bolster 
their interest in STEM fields, and focuses on career exploration, 
hands-on activities, mentoring, and project-based learning in a girl-
centric, supportive environment. The journey presents STEM subjects as 
fun, engaging, intimately tied to helping people and communities, and a 
natural part of daily life.
    These materials were developed in partnership with experts in 
engineering, sustainable, agriculture, conservation, energy efficiency, 
and green building practices, and reviewed by science education 
professionals, engineers, staff at the U.S. Green Building Council, 
NASA, Motorola and others.
    This journey--like all Girl Scouts programs--will be thoroughly 
evaluated, outcomes will be measured, and findings will be used to 
ensure that girls are developing the leadership skills they need. As we 
move forward with implementation of this program, our experience will 
no doubt inform and support public education, informal education, 
policy-makers, and other stakeholders on ways we can improve STEM 
education.

POLICY RECOMMENDATIONS

    Based on our research and experience, Girl Scouts offers the 
following policy recommendations to improve both the formal and 
informal STEM education sectors. These recommendations reflect the 
crucial role played by informal education organizations in the 
development and delivery of programs that build the next generation of 
the STEM workforce. We support the expansion of programs that help 
organizations such as Girl Scouts to promote STEM education and career 
exploration, and to partner with and complement formal education, 
including:

        <bullet>  Diverse Learning Environments: Congress should expand 
        efforts to teach STEM fields outside the classroom, in diverse 
        settings. Specifically, expand educational opportunities where 
        girls can explore, investigate, and experiment without fear of 
        being teased or the social stigmas tied to girls who are 
        interested in science. Efforts should be made to increase 
        availability of ``girl-only'' programming to engage girls in 
        STEM activities in safe, supportive, girl-centric environments.

        <bullet>  Hands-on/Real World Learning: Girls' interest in STEM 
        significantly increases when it is provided in a hands-on, 
        experiential student-led environment. Hands-on learning must 
        also be tied to practical, real world applications. To ensure 
        that we are engaging students in ways that capture their 
        imaginations and interests, Congress should support efforts to 
        expand hands-on, real world, collaborative learning in the 
        informal educational setting.

        <bullet>  Role Models: Access to strong and inspiring role 
        models and mentors is critical to engaging more girls in STEM 
        fields. Congress should create and support mentoring programs 
        to encourage young women to become involved in STEM education 
        and careers, and should promote the work of non-profit 
        organizations, collaborations with business and industry, and 
        partnerships with institutions of higher learning, with a 
        special emphasis on programs that serve girls and women, 
        minorities and people with disabilities.

        <bullet>  Stigma-busting: Stigma and stereotypes about STEM 
        fields often keep girls from pursuing these careers. Congress 
        should promote efforts to combat stigma through public 
        education campaigns. As a leading authority on girls' interests 
        and thinking, Girl Scouts is well-positioned to assist the 
        government in reframing girls' (as well as their peers' and 
        adults') perception of STEM to encourage more girls to engage 
        in STEM fields.

CONCLUSION

    As gaps in formal education increase, the informal education sector 
is ideally suited to work collaborative with schools and federal 
agencies to assure that girls' exposure and access to STEM fields are 
not lost. With our expertise on girls' development, a historical 
commitment to STEM, and a proven ability to deliver programs to girls 
in diverse communities across the country, Girl Scouts is uniquely 
positioned to help identify best practices and programming that provide 
a gateway of interest and active participation in STEM education. We 
look forward to working with the Committee to promote policy and 
programmatic proposals that address the gaps in STEM education, and 
increase the number of girls in this important field.

</pre></body></html>
